No. 20In The
Supreme Court of the United States
----------- <> -------------Walter N. Strand, III,
Petitioner,
v.
United States of America,
Respondent.
----------- <> -------------On Petition For A Writ Of Certiorari
To The United States Court Of Appeals
For The Federal Circuit
----------- <> -------------PETITION FOR A WRIT OF CERTIORARI
----------- <> -------------LUCAS T. HANBACK
Counsel of Record for Petitioner
JEFFERY M. CHIOW
NEIL H. O’DONNELL
ROGERS JOSEPH O’DONNELL P.C.
875 15th Street NW, Suite 725
Washington, DC 20005
(202) 777-8955
lhanback@rjo.com

QUESTIONS PRESENTED
In the wake of World War II, Congress
established corrections boards for military records to
help ensure that military members had a way to seek
relief from harsh outcomes in the military justice
system that hampered their reintegration into civilian
life. In establishing the boards, Congress required
service secretaries to “act[] through boards of
civilians” to correct the records of servicemembers. 10
U.S.C. § 1552(a)(1). These boards receive tens of
thousands of applications every year from
servicemembers
seeking
record
corrections.
Currently, there is a split in authority over whether
the statutory language requiring the Secretary of a
military department to “act[] through boards of
civilians” permits the Secretary to overrule a Board’s
decision that is supported by the record.
The question presented is whether the Secretary of
the Navy, is “acting through” the Board for
Correction of Naval Records as required by statute
when he reweighs evidence and sets aside a
decision of that Board that was supported by
substantial evidence.

i

PARTIES TO THE PROCEEDING AND
RELATED CASES
All of the Parties to the Case are set out in the caption
on the cover page.
These other proceedings are directly related to the
case:


Strand v. United States, No. 15-601C, United
States Court of Federal Claims. Judgment
entered June 13, 2016.



Strand v. United States, No. 2016-2450, 20162484. United States Court of Appeals for the
Federal Circuit. Judgment entered Sept. 7,
2017.



Strand v. United States, No. 15-601C, United
States Court of Federal Claims. Judgment
entered July 31, 2018.



Strand v. United States, No. 2019-1016, United
States Court of Appeals for the Federal Circuit.
Judgment entered Mar. 3, 2020.

ii

TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................ I
PARTIES TO THE PROCEEDING AND RELATED
CASES ............................................................. II
TABLE OF CONTENTS ........................................... III
TABLE OF AUTHORITIES ..................................... VI
PETITION FOR A WRIT OF CERTIORARI ............. 1
OPINIONS BELOW ................................................... 1
JURISDICTION.......................................................... 1
STATUTORY PROVISIONS INVOLVED ................. 1
STATEMENT OF THE CASE .................................... 3
REASONS FOR GRANTING THE PETITION ....... 10
I.

II.

THE FEDERAL CIRCUIT’S DECISION
WIDENS A SPLIT IN AUTHORITY AMONG
THE CIRCUITS, SOME OF WHICH WOULD
DECIDE THE QUESTION PRESENTED
DIFFERENTLY ............................................. 10

A.

The Earliest Cases Correctly Restricted The
Secretary’s Discretion Based On The
Statutory Language .................................... 13

B.

By Contrast, The Federal Circuit Has
Eroded An Important Procedural Protection
For Service Members. ................................ 17

THE FEDERAL CIRCUIT’S DECISION IS
INCONSISTENT WITH THE EXPRESS
DICTATE OF 10 U.S.C. § 1552 ..................... 20

iii

III.

A.

The Plain Language of 10 U.S.C. § 1552
Limits The Secretary’s Discretion ............. 20

B.

Permitting A Secretary To Substitute His
Judgment For The Board’s Violates Canons
Of Statutory Construction .......................... 21

C.

The Federal Circuit’s Opinion In Strand IV
Is Inconsistent With The Legislative History
Of The Statute Showing That The Boards
Were Established To Provide Civilian
Oversight Of Military Decision Making ... 24

MR. STRAND’S CASE PRESENTS A CLEAN
AND CLEAR ISSUE UPON WHICH THE
COURT CAN RULE ....................................... 28

CONCLUSION.......................................................... 31
APPENDIX ............................................................... 1A
APPENDIX
Opinion of the United States Court of Appeals for the
Federal Circuit, Strand v. United States, 951 F.3d
1347 (Fed. Cir. 2020)..…..……………………………1a
Opinion and Order of the United States Court of
Federal Claims, Strand v. United States, 138 Fed.
Cl. 633 (Fed. Cl. 2018)……….……………….........30a
January 5, 2018 Decision of Navy Assistant General
Counsel for Manpower and Reserve Affairs, Ms.
Catherine Kessmeier……………………………….56a
Opinion of the United States Court of Appeals for the
Federal Circuit, Strand v. United States, 706 Fed.
Appx. 996 (Fed. Cir. 2017)…………………….…..68a
iv

Opinion and Order of the United States Court of
Federal Claims, Strand v. United States, 127 Fed.
Cl. 44 (Fed. Cl. 2016)………………….…………....81a
February 3, 2015 Decision of Navy Assistant General
Counsel for Manpower and Reserve Affairs, Mr.
Robert Woods………………………………………..97a
December 15, 2014 Decision of the Board for
Correction of Naval Records……………………..99a
December 12, 2013 Decision of the Naval Discharge
Review Board……….………………………………106a
May 3, 2012 Decision of the Naval Discharge Review
Board……….………………………………………..110a
10 U.S.C. § 1552……………………………………...113a
December 7, 2017 Letter from Mr. Strand’s Counsel
to the Navy Assistant General Counsel for
Manpower and Reserve Affairs…....…………….134a
November 28, 2017 Letter from the Navy Assistant
General Counsel for Manpower and Reserve Affairs
to Counsel for Mr. Strand……………..………….142a

v

TABLE OF AUTHORITIES
Cases
Barber v. Widnall, 78 F.3d 1419 (9th Cir. 1996) ..... 13
Betts v. United States, 145 Ct. Cl. 530 (Ct. Cl. 1959)
................................................................. 15, 80, 126
Blasingame v. Sec’y of the Navy, 866 F.2d 556 (2d
Cir. 1989) ............................................................... 12
Boyd v. United States, 207 Ct. Cl. 1 (Ct. Cl. 1975) .. 17
Carney v. Sec’y of Defense, 462 F.2d 606 (1st Cir.
1972) ...................................................................... 23
Champagne v. Schlesinger, 506 F.2d 979 (7th Cir.
1974) ...................................................................... 12
Dibble v. Fenimore, 545 F.3d 208 (2d Cir. 2008) ..... 12
Duncan v. Walker, 533 U.S. 167 (2001) ................... 22
Falk v. Sec’y of the Army, 870 F.2d 941 (2d Cir. 1989)
............................................................................... 12
Friedman v. United States, 158 F. Supp. 364, (Ct. Cl.
1958) ...................................................................... 27
Gentila v. Pace, 193 F.2d 924 (D.C. Cir. 1951) cert.
denied 342 U.S. 943 (1952) ................................... 14
Guerrero v. Stone, 970 F.2d 626 (9th Cir. 1992) ...... 14
Harmon v. Brucker, 355 U.S. 579 (1958) ................. 14

vi

Hertzog v. United States, 167 Ct. Cl. 377 (Ct. Cl.
1964) .......................................................... 12, 15, 19
Hodges v. Callaway, 499 F.2d 417 (5th Cir. 1974) .. 13
Horn v. Schlesinger, 514 F.2d 549 (8th Cir. 1975) .. 12
Kingdomware Techs., Inc. v. United States, 136 S. Ct.
1969 (2016) ............................................................ 22
Kungys v. United States, 485 U.S. 759 (1988) ......... 22
Laningham v. United States, 30 Fed. Cl. 296 (Fed.
Cl. 1994)................................................................. 18
Miller v. Lehman, 801 F.2d 492 (D.C. Cir. 1986) .... 13
Neal v. Sec’y of the Navy and Commandant of the
Marine Corps, 639 F.2d 1029 (3d Cir. 1981) . 11, 15,
16
Nelson v. Miller, 373 F.2d 474 (3d Cir. 1967), cert.
denied, 387 U.S. 924 (1967) .................................. 11
Prince v. U.S., 119 F. Supp. 421 (Ct. Cl. 1954) ........ 14
Proper v. United States, 139 Ct. Cl. 511 (Ct. Cl. 1957)
........................................................................passim
Sanders v. United States, 594 F.2d 804 (Ct. Cl. 1979)
......................................................................... 17, 19
Schindler Elevator Corp. v. U.S. ex rel. Kirk, 563 U.S.
401 (2011) .............................................................. 20
Sec’y of Navy v. Huff, 444 U.S. 453 (1980) ............... 14

vii

South Corp. v. United States, 690 F.2d 1368 (Fed.
Cir. 1982) ................................................................. 8
Strickland v. United States, 423 F.3d 1335 (Fed. Cir.
2005) ...............................................................passim
Waudby v. United States, No. 2:09-cv-1167, 2010 WL
324521 (D. N.J. 2010) ........................................... 11
Weiss v. United States, 187 Ct. Cl. 1 (Ct. Cl. 1969) 11,
15, 125
Statutes
10 U.S.C. § 1552 ................................................ 1, 3, 26
10 U.S.C. § 1552 (h) .................................................. 27
10 U.S.C. § 1552(a)(1) ........................................passim
10 U.S.C. § 1552(a)(2) ............................................... 24
10 U.S.C. § 1552(a)(3) ............................................... 20
10 U.S.C. § 1552(b) ................................................... 24
10 U.S.C. § 1552(i) .................................................... 29
10 U.S.C. § 1553 .......................................................... 3
10 U.S.C. § 204 ............................................................ 7
10 U.S.C. § 6333 .......................................................... 7
2 U.S.C. § 190g .......................................................... 25
28 U.S.C. § 1254(1) ..................................................... 1
viii

28 U.S.C. § 1491 .......................................................... 7
28 U.S.C. § 1491(a) ................................................... 13
5 U.S.C. § 702 .............................................................. 7
Legislative Reorganization Act of 1946 § 131...... 3, 25
National Defense Authorization Act for Fiscal Year
2017, Pub. L. No. 114-328, § 535, 130 Stat. 2000
(2016) ..................................................................... 27
National Defense Authorization Act for Fiscal Year
2018, Pub. L. No. 115-91, § 520, 131 Stat. 1332
(2017) ..................................................................... 27
Pennsylvania Office of Administration, Fair-Chance
Hiring, HR-TM001, May 5, 2017 ............................ 5
Philadelphia Code, Chapter 9-3500 ........................... 5
Pub. L. No. 82-220, 65 Stat. 655 (1951) ................... 27
Regulations
32 C.F.R. § 723.3(e)(2) .............................................. 22
Other Authorities
40 Op. Att'y Gen. 504 (1947) .................................... 26
78 Cong. Rec. 4538 (1944) ........................................ 26
A. Scalia & B. Garner, Reading Law: The
Interpretation of Legal Texts 167 (2012................ 23
Act, Black’s Law Dictionary (11th ed. 2019) ............ 20
ix

Board for Correction of Naval Records, FAQ and Key
Information,
https://www.secnav.navy.mil/mra/bcnr/Pages/FAQ
_and_Key_Information.aspx#0 (last visited, July 1,
2020) ...................................................................... 29
Chester City Act 47 Exit Plan, Adopted 2018-10-10 . 4
Christopher H. Lunding, Judicial Review of Military
Administrative Discharges, 83 Yale. L. J. 33, Nov.
1973 ......................................................................... 5
Dictionary.com, Acting, https://www.
dictionary.com/browse/acting (last visited July 20,
2020) ...................................................................... 21
General Accounting Office, FPCD-80-13, Military
Discharge Policies and Practices Result in Wide
Disparities: Congressional Review is Needed (Feb.
1980) ........................................................................ 3
H.R. Rep. No. 449, 82 Cong., 1st Sess. 6 (1951) ...... 27
Hearings on H.R. 1181 Before a Subcomm. Of the
House Comm. On Armed Service, 82 Cong., 1st
Sess. 391-93 (1951)................................................ 28
John. J. Field, Waiving the Discretionary Statute of
Limitations Governing the Boards for Correction of
Military Records, 62 Geo. Wash. L. Rev. 920 (1993)
............................................................................... 26

x

Major Bryant A. Boohar, Combat Stress Claims:
Veterans’ Benefits and Post Separation Character
of Service Upgrades for “Bad Paper” Veterans After
The Fairness for Veterans Act, 227 Mil. L. Rev. 95,
2019, at 95. ........................................................ 5, 30
Merriam-Webster.com Dictionary, Merriam-Webster,
Through, https://www. merriamwebster.com/dictionary/through (last visited July
19, 2020) ................................................................ 21
Michael J. Wishnie, “A Boy Gets Into Trouble”:
Service Members, Civil Rights, And Veterans’ Law
Exceptionalism, 97 B.U.L. Rev. 1709, 1726-27
(2017) ..................................................................... 25
S. Rep. No 78-755, at 2 (1944) .................................. 26
S. Rep. No. 1400, 79th Cong., 2d Sess. 1 (1946) ...... 25
S. Rep. No. 78-755 (1944) ......................................... 26
Supreme Court of the United States Order 589,
March 19, 2020 ........................................................ 1

xi

PETITION FOR A WRIT OF CERTIORARI
Petitioner Walter N. Strand, III respectfully
petitions this Court for a writ of certiorari to review
the judgment of the United States Court of Appeals
for the Federal Circuit in this case.
OPINIONS BELOW
The opinion of the Federal Circuit (App. 1a-29a)
is reported at 951 F.3d 1347 (Fed. Cir. 2020) (“Strand
IV”). The Court of Federal Claims opinion and order
(App. 30a-56a) is reported at 138 Fed. Cl. 633 (Fed. Cl.
2018)(“Strand III”).
The Federal Circuit’s first
opinion (App. 69a-81a) was non-precedential, but is
reported at 706 Fed. Appx. 996 (Fed. Cir. 2017)
(“Strand II”). The Court of Federal Claims’ initial
opinion and order (App. 82a-99a) is reported at 127
Fed. Cl. 44 (Fed. Cl. 2016) (“Strand I”).
JURISDICTION
The Federal Circuit issued its decision and
accompanying order on March 3, 2020. This Court has
jurisdiction under 28 U.S.C. § 1254(1) to review the
circuit court’s decision on a writ of certiorari. On
March 19, 2020, this Court extended filing deadlines
for petitions for writ of certiorari to 150 days in light
of the ongoing COVID-19 pandemic. See Supreme
Court of the United States Order 589, March 19, 2020.
STATUTORY PROVISIONS INVOLVED
10 U.S.C. § 1552

1

(a)(1). The Secretary of a military
department may correct any military
record of the Secretary's department
when the Secretary considers it
necessary to correct an error or remove
an injustice. Except as provided in
paragraph (2), such corrections shall be
made by the Secretary acting through
boards of civilians of the executive part
of that military department. The
Secretary of Homeland Security may in
the same manner correct any military
record of the Coast Guard.
(2) The Secretary concerned is not
required to act through a board in the
case of the correction of a military
record announcing a decision that a
person is not eligible to enlist (or
reenlist) or is not accepted for
enlistment
(or
reenlistment)
or
announcing
the
promotion
and
appointment of an enlisted member to
an initial or higher grade or the
decision not to promote an enlisted
member to a higher grade. Such a
correction may be made only if the
correction is favorable to the person
concerned
***
(4)(A) Subject to subparagraph (B), a
correction under this section is final
and conclusive on all officers of the
2

United States except when procured by
fraud.
***
STATEMENT OF THE CASE
Prior to World War II, requests by
servicemembers for corrections to their military
records were handled through private bills to
Congress. General Accounting Office, FPCD-80-13,
Military Discharge Policies and Practices Result in
Wide Disparities: Congressional Review is Needed
(Feb. 1980) at 75. After World War II, Congress
established boards in each of the military
departments to handle these functions.
See
Legislative Reorganization Act of 1946 § 131, 10
U.S.C. §§ 1552, 1553. For the Navy, these boards are
the Board for Correction of Naval Records (“BCNR”)
and the Navy Discharge Review Board (“NDRB”). At
issue in this case is a decision concerning the
correction of Mr. Strand’s naval record by the BCNR
to remove an injustice. Congress directed that such
corrections by the board “shall be made by the
Secretary acting through boards of civilians. . .” 10
U.S.C. § 1552(a)(1)(emphasis added). The Federal
Circuit nonetheless upheld the Secretary’s decision to
ignore the BCNR and unilaterally reject Mr. Strand’s
request for correction. That decision was not made
“acting through” the board, and it therefore violated
Section 1552(a)(1). This Court should grant certiorari
to correct the Federal Circuit’s erroneous
interpretation of the statute.
Mr. Strand served his country honorably and
without disciplinary incident for nearly 19 and a half
3

years in the Navy. App. 70a.
Despite his
disadvantaged start in life,1 Mr. Strand rose to
become a “dynamic leader” in the Navy, praised as a
“[s]uperb manager” and a “pillar for subordinates and
juniors alike to emulate.”
App. 34a (quoting
administrative record).
During his service, Mr.
Strand spent more than 11 years of that time deployed
overseas, including deployments in support of combat
operations in Iraq and Afghanistan. App. 33a.
These continuous deployments demanded by
our Nation’s wars took their toll on this dedicated
sailor. After returning from his last deployment, Mr.
Strand found that his wife had, without telling him,
moved out, cleaned out his bank account, taken his
possessions, was filing for divorce, and was refusing to
let him see his children. App. 33a. In a split-second
lapse of judgment caused by frustration and anger,
Mr. Strand fired a weapon next to a vehicle carrying
his estranged wife and her male companion. Id. No
one was injured, but Mr. Strand was arrested and
later convicted of attempted malicious wounding,
attempted unlawful wounding, and use of a firearm in
the commission of a felony on February 4, 2009. Id.;
see also App 3a. After his conviction, the Navy
administratively separated Mr. Strand and
discharged him with an Other Than Honorable
discharge. App. 2a-3a. Mr. Strand was sentenced to
six years in prison, but was released after three years
based upon his model conduct. App. 3a. Mr. Strand
1 Mr. Strand grew up in the Philadelphia suburb of Chester,
Pennsylvania, one of Pennsylvania’s poorest jurisdictions. See
Chester City Act 47 Exit Plan, Adopted 2018-10-10 at 42 (median
income of Chester is only about 40% of the income of the county
in which it sits).

4

has since been trying to put his life back together, in
part by seeking to correct his military record and the
characterization of his discharge. See App. 34a.
Recipients of any discharge that is not
honorable are disadvantaged upon their return to
civilian life. See Christopher H. Lunding, Judicial
Review of Military Administrative Discharges, 83
Yale. L. J. 33, Nov. 1973 at 33. In addition to the
stigma and effects on employment and education
prospects, such discharges also cut off access to
Veterans Administration (“VA”) services. That may
spell crisis at a time when it is estimated that 20
veterans commit suicide per day.2 See Major Bryant
A. Boohar, Combat Stress Claims: Veterans’ Benefits
and Post Separation Character of Service Upgrades for
“Bad Paper” Veterans After The Fairness for Veterans
Act, 227 Mil. L. Rev. 95, 2019, at 95.
Today, Mr. Strand is underemployed, works
multiple jobs, and provides all of his available income
to support his children. App. 139a. Although
Pennsylvania, where Mr. Strand lives, has adopted
“ban the box” laws to prevent minorities like Mr.
Strand from suffering disproportionately in
employment decisions based on criminal records
checks,3 there is no such prohibition on reviewing a
potential employee’s service record. This undermines
2 Even with his discharge upgraded to a General Under
Honorable Conditions, Mr. Strand has encountered difficulty in
applying for VA benefits.

See Pennsylvania Office of Administration, Fair-Chance Hiring,
HR-TM001, May 5, 2017; Philadelphia Code, Chapter 9-3500.

3

5

Mr. Strand’s ability to use his service record to
document his valuable training and certifications,4
and his uncorrected record provides a backdoor for
employers to deny him gainful employment and
prevent him from fully reintegrating into civilian life.
App. 139a-140a. For these reasons, Mr. Strand sought
to have his record corrected.
While proceeding pro se for four years following
his release from prison, Mr. Strand requested
correction of his records from both the NDRB and the
BCNR on numerous occasions. App. 34a-35a. Both
forums granted him relief from the conditions of his
initial discharge from the Navy. First, the NDRB
granted
Mr.
Strand
an
upgrade
to
his
Characterization of Service from Other than
Honorable to General Under Honorable Conditions.5
App. 34a. Then in December 2014, after careful
consideration of all the evidence, the BCNR found that
Mr. Strand had “suffered long enough for his
indiscretion” and granted him further relief in the
form of correction of his naval record “to show he was
honorably retired with 20 years of service vice issued
a discharge under honorable conditions by reason of
misconduct.” App. 35a.
Under Section 1552(a)(1), the BCNR’s decision
should have been binding on the Secretary because
Mr. Strand held the rate of Information Systems Technician,
and had been trained on sensitive information systems
technology and operations. He held a Top Secret security
clearance.

4

5 The NDRB’s decision was not challenged by the Navy, is now
final and unreviewable, and has not been the subject of litigation.

6

the statute requires the Secretary to act “through” the
Board. Instead, however, the Secretary of the Navy’s
Assistant General Counsel for Manpower and Reserve
Affairs (“AGC”) reviewed the BCNR’s decision and
tersely overruled it in a two-paragraph decision. App.
97a-98a.
In Strand I, Mr. Strand challenged the AGC’s
decision in the Court of Federal Claims under the
Tucker Act, 28 U.S.C. § 1491. Review in these cases
is conducted under the Administrative Procedures Act
(“APA”) and courts determine whether the Secretary’s
actions are “arbitrary, capricious, unsupported by
substantial evidence, or in violation of the law.” 5
U.S.C. § 702; see also Strickland v. United States, 423
F.3d 1335, 1339 (Fed. Cir. 2005). Mr. Strand also
invoked the money mandating statutes of 10 U.S.C. §
6333 and 10 U.S.C. § 204. Mr. Strand prevailed in
showing that the AGC’s reversal was arbitrary,
capricious, an abuse of discretion and unsupported by
substantial evidence in the Court of Federal Claims.
App. 95a. On the Navy’s appeal in Strand II, the
Federal Circuit agreed that Mr. Strand had shown
there was no substantial evidence in support of the
AGC’s decision. App. 74a-75a. Because the AGC had
relied on “intertwined reasons” in rejecting the
BCNR’s recommendation, the Federal Circuit
remanded for further proceedings. App. 75a.
On remand, the AGC again rejected the
BCNR’s recommendation, and without involving the
BCNR, issued a seven-page letter applying Navy Core
Values to again deny Mr. Strand the relief
recommended by the Board. App. 56a-68a. The AGC’s
second reversal: relitigated a lone alcohol incident
7

from when Mr. Strand was 18 years old (PlaintiffAppellee’s Brief at 22-23, Strand v. United States, No.
2019-1016 (Fed. Cir filed Mar. 28, 2019)); applied core
values that were not in existence at that time of this
conduct (id. at 23); classified his conduct as violative
of the core values even though Mr. Strand received a
Good Conduct Medal for that period and was
promoted and reenlisted (id. at 23-24); relied on cases
from forums where Mr. Strand never appeared and
which do not address the core values (Id. at 24-26);6
failed to apply the Navy’s core values reciprocally as
required (id. at 35-36); focused on the conduct for
which Mr. Strand was convicted in violation of the
BCNR’s regulations (id. at 28); and accepted the
recommendation of a retired military officer in
overturning the BCNR’s decision in violation of Proper
v. United States, 139 Ct. Cl. 511, 526 (Ct. Cl. 1957).7
Id. at 30-33.
All of this is arbitrary decision making at odds
with the BCNR’s well-supported decision. And none
of this was done “through [a] board[] of civilians. . .”
as required by 10 U.S.C. § 1552(a)(1). Rather, the
AGC acted herself without any indication to Mr.
Strand what the AGC would focus on, and without
providing him any opportunity to address her specific

6 One cited case was from the Air Force which has different core
values entirely. Plaintiff-Appellee’s Brief at 25, fn. 10, Strand v.
United States, No. 2019-1016 (Fed. Cir filed Mar. 28, 2019)
7 The United States Court of Claims was the predecessor Court
to the Federal Circuit, which adopted the Court of Claims
decisions as binding precedent in South Corp. v. United States,
690 F.2d 1368, 1370 (Fed. Cir. 1982).

8

concerns or offer additional evidence to rebut them
before issuing her decision.8
Mr. Strand successfully challenged this second
denial in the Court of Federal Claims in Strand III.
App. 53a. In particular, Mr. Strand argued that the
Secretary does not have absolute discretion to reject
the recommendation of the Board because he is
required by statute to “act[] through” the Board. See
Supplemental Complaint at ¶ 55, Strand v. United
States, No. 15-601C (Fed. Cl. filed Mar. 21, 2018);
Corrected Plaintiff-Appellee’s Brief at 10, 15 Strand v.
United States, No. 2019-1016 (Fed. Cir filed Mar. 28,
2019) (arguing that BCNR decisions are not merely
advisory). On the Navy’s second appeal in Strand IV,
the Navy argued that the Secretary is free to reject the
Board’s decision based on a reweighing of the evidence
before the Board.9 See Reply Brief of DefendantAppellant at 6-9, No. 2019-1016 (Fed. Cir. filed Apr.
18, 2019). The Federal Circuit this time sided with
the Navy. It held that its prior binding precedent,
which contained strong language restricting the
Secretary’s
ability
to
reject
the
Board’s
recommendation, was applicable only in narrow
8 The AGC sent Mr. Strand a letter allowing him to submit
additional information, but never informed him that her decision
would range beyond the original rationale advanced by the first
AGC, and did not inform him of her specific concerns with the
record. App. 142a-143a.
9 The Navy also argued that Mr. Strand had waived his right to
challenge the aspects of the decision which had never been
previously disclosed to him. See Defendant’s Motion to Dismiss
the Supplemental Complaint or in the Alternative for Judgment
on the Administrative Record, No. 1:15-cv-00601 (Fed. Cl. filed
May 14, 2018) at 13-14.

9

circumstances involving the recommendation of a
military officer. App. 13a-14a. According to the
Federal Circuit, absent such circumstances, service
Secretaries are free to disregard the recommendations
of the Boards where the evidence is subject to varying
interpretations. App. 14a.
This decision allows the Secretary to act
without involving the Board even though 10 U.S.C. §
1552(a)(1) requires the Secretary to “act[] through
boards of civilians” to correct records. If the Secretary
may reweigh the evidence and overrule the board, he
is not “acting through” the Board.
REASONS FOR GRANTING THE PETITION
I.

THE FEDERAL CIRCUIT’S DECISION
WIDENS A SPLIT IN AUTHORITY
AMONG THE CIRCUITS, SOME OF
WHICH WOULD DECIDE THE QUESTION
PRESENTED DIFFERENTLY

The Federal Circuit’s decision in Strand IV
widens a split among the circuits on the discretion of
the Secretary to reverse the Board based on a
reweighing of the evidence. If left unresolved, this
leaves servicemembers subject to inconsistent
applications of the law. Under the correct rule, where
the Board’s recommendations are justified by the
record, the Secretary has no discretion to deviate from
them.
The Third Circuit has cited the correct rule that
the Secretary is not “acting through” the Board if he
overrules Board recommendations that are justified
by the record. See Neal v. Sec’y of the Navy and
10

Commandant of the Marine Corps, 639 F.2d 1029,
1043, n.13 (3d Cir. 1981). This rule was first
announced in in the early cases of Proper, 139 Ct. Cl.
at 526, and Weiss v. United States, 187 Ct. Cl. 1, 10
(Ct. Cl. 1969). The Third Circuit holds that the
Secretary may not “arbitrarily overrule the
recommendations of the Board where the findings of
the Board are justified by the record.” See Nelson v.
Miller, 373 F.2d 474, 478 (3d Cir. 1967) cert. denied
387 U.S. 924 (1967).10
In Neal, the Third Circuit explained that this
rule applies even though “the decision of the BCNR is
in the form of a recommendation to the Secretary”.
639 F.2d at 1043, n.13; see also Nelson v. Miller, 373
F.2d at 478. Courts within the Third Circuit have
cited this rule in response to government arguments
that the Secretary of a military department has final
discretion to overrule a Board. See Waudby v. United
States, No. 2:09-cv-1167, 2010 WL 324521 at *8-9 (D.
N.J. 2010) (citing Neal, Weiss, and Proper and denying
government motion for summary judgment because
Secretary’s rejection of a Board decision could be
arbitrary if Board decision was supported by
substantial evidence). The Third Circuit thus looks to
see whether the Board’s decision is justified by the
record, and if so, the Secretary will not be permitted
to reweigh the evidence and set aside the Board’s
decision.

Although it indicated that it felt the Chief of Naval Personnel’s
rejection of a board decision was improper, the Third Circuit did
not reach this ultimate question but instead allowed the district
court to retain jurisdiction while the plaintiff pursued relief
through the BCNR.

10

11

Though none have clearly ruled on the exact
question presented here, several other Circuits have
favorably cited the Third Circuit’s articulation of the
rule when examining the powers of the Secretary and
the Boards.
The Second Circuit has cited Neal, as
persuasive authority in cases involving Board review.
See Blasingame v. Sec’y of the Navy, 866 F.2d 556,
558-559 (2d Cir. 1989)(reversing grant of summary
judgment in case referred to Commandant of the
Marine Corps for advisory opinion); see also Dibble v.
Fenimore, 545 F.3d 208, 215 (2d Cir. 2008) (citing Neal
as persuasive authority in case involving Air Force
Board for Correction of Military Records).11 The
Eighth Circuit has cited the Third Circuit’s Nelson
decision, and Proper, Weiss, and Hertzog v. United
States, 167 Ct. Cl. 377 (Ct. Cl. 1964), from the Court
of Claims in explaining that the Secretary cannot
arbitrarily overrule Board decisions.
Horn v.
Schlesinger, 514 F.2d 549, 553 (8th Cir.
1975)(deciding case on failure to exhaust
administrative remedies). The Seventh Circuit also
cites the rule followed by the Third Circuit. See
Champagne v. Schlesinger, 506 F.2d 979, 983 (7th Cir.
1974) (citing Hertzog and explaining that rejection is
allowable only on narrow grounds). Finally, the Fifth
Circuit has cited Proper, Weiss, and Hertzog from the
Court of Claims, and Nelson from the Third Circuit in
11 Cf. Falk v. Sec’y of the Army, 870 F.2d 941, 945 (2d Cir. 1989).
In Falk, the Second Circuit held that the Board’s power to correct
was discretionary. Id. This holding, however, did not examine a
secretary’s rejection of a Board decision supported by substantial
evidence, and instead involved an examination of the Board’s
decision in the first instance. Id.

12

explaining that the Secretary cannot arbitrarily
overrule the Board. See Hodges v. Callaway, 499 F.2d
417, 423 (5th Cir. 1974). These Circuits’ citation of the
strong rule preventing arbitrary reversal of Board
decisions by the Secretary indicates that they would
side with the Third Circuit.
By contrast, the Federal Circuit’s decision here
permits the Secretary to overrule the board based on
his own view of the evidence. In addition to the
Federal Circuit, the Ninth, and D.C. Circuits appear
to provide the Secretary discretion to overrule the
Board by reweighing the evidence. See, e.g., Barber v.
Widnall, 78 F.3d 1419, 1423 (9th Cir. 1996); Miller v.
Lehman, 801 F.2d 492, 497 (D.C. Cir. 1986).
This split in authority means that some circuits
will permit the Secretary to reweigh evidence and set
aside a Board decision whereas others will not.12 The
Court should grant this petition to resolve this
conflicting authority from the Circuits on an
important right Congress granted to servicemembers
based upon the Nation’s experience in World War II.
A.

The Earliest Cases Correctly
Restricted The Secretary’s

The decision in Strand IV is also a significant shift because the
majority of these cases proceed in the Federal Circuit as the
United States Court of Federal Claims has exclusive jurisdiction
over monetary claims against the government in excess of
$10,000. See 28 U.S.C. § 1491(a).

12

13

Discretion Based On The Statutory
Language
The Court of Claims, acting close in time to the
enactment of the statute,13 initially strongly rejected
the idea that the Board’s recommendations are
“merely advisory”. See, e.g., Proper, 139 Ct. Cl. at 526
(Ct. Cl. 1957). In Proper, the court said
But defendant urges that the Secretary
did not need to act through a civilian
board and that the recommendations of
the Correction Board were merely
advisory, leaving the Secretary free to
accept and act favorably on the findings
and recommendations, or to ignore
them, as he saw fit. Such an
interpretation of [the statute] makes
the words ‘acting through boards of
civilian
officers
or
employees’
superfluous. Neither the act itself nor

A handful of initial cases held that decisions of the Boards were
not reviewable by the Courts. See Gentila v. Pace, 193 F.2d 924,
927 (D.C. Cir. 1951) cert. denied 342 U.S. 943 (1952). These
conflicted with law developed in the Court of Claims finding such
claims reviewable. See Prince v. U.S., 119 F. Supp. 421, 423-424
(Ct. Cl. 1954). In Harmon v. Brucker, the majority of the Court
found that a district court had jurisdiction over a
servicemember’s claim challenging the characterization of his
discharge. 355 U.S. 579, 581-582, (1958). Since then, Courts
have reviewed such claims. See, e.g., Guerrero v. Stone, 970 F.2d
626, 628 (9th Cir. 1992)(“the federal courts are open to assure
that, in applying the regulations, commanders do not abuse the
discretion necessarily vested in them.” citing Sec’y of Navy v.
Huff, 444 U.S. 453, 458 n.5 (1980)).

13

14

its legislative history warrants such an
interpretation.
Id. As the Proper court explained, “[s]ince the errors
or injustices which might require correction were
originally made by the military, Congress made it
manifest that the correction of those errors and
injustices was to be in the hands of civilians.” Id.
Accordingly, the court determined that under
certain circumstances, the Secretary could be bound
by the BCNR’s findings. See Weiss, 187 Ct. Cl. at 10
(citing Hertzog, 167 Ct. Cl. at 387). These initial
decisions focused on the findings of the board, and
where those findings were warranted and supported
by substantial evidence, the Secretary was not
permitted to overrule the Board without additional
evidence to the contrary. Proper, 139 Ct. Cl. at 52728; Weiss, 187 Ct. Further, the court also initially took
the position that the Secretary could not simply
reverse the Board because he disagreed with the
decision. See Betts v. United States, 145 Ct. Cl. 530,
535-36 (Ct. Cl. 1959). Moreover, the Secretary was not
free to reach a decision that is contrary to the
evidence. Hertzog, 167 Ct. Cl. at 387. As the court
stated, “a decision contrary to all the evidence, and for
which, even on post audit, no reason can be given
except an irrelevant reason, cannot be characterized
as other than capricious. As such it deserves only to
be ignored, and we ignore it.” Id.
These earliest cases correctly recognized that
Congress intended to place decision making authority
over record corrections cases in the hands of civilians
as an oversight mechanism. Proper, 139 Ct. Cl. at 526.
As the Third Circuit has explained in Neal:
15

The statute establishing military
review tribunals explicitly obligates
them to act to ‘remove an injustice,’ a
task which necessarily entails an
inquiry by the tribunal as to whether
the individual has been treated in a
manner comporting with traditional
notions of fairness. In essence, the
military correction boards were
established to provide an institutional
check on arbitrary action. Before the
legislation which authorized creation of
administrative boards, Congress itself
reviewed military discharges on an ad
hoc basis. When Congress determined
to change the previously prevailing
system, it did so by providing for
tribunals with broad, not restricted
review power. It need not have done so.
It
could
have,
without
any
constitutional impediment, maintained
or perpetuated the practice by which
military personnel decisions were the
sole prerogative of the commanding
officers. Instead, when Congress
established civilian boards to review
military personnel decisions, it did not
provide for boards limited, as the
names may erroneously imply, to the
clerical function of making technical
correction of records of military
personnel.
639 F.2d at 1042 (internal citation omitted).

16

As observed by the Third Circuit, it was not
necessary for Congress to create the Boards, and
Congress could have left complete discretion for record
corrections to the military chain of command. Indeed,
10 U.S.C. § 1552(a)(2) shows that Congress was well
aware of this possibility as that provision allows
Secretaries to act without Board involvement in
certain cases.
By treating corrections under
1552(a)(1) differently, and requiring the Secretary to
act “through” the Board, it is clear that Congress did
not intend simply to preserve total discretion for the
Secretary.
Courts in the Third Circuit have
interpreted the history of the statute to prohibit the
Secretary from reversing the Board where the Board’s
decisions are supported by the record. See Waudby,
2010 WL 324521 at *8-9.
B.

By Contrast, The Federal Circuit
Has Eroded An Important
Procedural Protection For Service
Members.

Despite the strong initial precedent protecting
servicemembers from arbitrary reversal of board
decisions by the Secretary, more recent cases in the
Federal Circuit have drifted away from this standard.
In Boyd v. United States, the Court of Claims found
that the secretary could reverse the Board where the
Board’s findings were not justified on the record
before the Board. 207 Ct. Cl. 1, 9 (Ct. Cl. 1975). In
Sanders v. United States, the Court of Claims then
cited Boyd and held that secretaries were free to differ
with the recommendations of the Boards where the
evidence is susceptible to varying interpretations. 594
F.2d 804, 812 (Ct. Cl. 1979). Courts nonetheless
17

continued to apply Weiss and Proper to prevent
reversal where the Board’s decisions were supported.
See, e.g, Laningham v. United States, 30 Fed. Cl. 296,
308-09 (Fed. Cl. 1994) (“Weiss stands for the
proposition that the Secretary of a military
department does not have the unilateral authority to
set aside the findings of a correction board where such
findings are supported by the evidence.”).
More recently, in Strickland v. United States,
the Federal Circuit relied on Sanders and Boyd to
reverse the Court of Federal Claims’ decision that the
BCNR’s determination was binding on the Secretary
by operation of the statute. 423 F.3d at 1337-38. In
Strickland, the Federal Circuit held that the
Secretary (through the AGC) could reject the BCNR’s
decision, but such rejection was subject to review
under the APA standard. Id. at 1343. Yet even under
that weakened standard, the strong language from
earlier cases like Proper, Weiss and Hertzog continued
to be applied if the Board’s decision was justified by
the record. See, e.g., App. 93a (“Ultimately, because
the function of the BCNR is not merely advisory, the
Secretary is not free to reject a recommendation
without proper justification.”).
In the Strand IV case, the Federal Circuit has
now walked this back further, and erroneously
distinguished Proper, Weiss, and Hertzog on the basis
that those cases apply only in instances where the
Secretary rejects the Board’s recommendation on the
advice of a military officer.14 See App. 13a (stating
In Mr. Strand’s case, the AGC accepted the recommendation of
Mr. Robert O’Neill, a recently retired Judge Advocate General
Corps officer, to revisit the BCNR’s decision. See App. 10a. The

14

18

that Proper and Weiss have “no application” without
military officer involvement). The Federal Circuit
then held that without military officer involvement,
“the Secretaries are free to differ with
recommendations of correction boards where the
evidence is susceptible to varying interpretations.”
App. 13a-14a (internal ellipsis and brackets
omitted)(citing Sanders v. United States, 594 F.2d
804, 812 (Ct. Cl. 1979).
By allowing service secretaries total deference
to overrule the Boards, the Federal Circuit has now
placed the decision-making power back into the
military chain of command with the Secretary. The
earliest decisions of its predecessor, the Court of
Claims, correctly held that this was not what
Congress intended when it required the Secretary to
“act[] through” the Board to correct records. The
Federal Circuit has strayed so far from the original
meaning of the statute intended by Congress as to
render it meaningless. This Court should grant
certiorari to restore the balance created by Congress.

Federal Circuit found Proper and Weiss inapplicable because Mr.
O’Neill was retired and thus a civilian when he wrote the memo
recommending the AGC review the BCNR’s decision. App. 13a.
The Federal Circuit’s holding that Proper and Weiss are
inapplicable in Mr. Strand’s case ignores that in Proper, the
recommendation was also made by a retired officer. Proper, 139
Ct. Cl. at 526; see also Hertzog, 167 Ct. Cl. at 382
(recommendation also made by retired officer).

19

II.

THE FEDERAL CIRCUIT’S DECISION IS
INCONSISTENT WITH THE EXPRESS
DICTATE OF 10 U.S.C. § 1552

The Federal Circuit’s decision in Strand IV
allows the Secretary to act without involving the
Board. 10 U.S.C. § 1552(a)(1) requires the Secretary
to “act[] through boards of civilians” when correcting
records. (emphasis added). The Federal Circuit’s
decision permits the Secretary to disagree with the
Board’s conclusions about the record and to reach a
different decision, and upon different bases than the
Board.15 But if the Secretary is permitted to reweigh
the evidence and decide however he sees fit, he is not
“acting through” the Board, and the Board serves no
purpose.
A.

The Plain Language of 10 U.S.C. §
1552 Limits The Secretary’s
Discretion

In interpreting statutory language, the Court
first looks to the ordinary meaning of the language.
See Schindler Elevator Corp. v. U.S. ex rel. Kirk, 563
U.S. 401, 407 (2011). An “act” is “something done or
performed.” Act, Black’s Law Dictionary (11th ed.
2019). Additionally, “acting” when used as a verb
without an object means “to reach, make, or issue a
decision on some matter.” Dictionary.com, Acting,
The statute requires that where the Board makes a
preliminary determination that there are insufficient documents
or information to support a claim, the claimant must be notified
in writing and given an opportunity to provide the records. 10
U.S.C. § 1552(a)(3)(B-C). Here the AGC did not inform Mr.
Strand of the bases upon which she found his claim insufficient
prior to issuing her decision.

15

20

https://www.
dictionary.com/browse/acting
(last
visited July 20, 2020). Here, the “act” is the correction
of a military record and the Secretary is supposed to
be “acting”—reaching the decision—“through” the
Board.
“Through” is “used as a function word to
indicate means, agency, or intermediacy: such as a: by
means of : by the agency of.” Merriam-Webster.com
Dictionary, Merriam-Webster, Through, https://www.
merriam-webster.com/dictionary/through (last visited
July 19, 2020). Here, Congress granted the power to
“correct an error or remove an injustice” from a
military record. 10 U.S.C. § 1552(a)(1). In so doing,
Congress mandated that “such corrections shall be
made by the Secretary acting through boards of
civilians of the executive part of that military
department.” Id. (emphasis added). The act of
correcting records has been delegated by Congress to
the Boards. “[A]cting through” the Boards means that
the Secretary is required to rely on the Boards when
making these decisions. At the very minimum, this
language means that the Secretary can’t reject the
Board’s conclusion when that conclusion is supported
by the record. If the Secretary could just reject the
Board’s decision in such circumstances, that would
effectively render the Board’s input irrelevant.
B.

Permitting A Secretary To
Substitute His Judgment For The
Board’s Violates Canons Of
Statutory Construction

Under the mandatory/permissive canon of
statutory construction, mandatory words like “shall”
impose a duty. See Kingdomware Techs., Inc. v.
21

United States, 136 S. Ct. 1969, 1977 (2016). The
statute says that “corrections shall be made by the
Secretary acting through boards of civilians of the
executive part of that military department.” 10 U.S.C.
§ 1552(a)(1)(emphasis added). The Secretary thus has
a duty to act through the Boards when correcting
errors or injustices and cannot substitute his own
judgment in place of the Boards.
Although the statute begins with language that
says “[t]he Secretary of a military department may
correct any military record . . .” (emphasis added), the
following sentence requires corrections “shall” be done
“through” the boards. 10 U.S.C. § 1552(a)(1)(“such
corrections shall be made by the Secretary acting
through boards of civilians…”). The permissive
language in the first sentence of the statute only
clarifies that records may be corrected,16 but the
statute imposes a duty that any such corrections are
determined by the Boards.
The Federal Circuit’s decision also violates the
canon against surplusage. It is the Court’s “duty to
‘give each word some operative effect’ where possible.”
Duncan v. Walker, 533 U.S. 167, 175 (2001). Under
this canon, no word should needlessly be given an
interpretation that causes it to duplicate another
provision or to have no consequence. See Kungys v.
United States, 485 U.S. 759, 778 (1988) (plurality
This reading of the permissive language in the first sentence
of the statute is consistent with the Navy’s regulations that state
that correction will not be denied solely on ground that initial
record was correct when made. 32 C.F.R. § 723.3(e)(2). If
corrections could be denied for this reason alone, the Secretary
could take the position that corrections were not permitted if the
records had been correctly made.

16

22

opinion of Scalia, J.) (citing the “cardinal rule of
statutory interpretation that no provision should be
construed to be entirely redundant”). By allowing the
Secretary to decide cases as he sees fit without regard
to the Board’s decision, the Federal Circuit has
rendered the words “through boards of civilians”
surplusage. See Proper, 139 Ct. Cl. at 526.
The Secretaries of the military departments
have always had inherent authority and discretion to
make military records and to correct the records they
have made. See, e.g., Carney v. Sec’y of Defense, 462
F.2d 606, 607 (1st Cir. 1972)(noting that Secretary of
the Navy has inherent authority to issue or modify
orders). In creating the Boards, Congress took some
of that discretion and curtailed it, requiring that
Secretaries act “through” boards of civilians. In other
words, Congress introduced a requirement that the
Secretary’s authority to “remove an injustice” from
military records could not be exercised independent of
civilian boards. This understanding of the words
“acting through boards of civilians” is consistent with
Congress’ civilian oversight role via private bills that
it sought to supplant by establishing the Boards. If
Congress intended only for the Secretary to have
absolute discretion to correct records, it did not have
to create the Boards at all, or to use language
requiring the Secretary to “act[] through boards of
civilians.” This language cannot be treated as
superfluous.
Finally, under the whole-text canon, the text of
a statute must be construed as a whole. A. Scalia &
B. Garner, Reading Law: The Interpretation of Legal
Texts 167 (2012) (explaining that “the whole-text
23

canon” requires consideration of “the entire text, in
view of its structure” and “logical relation of its many
parts”). Subsection (a) of the statute divides the
universe of decisions into two parts: for some decisions
the Secretary must “act[] through boards of civilians”;
and for other decisions “[t]he Secretary concerned is
not required to act through a board”.17 Compare 10
U.S.C. § 1552(a)(1) with § (a)(2). Taken as a whole,
this provision alone shows that the final decision
under section (a)(1) does not belong to the Secretary
and demonstrates that Congress knew how to state
such discretionary authority in section (a)(2).
However, the other provisions of the statute speak of
the Board making the determination on record
corrections (subsections (a)(3), (4), (g), (h)) and one
provision permits the Secretary himself to request
correction from the Board. 10 U.S.C. § 1552(b) (“the
Secretary concerned files a request for the correction”
and “[t]he Secretary concerned may file a request for
correction of a military record” (emphasis added)). If
the statute had placed discretion to correct records
with the Secretary, then the Secretary would not have
to request correction from the Board. This overall
scheme is inconsistent with the idea, as now expressed
by the Federal Circuit, that all corrections are at the
Secretary’s sole discretion. The Court should grant
this petition to ensure that courts are correctly
interpreting the law as intended by Congress.
C.

The Federal Circuit’s Opinion In
Strand IV Is Inconsistent With The

This second category of decisions include those concerning
enlistment, re-enlistment or promotion. See 10 U.S.C. §
1552(a)(2). In such cases, the Secretary can only act if his action
is favorable to the servicemember. Id.

17

24

Legislative History Of The Statute
Showing That The Boards Were
Established To Provide Civilian
Oversight Of Military Decision
Making
By using the language “acting through boards
of civilians,” Congress clearly did not intend for the
Secretary to have final discretion over records
corrections because the Boards were established to
mimic Congress’ civilian oversight of the military.
Prior to World War II, requests by servicemembers for
corrections to their records were handled through
private bills to Congress. General Accounting Office,
supra, at 75. Congress established the NDRB and the
BCNR at the end of World War II due in part to
concerns that Congress was not properly equipped to
handle the volume of requests. See Legislative
Reorganization Act of 1946 § 131 (outlawing private
bills to correct military records)(codified at 2 U.S.C. §
190g); see also John. J. Field, Waiving the
Discretionary Statute of Limitations Governing the
Boards for Correction of Military Records, 62 Geo.
Wash. L. Rev. 920 (1993) (quoting S. Rep. No. 79-1400
(1946) and explaining year-long study determining
that Congress was not organized and equipped to
supervise execution of programs).
Additionally, Congress was concerned that
military members did not receive the same legal and
procedural protections in the military justice system
that they would be entitled to in civilian courts. See
Michael J. Wishnie, “A Boy Gets Into Trouble”: Service
Members, Civil Rights, And Veterans’ Law
Exceptionalism, 97 B.U.L. Rev. 1709, 1726-27 (2017)
25

(citing S. Rep. No 78-755, at 2 (1944) and 78 Cong.
Rec. 4538 (1944)). Accordingly, Congress first
established Discharge Review Boards in 1944, and
then in 1946 directed that civilian boards review
military records to correct errors or injustice. 10
U.S.C. § 1552;18 see also, e.g., John. J. Field, Waiving
the Discretionary Statute of Limitations Governing the
Boards for Correction of Military Records, 62 Geo.
Wash. L. Rev. 920, 932-935 (1993) (discussing
legislative history of creation of the Boards). The
broad purpose of the Acts that established the Boards
in the wake of World War II was to create a “bill of
rights to facilitate the return of service men and
women to civilian life.” S. Rep. No. 78-755, at 2 (1944).
Shortly after the creation of the Boards, the Attorney
General opined that the Boards were established “as
a substitute for a disapproved system (relief by private
acts) and should be so construed, if possible, as to
make unnecessary further resort to the old method.”
40 Op. Att'y Gen. 504, 508 (1947) (Attorney General
Tom C. Clark).
“If courts read the grant to permit the
Secretaries unbridled discretion to decide whether or
not to correct an injustice, then the courts would alter
substantially the Act’s purpose because such a
reading would make resort to the old method
necessary to obtain relief.” John J. Field, Waiving the
Discretionary Statute of Limitations Governing the
Boards for Correction of Military Records, 62 Geo.
Wash. L. Rev. 920 (1993) at 935. “Thus, ‘the
conjunction of section 131 [disallowing private bills]
The Boards were originally codified at 5 U.S.C. § 191a, but this
was moved to the current location in the Code by Aug. 10, 1956,
c. 1041, 70A Stat. 116.

18

26

with section 207 [establishing the Boards] implies
that the Secretaries have a duty as well as the power
to afford servicemembers proper relief.” Id.; see also
40 Op. Att'y Gen. 504, 505 (“These two sections must
be read together.”).
Recognizing that it faces a public health crisis
with the Nation’s veterans after nearly two full
decades of continuous fighting, Congress continues to
try to implement protections for servicemembers
through the Boards.
See National Defense
Authorization Act for Fiscal Year 2017, Pub. L. No.
114-328, § 535, 130 Stat. 2000, 2919 (2016), amended
by National Defense Authorization Act for Fiscal Year
2018, Pub. L. No. 115-91, § 520, 131 Stat. 1332
(2017)(“Fairness for Veterans Act”) (requiring boards
to give “liberal consideration” to claims by service
members suffering from PTSD or related behavioral
health conditions); see also 10 U.S.C. § 1552 (h)
(codification of the Fairness for Veterans Act). Yet,
despite Congress’ clear intention that the Boards
should provide equitable relief to servicemembers to
soften the impact of harsh military justice in
subsequent civilian life, that goal continues to be
frustrated by eroded judicial oversight and near
complete deference, in some circuits, to Secretarial
reversals of the recommendations of the Boards.19
The judiciary’s reluctance to exercise proper oversight is also
inconsistent with the legislative history of revisions to the
statute. Pub. L. No. 82-220, 65 Stat. 655 (1951). Congress had
expressly considered and rejected language that Board actions
“shall be final and conclusive on all officers of the Government,
including review by the courts of the United States except when
procured by means of fraud.” See Friedman v. United States, 158
F. Supp. 364, 375 (Ct. Cl. 1958) (emphasis added) (citing H.R.
Rep. No. 82-449 (1951)). The emphasized language was deleted

19

27

III.

MR. STRAND’S CASE PRESENTS A
CLEAN AND CLEAR ISSUE UPON
WHICH THE COURT CAN RULE

The Navy has never contended that the BCNR
did not have the power to grant Mr. Strand the relief
it did. In fact, before the Federal Circuit, the Navy
conceded that the BCNR’s decision was supported by
the record. See Brief of Defendant-Appellant at 23-24
Strand IV, Case No. 19-1016 (Fed. Cir. filed Feb. 19,
2019) (“[t]o be sure, before the Secretary were
evidence and arguments that supported granting the
BCNR’s recommendation, and we recognize that a
reasonable person perhaps could have reached a
different result after considering them.”).
That
concession sets up the perfect test and should prove
determinative. Proper, Weiss, Neal, Hertzog, Betts,
and others, have correctly held that where the Board’s
recommendations are justified by the record, the
Secretary has no discretion to deviate from them. The
rule in Proper is consistent with Congress’ intent that
corrections to military records be made by the
Secretary “acting through boards of civilians.”
Mr. Strand’s is exactly the type of case
Congress envisioned when it brought the Boards into
existence – the servicemember who “gets into trouble.”
After a stellar 19½ year career, Mr. Strand committed
one split-second instance of misconduct that is now
over 12 years old. As a result, Mr. Strand now has a
black mark in his record that is preventing his
after hearings. Id. (citing Hearings on H.R. 1181 Before a
Subcomm. Of the House Comm. On Armed Service, 82 Cong., 1st
Sess. 391-93 (1951)).

28

reintegration into civilian life. The BCNR saw the
injustice in continuing to punish Mr. Strand under
these circumstances and granted him relief. That
decision is fully supported by the record, but it was
summarily reversed twice by the AGC. Contrary to
the intent of Congress, the Federal Circuit has
permitted the AGC to revert to a harsh standard of
military justice that needlessly continues to punish
Mr. Strand, without any perceptible benefit for the
Navy. Indeed, the AGC’s current position that Mr.
Strand’s conduct is so violative of the core values as to
preclude further relief is inconsistent with the current
characterization of his discharge—General (Under
Honorable Conditions) (emphasis added).
Today, the Boards receive tens of thousands of
cases every year from servicemembers like Mr. Strand
seeking corrections to their service records. Although
the Boards are required by 10 U.S.C. § 1552(i) to post
information on the number of claims considered and
corrected, this information is difficult to obtain. The
most recent statistics available from the BCNR show
that it receives over 12,000 applications annually.20
Current statistics for the Army Board for Correction
of Military Records are not available, but
commentators have noted that the board received
17,674 applications in fiscal year 2012, of which 9,314
were considered by three-member panels. See The
Boards for Correction of Military and Naval Records:
An Administrative Law Perspective, 65 Admin. L.
Rev. 499, 502 (Spring 2013). Current Air Force Board
20 See Board for Correction of Naval Records, FAQ and Key
Information,
https://www.secnav.navy.mil/mra/bcnr/Pages/FAQ_and_Key_Inf
ormation.aspx#0 (last visited, July 1, 2020).

29

for Correction of Military Records statistics are not
available. Even with this imperfect information, we
know that tens of thousands of servicemembers seek
relief from the Boards every year.
Mr. Strand’s treatment is representative of the
challenges faced by tens of thousands of other
servicemembers trying to obtain relief from the
Boards as Congress intended so that they can fully
integrate back into civilian life.
After those
servicemembers have served in our Nation’s
continuing and longest war effort, under incredible
personal stress upon themselves and their families,
they often find themselves subject to harsh military
justice. These veterans suffer from high rates of PostTraumatic Stress Disorder and Traumatic Brain
Injury,21 which Congress has recognized and directed
the military to address in a lenient manner. See 10
U.S.C. §§ 1552(g)(2), (h). But some courts have
allowed a system designed by Congress to show
leniency to those who have served to be replaced by
the same harsh military system Congress intended to
soften. The Court should act to eliminate the current
uncertainty as to whether courts should show
virtually total deference to a military Secretary’s
reversal of a Corrections Board. By doing so it will
ensure the return of the power to correct service
records to the Boards as Congress intended.

See Boohar, supra at 105-06 (noting that between 2000 and
2015 approximately 177,461 servicemembers were diagnosed
with Post Traumatic Stress Disorder, and 327,299 were
diagnosed with Traumatic Brain Injury).

21

30

CONCLUSION
The Court should grant the petition for a writ
of certiorari in order to remedy the degradation of a
remedy for thousands of servicemembers who seek
corrections to their service records. This Court should
reverse the Federal Circuit and afford such other and
further relief as the Court deems proper.
Respectfully submitted,
LUCAS T. HANBACK
Counsel of Record
JEFFERY M. CHIOW
NEIL H. O’DONNELL
ROGERS JOSEPH O’DONNELL P.C.
750 9th Street NW, Suite 710
Washington, DC 20001
(202) 777-8950
lhanback@rjo.com
Counsel for Petitioner
July 31, 2020

31

APPENDIX

APPENDIX
United States Court of Appeals for the Federal
Circuit
______________________
WALTER N. STRAND, III,
Plaintiff-Appellee
v.
UNITED STATES,
Defendant-Appellant
______________________
2019-1016
______________________
Appeal from the United States Court of Federal
Claims in No. 1:15-cv-00601-TCW, Judge Thomas C.
Wheeler.
______________________
Decided: March 3, 2020
______________________
LUCAS TAYLOR HANBACK, Rogers Joseph
O'Donnell, Washington, DC, argued for plaintiffappellee. Also represented by JEFFERY M. CHIOW;
NEIL H. O'DONNELL, San Francisco, CA.
DANIEL KENNETH GREENE, Commercial
Litigation Branch, Civil Division, United States
1a

Department of Jus-tice, Washington, DC, argued for
defendant-appellant. Also represented by JOSEPH
H. HUNT, ROBERT EDWARD KIRSCHMAN, JR.,
DOUGLAS K. MICKLE; STEPHEN ROBERT
STEWART, Office of the Judge Advocate General,
General Litigation Division, United States
Department of the Navy, Washington, DC.
______________________
Before REYNA, HUGHES, and STOLL,
Circuit Judges.
Opinion for the court filed by Circuit Judge
HUGHES.
Dissenting opinion filed by Circuit Judge
REYNA.
HUGHES, Circuit Judge.
The government appeals a decision of the
United States Court of Federal Claims setting aside
the Secretary of the Navy’s denial of Walter Strand’s
request to correct his military service records. Against
the recommendation of a records correction board, the
Secretary denied Mr. Strand’s request for a six-month
service credit to become eligible for military
retirement benefits. Because the Secretary did not
exceed his authority in rejecting the board’s
recommendation and substantial evidence supports
his decision, we reverse and thereby reinstate the
Secretary’s decision to deny the correction.
I

2a

Mr. Strand served in the Navy for roughly
nineteen and a half years until June 2009 when he
was discharged under other than honorable conditions
for firing a gun at his estranged wife and her
companion. Mr. Strand was convicted in state court of
three felonies: attempted malicious wounding,
attempted unlawful wounding, and use of a firearm in
the commission of a felony. He was sentenced to six
years in prison, with three years suspended for good
behavior. Since his release, Mr. Strand has sought
various “corrections” to his naval service records,
including a six-month credit so that he would have 20
years of service and be eligible for military retirement
benefits.1
A
In 2014, the Board for Correction of Naval Records
(BCNR or Board) recommended granting Mr. Strand’s
requested correction. The Board weighed “the
seriousness of [Mr. Strand’s] disciplinary infractions”
against his “overall record of more than 19 years and
six months of satisfactory service [including receiving
numerous medals,] . . . . his good post service
conduct[,] and his early release from civil confinement
due to good behavior.” J.A. 32. Finding that he had
“suffered long enough for his indiscretion,” the Board
recommended correcting Mr. Strand’s record to reflect
20 years of service. J.A. 32–33. That recommendation
has now been twice considered—and twice rejected—
by the
As discussed below, 10 U.S.C. § 1552 authorizes corrections of
military records when “necessary to correct an error or remove
an injustice.”

1

3a

Secretary of the Navy.2
First, in February 2015, the Secretary rejected the
Board’s recommendation in a short, two-paragraph
decision. The Secretary’s decision generally
referenced the seriousness
of Mr. Strand’s felony convictions, the Navy’s core
values, its practice in similar cases, and Mr. Strand’s
supposed “long-standing history of FAP [Family
Advocacy Program] involvement and domestic
violence issues.” J.A. 25. Mr. Strand challenged this
decision in the Court of Federal Claims, which
reversed the Secretary’s 2015 decision as arbitrary
and capricious and instructed the Navy to retire Mr.
Strand. Strand v. United States (Strand I), 127 Fed.
Cl. 44, 51 (2016).
On appeal, we agreed that the Secretary’s 2015
decision was not supported by substantial evidence,
but we reversed and remanded to allow the Secretary
an opportunity for further review. Strand v. United
States (Strand II), 706 F. App’x 996, 998, 1001 (Fed.
Cir. 2017) (nonprecedential). In Strand II, we found a
lack of substantial evidence specifically because the
Secretary’s statement that Mr. Strand had a history
of FAP involvement and domestic violence issues
lacked record support. Id. at 1000. Recognizing that
2 The Secretary has delegated authority to act on
BCNR recommendations to the Assistant Secretary, Manpower
and Reserve Affairs, SECNAVINST 5420.193 at 1¶ 3(b), who in
turn delegated that authority to the Assistant General Counsel
for Manpower and Reserve Affairs, Appellant’s Br. 4 n.1. Here,
different Assistant General Counsels issued the two rejection
decisions, but for clarity we refer to both as decisions of the
Secretary.

4a

the Secretary relied on “a combination of intertwined
reasons,” at least one of which Mr. Strand had shown
was not supported by substantial evidence, we remanded because the Secretary had not yet considered
whether the Board’s decision “should be upheld in the
absence of any evidence of a ‘long-standing history’ of
FAP involvement.” Id.
On remand following Strand II, the Secretary
considered the Board’s 2014 recommendation anew
and in January 2018—after inviting and receiving
supplemental information from Mr. Strand—again
rejected the recommendation. The Secretary this time
issued a seven-page memorandum explaining the
decision to deny the re-quested correction. The
Secretary found that Mr. Strand’s overall periods of
service and post-service conduct did not “overcome the
seriousness of the misconduct that resulted in his
civilian conviction,” and that the “passage of time . . .
does not warrant overlooking the seriousness of the
conviction that led to his discharge” and his resultant
ineligibility for retirement. J.A. 283.
The Secretary also noted that two early
“counseling/warning” entries added to Mr. Strand’s
record in February 1992 and September 1993 gave
him “clear and repeated notice” that he could be
separated from service for disobeying military
regulations and civilian laws.3 J.A. 118, 121, 283.
3 It is unclear from the record whether the 1992 and
1993 entries addressed the same underlying act(s) of
misconduct. The parties take opposing stances, with Mr.
Strand urging that the 1993 entry was merely a follow-up
for the same misconduct that prompted the 1992 entry. Even
assuming the Secretary erred in stating that Mr.

5a

The Secretary then described how Mr. Strand’s
“history of performance and conduct” did not align
with each of the Navy’s core values—Honor, Courage,
and Commitment. J.A. 283–85. Finally, the Secretary
noted that Mr. Strand’s offenses were equivalent to a
violation of Uniform Code of Military Justice Article
128 (Assault), which authorizes a maximum penalty
of dishonorable discharge and confinement for eight
years. Citing several military justice cases, the
Secretary further noted that it was “very likely” Mr.
Strand would have received a punitive discharge had
he been prosecuted by the Navy, rather than civilian
authorities. J.A. 285. The Secretary concluded:
In sum, I commend Petitioner’s efforts
to engage in rehabilitation following
his conviction and incarceration, as
well as his efforts to rebuild his life.
However, I do not find that relief is
warranted and that Petitioner should
be granted credited time served for
retirement when, in fact, the basis for
his inability to retire was not an error
or an injustice, but his own deliberate
misconduct despite being on clear
notice of the consequences of his
actions. To grant relief under the
circumstances of this matter wholly
ignores the high standards that the

Strand “again engaged in misconduct in 1993,” J.A. 283, we
would find this error harmless. No matter the number of early
instances of misconduct, the Secretary’s rejection decision is
supported by substantial evidence.

6a

Navy expects our military members to
demonstrate.
J.A. 285–86. The Secretary also added that Mr.
Strand had already received “appropriate relief” from
another records review board that upgraded his
service characterization from “Under Other Than
Honorable Conditions” to “General Under Honorable
Conditions.” J.A. 52, 286. The Secretary found this
partial relief—reflecting Mr. Strand’s “satisfactory
service and post-incarceration efforts to re-build his
life”—further reason to deny additional relief. J.A.
286.
B
Mr. Strand filed a supplemental complaint in
the Court of Federal Claims contesting the Secretary’s
2018 decision. On cross-motions for judgment upon
the administrative record, the Court of Federal
Claims again found the Secretary’s decision arbitrary
and capricious. Strand v. United States (Strand III),
138 Fed. Cl. 633, 643 (2018). Specifically, the trial
court found it arbitrary and capricious for the
Secretary to view Mr. Strand’s early counseling
entries as providing notice of his obligation to comply
with Navy core values that did not exist at the time of
the 1992 entry;4 and for the Secretary to engage in
“hypothetical forecasting” by “comparing Mr. Strand’s
civil case to military cases that do not apply the same
analysis.” Id. at 641. As to consideration of Mr.
4 The government concedes that the Navy adopted its core
values of Honor, Courage, and Commitment in late 1992, after
Mr. Strand received his 1992 counseling entry. Appellant’s Br.
9, 26.

7a

Strand’s 2009 convictions, the trial court determined
that this Court, in Strand II, already “found that Mr.
Strand’s conduct did not constitute substantial
evidence to support the Secretary’s decision.” Id. at
642 (citing Strand II, 706 F. App’x at 1000). Finally,
the trial court faulted the Secretary for “fail[ing] to
give any real consideration to Mr. Strand’s postservice conduct.” Id. at 643. The court concluded that,
given these deficiencies and the Board’s “thorough
consideration of the evidence of record,” it could not
uphold the Secretary’s “decision to overrule the
Board.” Id. The trial court therefore again directed the
Navy to retire Mr. Strand with all appropriate back
pay, benefits, and allowances. Id. at 643–44.
The government now appeals.
jurisdiction under 28 U.S.C. § 1295(a)(3).

We

have

II
We review de novo the Court of Federal Claims’
decision to grant or deny judgment on the
administrative record. Roth v. United States, 378 F.3d
1371, 1381 (Fed. Cir. 2004). In reviewing an adverse
decision of a records correction board, we apply the
same standard of review that the Court of Federal
Claims applied, without deference. See id. Here we are
called to review not the action of a correction board,
but action by the Secretary of the Navy to overrule
that correction board. While the parties dispute the
circumstances in which a service secretary may reject
a board’s recommendation, they agree that the
substantial-evidence standard generally applies here.
That is, we must “determine whether the Secretary’s
rejection of the Board recommendation was arbitrary
8a

or capricious, unsupported by substantial evidence, or
otherwise contrary to the law.” Strickland v. United
States, 423 F.3d 1335, 1343 (Fed. Cir. 2005).
Substantial evidence is “such relevant evidence as a
reasonable mind might accept as adequate to support
a conclusion.” Consol. Edison Co. of N.Y. v. NLRB, 305
U.S. 197, 229 (1938).
A
The statute establishing civilian militaryrecords correction boards, such as the BCNR,
provides: “The Secretary of a military department
may correct any military record of the Secretary’s
department when the Secretary considers it necessary
to correct an error or remove an in-justice.” 10 U.S.C.
§ 1552(a)(1). Except in circumstances not present
here, “such corrections shall be made by the Secretary
acting through boards of civilians of the executive part
of that military department.” Id. (emphasis added).
Records correction boards were first authorized
in 1946 to “relieve Congress of the burden of
considering private bills to correct alleged errors and
injustices in the military system . . . .” Martinez v.
United States, 333 F.3d 1295, 1306–07 (Fed. Cir.
2003) (en banc). Concerned that service members
returning to civilian life after World War II might be
“handicapped by bad military records created without
due process in the hurly-burly of the war,” and that
career military officials “would not be much interested
in effecting corrections,” Congress required the service
secretaries to act “through boards of civilians.” Boyd
v. United States, 207 Ct. Cl. 1, 14 (1975) (Nichols, J.,
concurring).
9a

Under Naval Service regulations, the BCNR
can take corrective action on behalf of the Secretary in
many situations. See 32 C.F.R. § 723.6(e)(1). But any
petition that the Secretary or the BCNR Executive
Director determines warrants Secretarial review is
“reserved for decision” by the Secretary. Id. §
723.6(e)(2)(iii). In Mr. Strand’s case, BCNR Executive
Director Robert O’Neill—a retired Navy JAG
Corpsman—requested that the Secretary review the
Board’s 2014 recommendation.5 In cases designated
for Secretarial review, the record of proceedings “will
be forwarded to the Secretary who will direct such
action as he or she determines to be appropriate . . . .”
32 C.F.R. § 723.7(a). “If the Secretary’s decision is to
deny relief, such decision shall be in writing and,
unless he or she expressly adopts in whole or in part
the findings, conclusions and recommendations of the
Board, or a minority report, shall include a brief
statement of the grounds for denial” satisfying 32
C.F.R. § 723.3(e)(4).6 Id.
Mr. O’Neill’s handwritten memo reads in full:
Please prepare this decision for [Manpower
and Re-serve Affairs] review. It is my opinion,
based on the seriousness of the offense and the
significant grant of relief, that [the Secretary]
should review this case for decision.
J.A. 35.

5

6 Section 723.3(e)(4), in turn, requires that the “brief statement
of the grounds for denial” include
the reasons for the determination that relief
should not be granted, including the
applicant’s claims of constitutional, statutory
and/or regulatory violations that were rejected,
together with all the essential facts upon which
the denial is based, including, if applicable,

10a

B
This appeal raises the question of how much
constraint a substantiated Board recommendation
places on a Secretary’s discretion to deny record
correction requests. Relying on language in
Strickland v. United States, 423 F.3d 1335, 1340–41
(Fed. Cir. 2005), the government asserts that the
Secretary may reject a Board recommendation “on the
basis of either explicitly stated policy reasons or
evidence in the record.” Appellant’s Br. 19 (quoting
Strickland). In Strickland, we held that Board
recommendations are not binding on the Secretary
since “Congress clearly has delegated the final
authority regarding any correction of military records
to the Secretary, not the correction board.” 423 F.3d at
1340; see id. at 1337 (concluding that the “the trial
court erred in interpreting § 1552(a) to man-date that
the . . . Secretary cannot reject a Board
recommendation”). We did not address the merits of
whether the Secretary’s rejection was permissible in
that instance, in-stead remanding for the trial court
to “determine whether the Secretary’s rejection of the
Board recommendation was arbitrary or capricious,
unsupported by substantial evidence, or otherwise
contrary to the law.” Id. at 1343. Thus, our
observation that “[o]ther circuits too have held that
the Secretary is authorized to reject a Board
recommendation so long as he acts on the basis of
either explicitly stated policy reasons or evidence in
the record,” id. at 1341, did not adopt such a standard
for future cases.
factors required by regulation to be considered
for determination of the character of and
reason for discharge.

11a

For his part, Mr. Strand argues that, under
precedent from our predecessor court, the Secretary
may not alter a correction board’s recommendation
unless the board’s findings are unsupported by the
administrative record. Appellee’s Br. 14–17. In his
view,
rejecting
a
substantiated
board
recommendation amounts to ignoring the board,
rather than “acting through” it, as § 1552(a) requires.
We acknowledge that strong language in some of our
adopted precedent would seem to support Mr.
Strand’s position. See, e.g., Proper v. United States,
154 F. Supp. 317, 326 (Ct. Cl. 1957) (rejecting the
proposition that a secretary is “free to accept and act
favorably
on
the
[board’s]
findings
and
recommendations, or to ignore them, as he [sees] fit”
be-cause such an interpretation of § 1552 “makes the
words ‘acting through boards of civilian officers or
employees’ superfluous” (quoting the predecessor to §
1552)); Weiss v. United States, 408 F.2d 416, 421 (Ct.
Cl. 1969) (“The thrust of the Proper opinion is that a
Secretary of a military department cannot overrule
the recommendations of a civilian correction board on
the advice of a military officer unless the findings of
the board are not justified by the record before it.”
(emphasis added)).
However, as the above-quoted language in
Weiss suggests, the decisions on which Mr. Strand
relies were rendered in the context of service
secretaries being influenced by—or outright
adopting—the opinions of military officers in rejecting
otherwise substantiated board recommendations. See
Weiss, 408 F.2d at 420–21 (Navy Secretary rejecting a
BCNR recommendation in an opinion that JAG likely
12a

prepared for the Secretary’s signature); Hertzog v.
United States, 167 Ct. Cl. 377, 385 (1964) (Army
Secretary’s rejection decision was “induced and
influenced” by general’s memorandum stating “I think
the approval of this recommendation would be a very
bad precedent”); Proper, 154 F. Supp. at 324–25 (Army
Secretary merely signed an order attached to the
oppositional memorandum of a retired general who
was not a civilian employee of the Army).
We have since held that Proper and Weiss “have no
application” without military officer involvement. See
Strick-land, 423 F.3d at 1341–42 (noting that in those
cases—which “had as a precondition the involvement
of a uniformed military officer”—the Secretary
“effectively deferred to a professional military officer
over the reasonable decision of the Board”). We
therefore find these cases inapplicable here. Although
BCNR Executive Director O’Neill is a retired military
officer, his memo requesting Secretarial review does
not constitute undue officer influence. Mr. O’Neill was
a civilian employee of the Navy when he wrote the
memo, cf. Proper, 154 F. Supp. at 325 (finding it
“important” that the memo in question was “rendered
by a military officer . . . , and not by a civilian
employee” of the Army); and his memo merely states
that the Secretary “should review this case for
decision,” J.A. 35, without advocating a particular
outcome of that review.
Indeed, in cases without military officer
involvement, our predecessor court “ha[s] held that
the Secretaries are free to . . . differ with the
recommendations of [correction] boards where the
evidence is susceptible to varying interpretations.”
13a

Sanders v. United States, 594 F.2d 804, 812 (Ct. Cl.
1979) (citing Boyd v. United States, 207 Ct. Cl. 1, 11
(1975)). In Boyd, the court upheld the Air Force
Secretary’s rejection of a board recommendation,
finding the board’s conclusion “d[id] not withstand the
contrary analysis and conclusion made in good faith,
within the law, and without arbitrariness or caprice
by the Assistant Secretary.” 207 Ct. Cl. at 12–13. In
so holding, the Boyd court applied the standard that
courts “may reject the decision of a Secretary only if
he has exercised his discretion arbitrarily,
capriciously, in bad faith, contrary to substantial
evidence, or where he has gone outside the board
record, or fails to explain his actions, or violates
applicable law or regulations.” Id. at 8–9. We reaffirm
that standard today.
We hold that, where a military officer has not
unduly influenced the secretary’s decision, a service
secretary may reject the recommendation of a records
correction board—even a recommendation supported
by the administrative record—so long as the
secretary’s rejection decision is not arbitrary or
capricious, unsupported by substantial evidence, or
otherwise contrary to the law. See Strickland, 423
F.3d at 1343; Boyd, 207 Ct. Cl. at 8–9.
C
The Secretary’s 2018 decision satisfies this
standard. It must therefore be reinstated.
The Secretary’s thorough consideration of the
serious-ness of Mr. Strand’s criminal misconduct,
alone, justifies his decision to deny the requested
14a

relief. The Secretary undertook a broad review of Mr.
Strand’s record, but in our view the heavy weight he
ascribed to Mr. Strand’s “cho[ice] to take a gun and
attempt[] to cause his former wife and another
individual substantial harm by discharging the
weapon,” J.A. 284, fully supports denying him credit
for six months of service he did not perform.
The trial court misread our decision in Strand
II when it stated that we “found that Mr. Strand’s
conduct did not constitute substantial evidence” and
that we had “rejected” his prior conviction as a
justification
for
overruling
the
Board’s
recommendation. See Strand III, 138 Fed. Cl. at 642–
43. We took no such position. In Strand II, we
considered an extremely brief Secretarial decision
which generally relied on four “intertwined reasons”
to reject the Board’s recommendation. 706 F. App’x at
999–1000. Because we found no record support for one
of those reasons—the alleged FAP involvement and
domestic violence issues—we remanded for the
Secretary to consider whether the Board’s
recommendation “should be upheld in the absence of
any evidence of a ‘long-standing history’ of FAP
involvement and domestic violence issues.” Id. at
1000. We expressed no view on the hypothetical
sufficiency of the other three reasons the Secretary
mentioned in the 2015 rejection—(1) the seriousness
of Mr. Strand’s convictions; and (2) that granting
relief would be inconsistent with the Navy’s core
values and (3) its practice in similar cases—in the
absence of the unsupported domestic violence reason.
Id. The Secretary’s 2018 decision makes it abundantly
clear that his decision remains the same even without
evidence of FAP involvement or domestic violence
15a

issues. The trial court’s misinterpretation of Strand II
notwithstanding, the Secretary remained free to rest
his decision on the seriousness of Mr. Strand’s
offenses.7
Mr. Strand objects that Naval Service
regulations prohibit denying relief solely because the
original discharge decision was correctly made, citing
32 C.F.R. § 723.3(e)(2).8 Even assuming § 723.3(e)(2)
applies to decisions of the Secretary (and not only to
Board consideration of initial applications), and
assuming Mr. Strand’s interpretation is correct, that
regulation does not undermine the Secretary’s 2018
decision. The Secretary did not reject the Board’s
recommendation simply because he thought the
In Strand II, the Secretary’s brief reference to Mr. Strand’s
“serious felonies” was not enough for us to uphold his 2015
decision, given its simultaneous reference to un-supported
domestic violence issues. J.A. 25.
8 Section 723.3(e)(2) provides, in relevant part:
The Board may deny an application in
executive session if it determines that the
evidence of record fails to demonstrate the
existence of probable material error or
injustice. The Board relies on a presumption of
regularity to support the official actions of
public officers and, in the absence of
substantial evidence to the contrary, will
presume that they have properly discharged
their official duties. Applicants have the
burden of overcoming this presumption but the
Board will not deny an application solely
because the record was made by or at the
direction of the President or the Secretary in
connection with proceedings other than
proceedings of a board for the correction of
military or naval records.
32 C.F.R. § 723.3(e)(2) (emphasis added).
7

16a

Navy’s 2009 discharge decision was correct. Nowhere
in the 2018 rejection decision do we find discussion of
the propriety of the original discharge. Rather, we find
a full analysis of the seriousness of Mr. Strand’s
conduct underlying the dis-charge.9
D
Beyond considering the seriousness of Mr.
Strand’s conviction-related conduct, the Secretary’s
seven-page memorandum also discussed several other
reasons for denying the service-credit correction—
more than satisfying the requirement to provide a
“brief statement of the grounds for denial.” See 32
C.F.R. §§ 723.3(e)(4), 723.7(a). Mr. Strand and the
trial court take issue with various aspects of the
Secretary’s additional reasoning. But none of the
identified issues brings the Secretary’s 2018 decision
into the realm of arbitrary or unlawful agency
action.10
9 At oral argument, Mr. Strand’s counsel seemed to suggest that
§ 723.3(e)(2) also prohibits relying solely on the seriousness of the
conduct underlying the discharge. See Oral Argument at 19:40–
20:00 (Q: “Are you saying that because he was administratively
discharged from the . . . Navy because of this felony conviction
and jail time, that they can’t further use that as a basis . . . for
not giving him relief under the corrections board decision? A: I’m
saying it can’t be the sole basis, Your Honor.”) and 31:01–10
(stating that under § 723.3(e)(2) the Secretary cannot rely on “the
initial
incident”
as
“the
sole
basis”),
http://oralarguments.cafc.uscourts.gov/default.aspx?fl=20191016.mp3. We find nothing in the text of § 723.3(e)(2) prohibiting
consideration of the seriousness of prior misconduct.

Mr. Strand has moved to strike the government’s reply brief,
arguing that it raises new issues not presented in the
government’s opening brief, though addressed by the trial court.
We agree that the government forfeited the justiciability and

10

17a

First, both the trial court and Mr. Strand, on
appeal, ascribe error to the Secretary’s use of the
Navy’s core values to assess Mr. Strand’s request for
relief. Mr. Strand objects both to the retroactive
application of the core values to his 1992 conduct
predating their establishment, and to the Secretary’s
invocation of the core values in general to overrule the
Board’s recommendation. Although the Navy
admittedly had not adopted its core values of Honor,
Courage, and Commitment when Mr. Strand received
his 1992 counseling entry, we see nothing arbitrary
about analyzing his overall history of performance
and conduct under the values existing at the time of
the 2018 decision. While we agree that the 1992
counseling entry could not have provided Mr. Strand
notice to comply with not-yet existing standards, it
still could—and did—warn him of the consequences of
future misconduct. J.A. 121 (stating that failure to
adhere to cited guidelines in the future “will make you
eligible for administrative separation action”). Even
leaving aside Mr. Strand’s early counseling entries,
one does not need any degree of “notice” to know not
to shoot at un-armed civilians.
As we read the 2018 decision, the Secretary
merely used the core values as a general framework to
assess Mr. Strand’s request. Although Mr. Strand
portends that allowing this core-values framework
will provide the Secretary unlimited discretion to
overrule Board recommendations, we are unwilling to
waiver arguments asserted in its reply brief, and we have not
considered those arguments in resolving this appeal. Given that
the government has prevailed on its other arguments, however,
we deny Mr. Strand’s motion as moot.

18a

mandate that the Secretary take—or avoid—any
particular analytical approach in his review of Board
recommendations. The requirement that the
Secretary’s rejection decision not be arbitrary or
capricious, unsupported by substantial evidence, or
contrary to the law will continue to provide adequate
accountability.
Likewise, the trial court and Mr. Strand read
too much into the Secretary’s citation to military
justice cases and observation that Mr. Strand likely
would have received harsher punishment had he been
prosecuted by military, rather than civil, authorities
for the shooting. We disagree with the trial court that
the Secretary “relie[d] upon” the cited cases or “use[d]
these cases to justify” his decision. Strand III, 138
Fed. Cl. at 642. Rather, after a full analysis of how Mr.
Strand’s illegal behavior did not align with the Navy’s
core values, the Secretary briefly delved into military
justice standards to emphasize that “the nature of
[Mr. Strand’s] conduct leading to his civilian
conviction cannot be overlooked.” J.A. 285. Far from
denying Mr. Strand’s request just because he might
have been punished more harshly in military court,
the Secretary cited military sources simply to provide
further points of comparison for assessing the nature
and severity of Mr. Strand’s conduct.
Finally, we reject the notion that the
Secretary’s decision should be reversed for insufficient
consideration of Mr. Strand’s positive service record
and post-service conduct. True, the Secretary’s 2018
decision makes little mention of the many medals,
high performance marks, and promotions Mr. Strand
received over the course of his career. But there is no
19a

requirement that the Secretary’s “brief statement”
address every aspect of a petitioner’s record. See 32
C.F.R. §§ 723.3(e)(4), 723.7(a).11
The
Secretary
reviewed
the
same
administrative record as the Board and drew a
different, but still supported, conclusion from it. That
the Secretary weighed certain aspects of the record
differently than did the Board does not mean that the
Secretary’s
conclusions
were
arbitrary
or
unsubstantiated. While the Board’s contrary
conclusion may also be supported by substantial
evidence, that conclusion is not under review here. See
Strickland, 423 F.3d at 1339 (“If . . . the Secretary
disagrees with the Board and rejects its
recommendation, . . . . the court reviews the decision
on the basis of the Secretary’s written statement.”).
“[W]hereas the Secretary in correcting a military
record is to act through a board of civilians, as
required by [§ 1552], he has . . . retained the authority
to take such final action on board recommendations as
We note that the 2018 decision did acknowledge several
positive aspects of Mr. Strand’s record. The Secretary (1) noted
Mr. Strand’s “satisfactory service, including various medals and
personal awards” and his “‘good post service conduct and his early
release from civil confinement due to good behavior,’” J.A. 281
(emphases in original) (quoting J.A. 32); (2) acknowledged the
personal character references and personal statements showing
Mr. Strand’s commitment to supporting his children and
reconciliation with his ex-wife (while noting that no statement
from Mr. Strand’s ex-wife appears among the many statements
of support), J.A. 282; (3) “commend[ed]” Mr. Strand’s efforts
toward post-conviction rehabilitation, J.A. 285; and (4)
recognized that Mr. Strand had obtained an equitable upgrade of
his service characterization, recognizing his “19.5 years of
satisfactory service and post-incarceration efforts to rebuild his
life”, J.A. 286.

11

20a

he determines to be appropriate.” Boyd, 207 Ct. Cl. at
8 (discussing an Air Force regulation containing the
same operative language as Navy regulation 32 C.F.R.
§ 723.7(a)). As we noted in Strickland, “‘[i]t is clear
from the statute that the Secretary’s decision is a
discretionary one.’” 423 F.3d at 1338 (alteration and
emphasis in original) (quoting Boyd, 207 Ct. Cl. at 7).
The Secretary properly exercised the discretion given
to him by § 1552(a) in considering the Board’s
reasoning and disagreeing with its recommendation
to grant additional relief to Mr. Strand.
III
We have considered the parties’ remaining
arguments and find them unpersuasive. The
Secretary acted within his discretion in rejecting the
recommendation of the Board. His 2018 rejection
decision was supported by substantial evidence and
was not arbitrary, capricious, or contrary to the law.
We therefore reverse the judgment of the Court of
Federal Claims.
REVERSED
No costs.

21a

United States Court of Appeals for the Federal
Circuit
______________________
WALTER N. STRAND, III,
Plaintiff-Appellee
v.
UNITED STATES,
Defendant-Appellant
______________________
2019-1016
______________________
Appeal from the United States Court of Federal
Claims in No. 1:15-cv-00601-TCW, Judge Thomas C.
Wheeler.
______________________
REYNA, Circuit Judge, dissenting.
The majority upholds an agency decision that
relies on an unsupported factual finding: that Mr.
Strand “engaged in misconduct in 1993.” J.A. 283.
Because that finding was an integral part of the
Secretary’s decision, our law requires that we remand
to the Secretary for further review. I respectfully
dissent.
The Secretary’s decision is based, at least in
part, on two distinct events of misconduct: one in
1992, one in 1993. The Secretary found that “in 1992,
[Mr. Strand] was counseled for abuse of alcohol, which
resulted in disorderly conduct, and he was issued
22a

nonjudicial punishment for assault and disorderly
conduct.” J.A. 283. The Secretary also found that Mr.
Strand “again engaged in misconduct in 1993.” Id.
The record supports the Secretary’s finding of
misconduct in 1992. Two documents—a two-page
“Court
Memorandum”
and
one-page
of
“Administrative Remarks”—show that Strand was
involved in an alcohol-related incident on February
27, 1992, and that Strand received non-judicial
punishment for violating UCMJ Article 128 (as-sault)
and Article 134 (disorderly conduct). J.A. 119–121.
The administrative remarks identify the “deficiencies
in [Strand’s] performance and/or conduct” as “abuse of
alcohol which results [sic] in disorderly conduct.” J.A.
121.
There is no similar evidence that would support
the Secretary’s finding that Strand “again engaged in
misconduct in 1993.” The Secretary cites one
document in sup-port: a single page of
“Administrative Remarks,” dated September 29,
1993. But the 1993 administrative remarks do not
identify an act of misconduct that occurred in 1993.
J.A. 118. Instead, the document identifies the
“deficiencies in [Strand’s] performance and/or
conduct” as:
Violation of UCMJ Articles 128
(Assault) and 134 (Disorderly conduct)
as evidenced by CO’s NJP of 27
February 1992 and documented in
your service record on NAVPERS
1070/607 and NAVPERS 1070/609.

23a

J.A. 118 (emphasis added). The 1993 administrative
remarks do not reference any other dates, incidents,
or misconduct. Nor does the record contain any other
evidence showing a 1993 act of misconduct or related
punishment.
The government admits that the record lacks
support for the Secretary’s finding that Strand “again
engaged in misconduct in 1993.” At oral argument,
counsel for the government agreed that the Secretary
had found two separate acts of misconduct stemming
from two separate events: “[t]he Secretary’s decision
makes clear that the 1992 nonjudicial punishment
was one event and . . . what-ever the event was that
resulted in the counseling entry in 1993 was a
separate event.” Oral Arg. at 1:45–2:13. Counsel for
the government also recognized that the record
contained no support for that finding.
Q: The 1993 counseling is not the
result of the 1992 event?
A: Correct.
...
Q: What was the 1993 event?
A: It’s unclear your Honor . . . the
record does not describe the event.
Id. at 2:55–3:05; 3:39–3:46. When pressed, counsel for
the government simply said, “I would defer to the
Secretary . . . I don’t have any reason to doubt the
Secretary’s characterization of these being two
separate incidents.” Id. at 7:34–8:05.
24a

The Secretary expressly relied on the illusory
“misconduct in 1993” when it ruled against Mr.
Strand. J.A. 283–285. For example, the Secretary
concluded that Mr. Strand failed to “rehabilitate
himself while in the Naval service” because “Strand
again engaged in misconduct in 1993.” J.A. 283. The
Secretary also found that Mr. Strand’s “conviction for
felony offenses, as well as his history of performance
and conduct, does not align with the Navy [C]ore
[V]alues.” Id. (emphasis added). Because the
Secretary refers generally to Mr. Strand’s
“misconduct” throughout its decision, it is impossible
for this court to determine the extent to which the
Secretary’s error compromised the Secretary’s
decision. See J.A. 284 (“This was not [Mr. Strand’s]
first instance of misconduct leading to harm of
others.”); J.A. 286 (“Petitioner’s misconduct is
inconsistent with the Navy’s [C]ore [V]alues of honor,
courage, and commitment and runs counter to
granting relief.”).
In a footnote, the majority sidesteps the
Secretary’s unsupported finding of 1993 misconduct
by characterizing the error as “harmless.” Slip op. at
5 n.3. The majority opines that “[n]o matter the
number of early instances of misconduct, the
Secretary’s rejection decision is supported by
substantial evidence.” Id. I disagree. We soundly
rejected this reasoning in Strand II.
In Strand II, we explained that the Secretary’s
decision was based on “the sum of two facts in the
record and two policy reasons”: (1) Mr. Strand’s
history of domestic violence issues; (2) the seriousness
25a

of Mr. Strand’s 2008 actions; (3) the Navy’s Core
Values; and (4) the Navy’s practice in similar cases.
Strand v. United States, 706 F. App’x 996, 1000 (Fed.
Cir. 2017) (“Strand II”). We concluded, however, that
the Secretary’s finding that Mr. Strand had a history
of domestic violence issues was not supported by
substantial evidence. Id. In response, the government
encouraged us to “uphold the Secretary’s decision
because it sets forth other policy rationales and
evidence.” Id. But we rejected that argument,
explaining:
[B]ecause the Secretary relied on a
combination of intertwined reasons,
and Mr. Strand has shown that at least
one of those reasons is not supported by
substantial evidence, the record is not
clear as to whether the Secretary would
still reach the same conclusion.
...
It is an established principle of
administrative law that courts should
not intrude upon the domain which
Congress has exclusively entrusted to
an administrative agency, and that a
judicial judgment cannot be made to do
service
for
an
administrative
judgment. Thus, the proper course,
except in rare circumstances, is to
remand to the agency for additional
investigation or explanation. Here, the
Secretary has not yet considered
whether the [Board’s] decision to grant
26a

Mr. Strand partial relief should be
upheld in the absence of any evidence
of a long-standing history of FAP
involvement and domestic violence
issues.
We
find
no
special
circumstances that would support
determining this question in the first
instance. Therefore, this case must be
re-manded back to the Secretary for
further review of the [Board’s] decision.
Id. (internal quotations omitted) (citing Gonzales v.
Thomas, 547 U.S. 183, 186 (2006); INS v. Ventura, 537
U.S. 12, 16 (2002); SEC v. Chenery Corp., 318 U.S. 80,
88 (1943)).
The majority theorizes that “the Secretary’s
thorough consideration of the seriousness of Mr.
Strand’s criminal misconduct, alone, justifies his
decision to deny the requested relief.” Slip op. at 12–
13 (explaining that the “heavy weight” the Secretary
ascribed to Mr. Strand’s actions in 2008 “fully
supports denying him credit for six months of service
he did not perform”). But the Secretary did not
determine that Mr. Strand’s 2008 actions were alone
sufficient to warrant rejecting the Board’s decision. To
the contrary, the Secretary expressly stated that Mr.
Strand’s “conviction for felony offenses, as well as his
history of performance and conduct,” does not align
with the Navy Core Values. J.A. 283 (emphasis
added).
As in Strand II, the Secretary’s decision is
based on an unsupported fact finding. The Secretary
has not yet considered whether it would uphold the
27a

Board’s decision in the absence of that finding. Nor
has the majority identified any special circumstances
that would permit this court to determine this
question in the first instance. This case, therefore,
must be returned to the Secretary for further review.
Because the majority upholds the Secretary’s flawed
decision, I dissent.

28a

United States Court of Appeals for the Federal
Circuit
__________________________
WALTER N. STRAND, III,
Plaintiff-Appellee
v.
UNITED STATES,
Defendant-Appellant
__________________________
2019-1016
__________________________
Appeal from the United States Court of Federal
Claims in No. 1:15-cv-00601-TCW, Judge Thomas C.
Wheeler.
__________________________
JUDGMENT
__________________________
THIS CAUSE having been considered, it is
ORDERED AND ADJUDGED:
REVERSED
ENTERED BY ORDER OF THE COURT
March 3, 2020

/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court

29a

In the United States Court of Federal Claims
No. 15-601C
(Filed: July 31, 2018)
*******************************
WALTER N. STRAND, III,
*
*
Plaintiff,
*
*
v.
*
*
THE UNITED STATES,
*
*
Defendant.
*
*
*******************************
Action for Review of Military Records; Assistant
General Counsel’s Reversal of Decision by Board for
Correction of Naval Records; Decision on Remand
from Federal Circuit; Standard of Review; Substantial
Evidence
Jeffery M. Chiow, with whom was Lucas T. Hanback,
Rogers Joseph O’Donnell, P.C., Washington, D.C., for
Plaintiff.
Daniel K. Greene, with whom were Chad A. Readler,
Acting Assistant Attorney General, Robert E.
Kirschman, Jr., Director, and Douglas K. Mickle,
Assistant Director, Commercial Litigation Branch,
30a

Civil Division, U.S. Department of Justice,
Washington, D.C., as well as Lieutenant Maryam
Austin, Office of the Judge Advocate General, U.S.
Navy, for Defendant.
OPINION AND ORDER
WHEELER, Judge.
Plaintiff, an enlisted serviceman in the United
States Navy, brings this action to correct the manner
by which he was separated from the military after
more than nineteen years of largely exemplary
service. In a proceeding before the Board for
Correction of Naval Records, the Board primarily
agreed with Plaintiff’s position, but the favorable
ruling was promptly reversed by the Assistant
General Counsel for Navy Manpower and Reserve
Affairs. The Court held that the Assistant General
Counsel’s reversal of the Board’s decision was
arbitrary, capricious, an abuse of discretion, and not
supported by substantial evidence. The U.S. Court of
Appeals for the Federal Circuit upheld this Court’s
ruling and ordered the Court to remand the case to the
Navy. The new Assistant General Counsel again
reversed the Board’s favorable ruling. The Court must
now review whether the new Assistant General
Counsel’s reversal was arbitrary, capricious, an abuse
of discretion, or not supported by substantial
evidence.
Factual and Procedural Background1
1 The facts in this decision are taken from the administrative
record (“AR”) and the administrative record volume II (“AR II”).
The pages in both volumes of the administrative record are

31a

Plaintiff, Walter N. Strand, III, brings claims
before this Court which involve the manner in which
he was separated from the Navy. Mr. Strand enlisted
in the Navy in 1988 and served for more than nineteen
years, rising to the rank of Chief Petty Officer. He
spent more than eleven of those years deployed
abroad, including deployments in support of
Operations Iraqi Freedom and Enduring Freedom.
Pl.’s Mot. for J. on the Admin. R. (“MJAR”) at 4, Dkt.
No. 23. Mr. Strand earned several commendations
and personal awards during his service, including four
Navy and Marine Corps Achievement Medals and four
Good Conduct Medals. Id. Mr. Strand’s service record
reflects high marks for military performance and
confirms his qualification as an “information
assurance professional” whom the military trusted
with classified information. Id. at 4–5.
Prior to the incident that led to his separation
from the Navy, Mr. Strand’s evaluations portray an
exemplary officer ripe for further promotion.2 See AR
105 (“His contributions to ENTERPRISE and the
numbered in sequence. The Court’s citations to both volumes of
the administrative record are to the AR page numbers.
2 There is one much older negative conduct offense reflected in
Mr. Strand’s record. While serving on the USS Thomas C. Hart
as a new Radioman Petty Officer, Third Class, in 1992, at the
age of twenty-two, Mr. Strand was counseled for “ABUSE OF
ALCOHOL WHICH RESULTS IN DISORDERLY CONDUCT”
and instructed to “REFRAIN FROM OVERINDULGENCE IN
ALCOHOLIC BEVERAGES.” Am. Compl. at 3–4, Dkt. No. 16
(citing NAVSPERS 1070-613, February 26, 1992). The same
incident was addressed in a counseling form dated September
29, 1993. Id. Mr. Strand served without incident from 1993 to
2007.

32a

Navy have been exemplary. He is ready for greater
responsibility. Promote to Senior Chief Petty
Officer.”); AR 107 (“Petty Officer Strand is a dynamic
leader. . . . Continue to select for the most challenging
assignments and promote ahead of his peers.”); AR
109 (“Superb Manager. . . . An extraordinary coach
and mentor. He is a pillar for subordinates and juniors
alike to emulate. . . . Ready for Chief NOW! Petty
Officer
Strand
has
my
highest
personal
recommendation for advancement to Chief Petty
Officer.”).
After returning from his final combat
deployment in the spring of 2007, Mr. Strand
discovered that his wife had emptied his bank account
and left home without explanation, taking his
children and belongings with her. AR 059. A heated
confrontation at his wife’s new apartment building in
June 2007 led to Mr. Strand’s first negative fitness
report. Pl.’s MJAR at 5, Dkt. No. 23; AR 103 (“Chief
Strand displayed unsatisfactory conduct and decision
making for a Chief Petty Officer.”). In February 2008,
Mr. Strand was arrested after shooting at the car his
wife and her boyfriend were driving. As a result of that
incident, Mr. Strand was convicted of attempted
malicious wounding, attempted unlawful wounding,
and use of a firearm in the commission of a felony. AR
009. Following his conviction, Mr. Strand was
administratively separated from the Navy. His
discharge was characterized as “under other than
honorable circumstances” with less than twenty years
of service. Id. Mr. Strand was released from prison for
good behavior after serving three years of his six-year
sentence. Id.

33a

Upon his release, Mr. Strand asked the Navy
Discharge Review Board (“NDRB”) to upgrade his
service characterization and change his reentry code.
AR 078. Although it initially denied Mr. Strand’s
requests, the NDRB eventually granted Mr. Strand
partial relief when he appeared before them on
December 12, 2013. The NDRB agreed to change the
characterization of Mr. Strand’s service from “under
other than honorable conditions” to “general under
honorable conditions,” but declined to revise the
narrative reason for discharge in his record. AR 032.
After his success before the NDRB, Mr. Strand
petitioned the Board for Correction of Naval Records
(“BCNR”), “requesting six months retirement credit
with an honorable characterization of service, or an
upgrade of his general discharge to honorable, a
change of his narrative reason for separation, and a
favorable reenlistment code.” AR 008. On December
15, 2014, after a full review of Mr. Strand’s
application, naval record, record evidence, and
deliberations by a quorum, the BCNR came to the
following conclusion:
Upon review and consideration of all
the evidence of record, the Board
concludes that Petitioner’s request
warrants partial favorable action.
Nonetheless, the Board initially notes
the
seriousness
of
Petitioner’s
disciplinary infractions and does not
condone his misconduct. However, the
Board also notes Petitioner’s overall
record of more than 19 years and six
months of satisfactory service, which
34a

included being awarded four Navy and
Marine Corps Achievement Medals,
four Good Conduct Medals, and
personal awards. The Board further
notes his good post service conduct and
early release from civil confinement
due to his good behavior.
The Board considered the fact that
NDRB upgraded the characterization
of service to general under honorable
conditions
based,
in
part,
on
Petitioner’s overall record of service
and good post service conduct. With
that in mind, the Board concluded that
Petitioner has suffered long enough for
his indiscretion and should be granted
relief in the form of credited time
served
for
retirement,
i.e.,
approximately six months . . . .
AR 010–11, BCNR Decision dated December 15, 2014.
Based on its consideration of all of the evidence of
record, the BCNR recommended “[t]hat Petitioner’s
naval record be corrected to show he was honorably
retired with 20 years of service vice issued a general
discharge under honorable conditions by reason of
misconduct (civil conviction) on 26 June 2009.” AR
011.
The Secretary of the Navy is authorized under
10 U.S.C. § 1552, as implemented by SECNAVINST
5420.193, to correct a Navy member’s service record
when “necessary to correct an error or remove an
injustice.” In exercising this authority, the Secretary
35a

must act through a board of civilians, in this case the
BCNR, who shall review and evaluate an applicant’s
claim. SECNAVINST 5420.193 at 3. Although not
required, the Executive Director of the BCNR chose to
seek
secretarial
approval
of
the
BCNR’s
recommendation to correct Mr. Strand’s record.3 On
December 15, 2014, the same day that a quorum of the
BCNR unanimously recommended correcting Mr.
Strand’s naval record, Executive Director Robert J.
O’Neill unilaterally opted to seek review of the
BCNR’s recommendation, writing “[i]t is my opinion,
based on the seriousness of the offense and the
significant grant of relief, that SECNAV should
review this case for decision.” AR 013.
On February 3, 2015, Robert L. Woods,
Assistant General Counsel, Navy Manpower and
Reserve Affairs, rejected the BCNR’s decision in a
two-paragraph memorandum.4 AR 003. Mr. Woods
gave two rationales for overturning the BCNR’s
3 Section 6(e)(1) allows that “[w]ith respect to all petitions for
relief properly before it, the Board is authorized to take final
corrective action on behalf of the Secretary…” except under
three circumstances, the last of which being that “[i]t is in the
category of petitions reserved for decision by the Secretary of
the Navy.” SECNAVINST 5420.193, Section 6(e)(1)(c). Section
6(e)(2)(c), cited in the secretarial review memorandum, is a
discretionary catchall category that references “[s]uch other
petitions as, in the determination of the Office of the Secretary
or the Executive Director, warrant Secretarial review.”
4 The Secretary of the Navy delegated to the Assistant
Secretary, Manpower and Reserve Affairs the authority to
review BCNR petitions if required. SECNAVINST 5420.193 at
1–2 (¶b) (Nov. 1997). The Assistant Secretary in turn delegated
that authority to the assistant general counsel of Manpower
and Reserve Affairs. Def.’s Cross-MJAR at 11 n.6, Dkt. No. 35.

36a

decision. First, he stated that granting the
recommended relief would contravene “Navy core
values and practice in similar cases.” Id. Second,
quoting an April 3, 2009 Administrative Separation
Memorandum prepared by Mr. Strand’s commanding
officer, Mr. Woods stated that Mr. Strand “had a ‘longstanding history of FAP [Family Advocacy Program]
involvement and domestic violence issues.’” Id.
On June 15, 2015, Mr. Strand challenged Mr.
Wood’s decision before this Court. Strand v. United
States, 127 Fed. Cl. 44, 46 (2016). Mr. Strand initially
brought this action by filing a complaint as a pro se
plaintiff. Id. Shortly thereafter, Mr. Strand was able
to secure representation through this Court’s pro bono
referral program and subsequently filed an amended
complaint on October 8, 2015. Id. Mr. Strand
prevailed, showing that Mr. Woods’ disapproval of the
BCNR’s recommendation was arbitrary, capricious,
an abuse of discretion, and not supported by
substantial evidence. Id. at 51. On appeal, the U.S.
Court of Appeals for the Federal Circuit found that
“the Secretary’s finding that Mr. Strand had a longstanding history of domestic violence issues and FAP
involvement is not supported by substantial
evidence.” Strand v. United States, 706 Fed. Appx.
996, 1000 (Fed. Cir. 2017) (“Strand II”). The court then
directed this Court to remand the case to the Navy,
requiring that the Secretary consider whether he or
she would reach the same conclusion to deny Mr.
Strand relief in the absence of such substantial
evidence. Id. at 1001–02. This Court issued an Order
on November 21, 2017, remanding the case to the
Secretary of the Navy in accordance with the Federal
Circuit’s Mandate. See Dkt. No. 67.
37a

The new Assistant General Counsel for
Manpower and Reserve Affairs, Catherine L.
Kessmeier (“Ms. Kessmeier” or “the Secretary”), sent
a letter to counsel for Plaintiff identifying the
references she would be using to review Mr. Strand’s
case and inviting him to submit any additional
information for review. AR II 001. Counsel responded
by confirming that the documents Ms. Kessmeier
planned to review were appropriate, and explained
the background of the case. AR II 002–03. Counsel for
Plaintiff also mentioned that the BCNR granted Mr.
Strand relief based on more than just his prior service
alone. AR II 003. Plaintiff’s counsel then continued to
state that both this Court and the Federal Circuit
declined to adopt the rationale that denying Mr.
Strand relief on the Navy core values alone was
sufficient. AR II 004. Additionally, Plaintiff’s counsel
contended that each case should be judged on its own
merits as to whether or not it conforms to the Navy’s
core values—not on the Navy’s practice in similar
cases. AR II 004 n.2.
On January 5, 2018, Ms. Kessmeier again
denied Mr. Strand relief. AR II 013. In her
memorandum, Ms. Kessmeier expanded on the core
values in relation to both the incident for which Mr.
Strand was convicted, as well as a counseling and nonjudicial punishment for an alcohol-related incident
from 25 years ago. AR II 009–12. Ms. Kessmeier
explained that the counseling and non-judicial
punishment Mr. Strand received for this alcoholrelated incident should have been “clear and repeated
notice” that his conduct did not comport with the
Navy’s core values. AR II 010. Ms. Kessmeier also
38a

compared Mr. Strand’s case to other cases before the
military justice system—forums in which Mr. Strand
has never appeared. See AR II 012; see also
Supplemental Compl. ¶ 49, Dkt. No. 80 (“Suppl.
Compl.”). Ultimately, Ms. Kessmeier concluded that
Mr. Strand’s application did not warrant relief and
that his discharge to “general under honorable
conditions” sufficed to “reflect[] his 19.5 years of
satisfactory service and post-incarceration efforts to
rebuild his life.” AR II 013.
In response to Ms. Kessmeier’s decision, Mr.
Strand filed a supplemental complaint before this
Court. In his supplemental complaint, Mr. Strand
argues that Ms. Kessmeier’s decision was arbitrary,
capricious, an abuse of discretion, and not supported
by substantial evidence, and urges this Court to give
effect to the BCNR’s initial recommendation. Suppl.
Compl. at 18. Mr. Strand asks that the Court direct
the Navy to correct Mr. Strand’s record consistent
with the BCNR’s decision granting him retirement
with twenty years of service and seeks monetary relief
in the form of back pay calculated from his date of
separation on June 26, 2009, up to the present based
on his retirement credit, with interest, and applicable
pay and benefits moving forward. Id. The Government
maintains that Ms. Kessmeier properly rejected the
BCNR’s recommendation and that Mr. Strand waived
his right to judicial review of certain issues by failing
to raise them to the Navy on remand.
Discussion
A. Subject Matter Jurisdiction

39a

In the Court of Federal Claims, “[b]ecause
subject matter jurisdiction is a threshold matter, it
must be established before the case can proceed on the
merits.” Sellers v. United States, 110 Fed. Cl. 62, 66
(2013) (citing Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 94–95 (1998)). In this case, the Court’s
subject matter jurisdiction is derived from both the
Tucker Act, 28 U.S.C. § 1491, and the Administrative
Procedure Act (“APA”), 5 U.S.C. § 703. The Tucker Act
grants jurisdiction over claims “against the United
States founded either upon the Constitution, or any
Act of Congress or any regulation of an executive
department, or upon any express or implied contract
with the United States, or for liquidated or
unliquidated damages in cases not sounding in tort.”
28 U.S.C. § 1491(a)(1). The APA in turn entitles a
person legally wronged by agency action to seek
judicial review, thus waiving sovereign immunity of
the United States. 5 U.S.C. § 703; Weaver v. United
States, 46 Fed. Cl. 69, 76 (2000). Thus, in conjunction
with the APA, this Court has jurisdiction pursuant to
the Tucker Act to review a decision by a corrections
board, or a decision to override a corrections board
recommendation, “[t]o provide an entire remedy and
to complete the relief afforded by the judgment” by
issuing an “order directing restoration to office or
position, placement in appropriate duty or retirement
status, and correction of applicable records.” 28 U.S.C.
§ 1491(a)(2); see also Weaver, 46 Fed. Cl. at 76–77.
The Tucker Act, however, does not confer any
substantive rights upon a plaintiff, and a plaintiff may
not rely on the APA as an independent source of
jurisdiction, as it does not mandate payment of money
damages. Thus, a plaintiff must establish an
40a

independent right to money damages from a moneymandating source within a contract, regulation,
statute, or constitutional provision in order for the
case to proceed. Jan’s Helicopter Serv. Inc. v. FAA, 525
F.3d 1299, 1306 (Fed. Cir. 2008); Volk v. United
States, 111 Fed. Cl. 313, 323 (2013). Here, the
separate money-mandating source is 10 U.S.C. § 6333,
which provides the schedule according to which
military retired and retainer pay are computed.
B. Standard of Review
1. Rule 12(b)(6) Motion to Dismiss
When considering a motion to dismiss a
complaint for failure to state a claim upon which relief
may be granted under Rule 12(b)(6), the Court must
accept as true all factual allegations submitted by the
plaintiff. Bell Atl. Corp. v. Twombly, 550 U.S. 544, 555
(2007). Accepting those allegations as true, for the
plaintiff to survive dismissal, the Court must conclude
that “the plaintiff pleads factual content that allows
the court to draw the reasonable inference that the
defendant is liable for the misconduct alleged.”
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009) (citing
Twombly, 550 U.S. at 556). The plaintiff’s factual
allegations must be substantial enough to raise the
right to relief above the speculative level, accepting all
factual allegations in the complaint as true and
indulging all reasonable inferences in favor of the nonmovant. Twombly, 550 U.S. at 545; Chapman Law
Firm Co. v. Greenleaf Constr. Co., 490 F.3d 934, 938
(Fed. Cir. 2008).

41a

In this case, the Government first argues that
Mr. Strand’s supplemental complaint must be
dismissed pursuant Rule 12(b)(6) because it presents
a nonjusticiable controversy in which the Court is
unable to grant relief. See Def.’s Mot. to Dismiss &
MJAR at 17–18, Dkt. No. 84. In so arguing, the
Government opines that a plaintiff can only challenge
a Secretary’s procedural errors and may not challenge
the merits of that Secretary’s decision, further
arguing that Mr. Strand has improperly challenged
the latter. Id. at 17. The Court finds the Government’s
argument unavailing. To start, this Court and the
Federal Circuit have already issued decisions on the
merits in earlier iterations of this case where Mr.
Strand has challenged the merits of the Secretary’s
decision to deny him relief. See Strand, 127 Fed. Cl.
44; Strand II, 706 Fed. Appx. 996. Moreover, even if a
plaintiff may only challenge a Secretary’s procedural
errors, the Court agrees that Mr. Strand’s allegations
against the Secretary’s decision can be viewed as
procedural in nature and present a justiciable
controversy in which this Court has the ability to
grant relief. See Pl.’s Cross-MJAR at 7–8, Dkt. No. 85.
As such, the Court DENIES the Government’s motion
to dismiss pursuant to Rule 12(b)(6) and turns next to
the parties’ cross-motions for judgment on the
administrative record.
2. Motion for Judgment on the
Administrative Record
Rule 52.1 of this Court governs motions for
judgment on the administrative record. A review of
this kind is like a paper trial based upon the
documents assembled by the agency. The Court
42a

makes factual findings based upon the evidence
presented in this record. See, e.g., Bannum, Inc. v.
United States, 404 F.3d 1346, 1356 (Fed. Cir. 2005);
Coastal Envtl. Grp., Inc. v. United States, 118 Fed. Cl.
1, 10 (2014). To review a motion under Rule 52.1, this
Court must decide whether a party has met its burden
of proof based on the evidence in the record given all
disputed and undisputed facts. Anderson v. United
States, 111 Fed. Cl. 572, 578 (2013), aff’d (Fed. Cir. 135117, July 11, 2014); Bannum, Inc., 404 F.3d at 1356.
In reviewing the actions of a military correction
board, this Court must apply the standard of review
set forth in the APA, 5 U.S.C. § 706. Under section
706(2)(A), the Court must “hold unlawful and set
aside agency action, findings, and conclusions found
to be arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law . . . .” 5 U.S.C. §
706(2)(A). The Court shall overturn a correction
board’s decision only if it determines that the decision
was “arbitrary and capricious, unsupported by
substantial evidence, or not in accordance with the
applicable laws or regulations.” Laningham v. United
States, 30 Fed. Cl. 296, 310 (1994). Substantial
evidence includes “such relevant evidence as a
reasonable mind might accept as adequate to support
a conclusion.” Consolidated Edison Co. v. NLRB, 305
U.S. 197, 217 (1935).
Although the Court reviews a service
Secretary’s decision to overrule a corrections board
recommendation pursuant to the same standard, its
review nevertheless “is limited in nature.” Moehl v.
United States, 34 Fed. Cl. 682, 690 (1996). Thus, a
Secretary’s decision may “differ with a board’s
43a

recommendations where the evidence is susceptible of
varying interpretations.” Id. at 690 (citing Sanders v.
United States, 219 Ct. Cl. 285, 299 (1979)). However,
a Secretary may not “arbitrarily refuse to follow the
fact findings of the correction board where all the
evidence supports the board’s findings.” Moehl, 34
Fed. Cl. at 690 (citing Hertzog v. United States, 167
Ct. Cl. 377 (1964)); see also Boyd v. United States, 207
Ct. Cl. 1, 8 (1975) (“The court, in turn, may reject the
decision of a Secretary only if he has exercised his
discretion arbitrarily, capriciously, in bad faith,
contrary to substantial evidence, or where he has gone
outside the board record, or fails to explain his actions,
or violates applicable law or regulations. Then we will
not hesitate to set him right.”).
C. Waiver of Mr. Strand’s Arguments
The Government first contends that Mr. Strand
waived his right to judicial review by failing to raise
all but one of his arguments before the Navy on
remand. Def.’s Mot. To Dismiss & MJAR at 14, Dkt.
No. 84. It has long been held that once a party has
availed him or herself to the administrative process of
an agency, “he [or she] is bound by it unless the
decision is unsupported by substantial evidence,
arbitrary, capricious, or contrary to law.” Doyle v.
United States, 220 Ct. Cl. 285, 311 (1998) (citing
Sanders v. United States, 219 Ct. Cl. 285, 298 (1979)).
The reason for this rule is so that plaintiffs cannot
“stand on their objections waiting to see if they [are]
retroactively promoted by the [BCNR] and only upon
the [BCNR’s] adverse recommendations, contend that
the remedy did not achieve its intended result.” Id. at
312. “Absent a showing of good cause and prejudice,
44a

an appellant’s failure to raise his constitutional claims
in the military court system bars him from raising
them in federal court.” Martinez v. United States, 914
F.2d 1486, 1488 (Fed. Cir. 1990).
Contrary to the Government’s assertions, Mr.
Strand raised his arguments prior to remand during
the first time this case was litigated before this Court.
Both parties agreed that the Navy would reference
four documents in its review: (1) the Remand Order of
this Court, (2) the judgment of the Federal Circuit, (3)
the judgment of this Court, and (4) the Administrative
Record Volume I. AR II 001–02. Therefore, by
incorporating the decisions of the courts in the
Secretary’s review on remand, Mr. Strand sufficiently
raised the following three arguments that the
Government alleges he waived in the Amended
Complaint: (1) that the Assistant General Counsel
lacked the discretion to reject the BCNR’s
recommendation without justification, see Am.
Compl. at 8, Count I, Dkt. No. 16; (2) that it was
improper to compare Mr. Strand’s case to cases tried
in the military justice system, see id.; and (3) that Mr.
Strand was entitled to the protection of 10 U.S.C. §
1176, see id. at Count III.
The one argument that Mr. Strand concedes he
did not raise prior to remand was that “reliance on the
core values alone as a basis to deny relief is specious
when those values are untethered to any statute or
regulation, and are not themselves determinant of
punishment.” Pl.’s Cross-MJAR at 12, Dkt. No. 85.
This argument, however, is attached to the argument
that the Secretary acted arbitrarily and without
substantial evidence, since Mr. Strand alleges that
45a

the core values standing alone are arbitrary. Thus,
having found that Mr. Strand did not waive any of the
above arguments, the Court must now look to whether
Ms. Kessmeier’s decision was arbitrary and
capricious, an abuse of discretion, or not supported by
substantial evidence.
D. Ms. Kessmeier’s Decision to Overrule the
BCNR’s Recommendation
1. Application of the Navy’s Core Values
The Secretary of a military department is
required to act through boards of civilian officers or
employees in reviewing and correcting military
records. 10 U.S.C. § 1552. Generally, after reviewing
a service member’s record, the BCNR is authorized to
take final corrective action based on its findings.
SECNAVINST 5420.193, Section 6(e)(1). Even in
those instances where secretarial review or approval
is sought or required, the Secretary must nevertheless
justify a decision to overturn a recommendation that
is supported by the record. Thus, when a Secretary
goes outside of the record before the board, the
Secretary “must justify such a departure by explicitly
stating the ‘policy reasons’ behind such action.”
Hertzog, 167 Ct. Cl. at 387. In Hertzog, the Court held
that in the absence of such an explanation, the
Secretary’s discretionary action was arbitrary and
capricious. Id. at 388. Although “the final authority
regarding requested corrections is vested in the
Secretary,” such authority must be exercised in
accordance with the law. Strickland v. United States,
423 F.3d 1335, 1342 (Fed. Cir. 2005).

46a

Mr. Strand alleges that the Secretary’s reliance
on the core values alone is arbitrary, capricious, an
abuse of discretion, and not supported by substantial
evidence. In her decision, Ms. Kessmeier relied upon
the following facts to deny Mr. Strand relief: (1) two
counselings and a non-judicial punishment stemming
from an alcohol-related incident 25 years ago; (2)
other cases from the military justice system; and (3)
the conduct that led to Mr. Stand’s conviction. Pl.’s
Cross-MJAR at 13, Dkt. No. 85. Mr. Strand argues
that these facts provide no basis to deny him relief
because the facts are too “sparse” and the Secretary
relies too heavily on her own subjective understanding
and application of the Navy’s “core values” to Mr.
Strand’s conduct. Id. The Government counters that
Ms. Kessmeier’s decision is supported by substantial
evidence because of the two disciplinary entries Mr.
Strand received early in his enlistment from alcoholrelated incident in the early 1990s, as well as the
BCNR’s statement of recommendation for review by
the Secretary and the characterization of his service.
Def.’s Resp. at 11, Dkt. No. 86.
Ms. Kessmeier contends that Mr. Strand’s
counselings and non-judicial punishment from 25
years ago gave him “notice” of his obligation to comply
with the Navy’s standards and relies on this argument
to show Mr. Strand’s alleged lack of courage and
commitment. AR II 010–12. The Navy’s present core
values, however, including courage and commitment,
did not exist at the time of Mr. Strand’s alcoholrelated incident. See Pl.’s Cross-MJAR at 13, Dkt. No.
85. Thus, to give Mr. Strand retroactive “notice” of his
obligation to comply with not-yet existing core values
or standards is irrational, irrelevant, and certainly
47a

arbitrary and capricious. Betts v. United States, 145
Ct. Cl. 530, 535 (1959) (“A decision . . . for which, even
on post audit, no reason can be given except an
irrelevant reason, cannot be characterized as other
than capricious.”). The Court also notes that Mr.
Strand was awarded a Good Conduct medal for the
period covering the second counseling related to this
incident. Pl.’s Cross-MJAR at 15, Dkt. No. 85 (citing
Suppl. Compl. ¶ 63; AR 194 (first Good Conduct
Award on “96JAN01”)). Therefore, when assessing the
record as a whole, Ms. Kessmeier’s reliance on Mr.
Strand’s pre-2008 disciplinary entries and her
retroactive application of Mr. Strand’s earlier mishap
to the Navy’s not-yet existing core values render her
decision arbitrary, capricious, and not supported by
substantial evidence.
2. Reliance on Cases From Other
Military Tribunals
Ms. Kessmeier also cites to four military justice
cases as further evidence that Mr. Strand should be
denied the relief he requested. AR II 012 (citing
United States v. Sexton, 1 M.K. 679 (N.C.M.R. 1975);
United States v. Gutierrez, 11 M.K. 122 (C.M.A.
1981); United States v. Wall, 2013 CCA LEXIS 418
(A.F. Ct. Crim. App. 2013); United States v. Knowles,
2016 CCA LEXIS 236 (N-M Ct. Crim. App. 2016)). The
Secretary contends that the NRDB’s decision granting
Mr. Strand partial relief is inconsistent with the
Navy’s practice in similar cases. AR II 013. Mr. Strand
contends that comparing his case to these cases is
erroneous because the Navy could have, but did not,
prosecute Mr. Strand for his conduct in the military
courts. Pl.’s Cross-MJAR at 15, Dkt. No. 85. Therefore,
48a

any comparison to the military justice system is
speculation based on hypothetical facts. Id. at 16.
As Mr. Strand correctly points out, none of the
cases the Secretary relies upon “apply the core values
to the facts of the respective case, and none deal with
post-service efforts at rehabilitation.” Id. By
comparing Mr. Strand’s civil case to military cases
that do not apply the same analysis, and by claiming
Mr. Strand would have received a punishment (which
he did not), Ms. Kessmeier acted speculatively. Rather
than basing her decision on facts in the record, Ms.
Kessmeier based her decision on hypothetical
forecasting. Thus, in the absence of providing a
sufficient justification for her decision, the Court finds
that the Secretary acted arbitrarily and capriciously
in using these cases to justify her decision. Hertzog,
167 Ct. Cl. at 387–88 (holding that in the absence of a
justification for departing from the record before the
board, the Secretary’s discretionary action was
arbitrary and capricious).
The Government further contends that the
NDRB compared Mr. Strand’s conviction to analogous
convictions as well, and that this fact supports the
Secretary’s decision to deny Mr. Strand relief. Def.’s
Resp. at 11, Dkt. No 86. However, the NDRB merely
explained the usual procedure for someone convicted
of the same offenses as Mr. Strand in the military
courts, not in the civil courts. AR 063. Moreover, the
NDRB did not cite to any actual cases in its decision.
Id. What is more, the NDRB’s regulations state:
The primary function of the NDRB is to
exercise its discretion on issues of
49a

equity by reviewing the individual
merits of each application on a case-bycase basis. Prior decisions in which the
NDRB exercised its discretion to
change a discharge based on issues of
equity (including the factors cited in
such decisions or the weight given to
factors in such decisions) do not bind
the NDRB in its review of subsequent
cases because no two cases present the
same issues of equity.
32 C.F.R. § 724.902(c). Thus, the NDRB’s own
regulations state that it should not be relying on other
cases regardless, as it must view each case as a
separate issue of equity. As such, the NDRB’s decision
provides no support for Ms. Kessmeier’s reliance on
the military justice cases, but rather shows that she
acted arbitrarily and capriciously in reaching her
decision. See Dodson v. United States Gov’t, Dep’t of
the Army, 988 F.2d 1199, 1204–05 (Fed. Cir. 1993)
(“The boards for correction of military records may be
reviewed for failure to correct plain legal error
committed by the military . . . [including] the
military’s ‘violation of statute, or regulation.’”
(citations omitted)).
3. Mr. Strand’s Prior Conviction
Finally, as to Mr. Strand’s prior conviction, the
Government has already argued before this Court and
the Federal Circuit that Mr. Strand’s conduct in 2008
was inconsistent with the core values and showed a
longstanding history of domestic violence. See Strand,
127 Fed. Cl. 44; Strand II, 706 Fed. Appx. 996. Both
50a

courts have rejected these arguments, however, and
the Federal Circuit found that Mr. Strand’s conduct
did not constitute substantial evidence to support the
Secretary’s decision, ordering the Secretary’s decision
to be reversed and remanded. Strand II, 706 Fed.
Appx. at 1000 (“We conclude that the Secretary’s
decision is not supported by substantial evidence. The
Secretary relied on the sum of two facts in the record
and two policy reasons to reject the BCNR’s decision
[including the Navy’s core value]. . . . [B]ecause the
Secretary relied on a combination of intertwined
reasons, and Mr. Strand has shown that at least one
of those reasons is not supported by substantial
evidence, the record is not clear as to whether the
Secretary would still reach the same conclusion.”).
The Government also argues that BCNR
Executive Director Robert O’Neill’s recommendation
that the Secretary review the BCNR’s decision “based
on the seriousness of the offense and the significant
grant of relief” supports the Secretary’s contention
that Mr. Strand’s offense on its own and its
application to the core values is enough to deny him
relief. Def.’s Resp. at 11, 15, Dkt. No. 86. Mr. O’Neill,
however, did not sit on the Board when the Board
reviewed Mr. Strand’s case; rather, he was still an
officer of the Navy and is now retired. See AR 008; see
also Pl.’s Rep. at 11, Dkt. No. 87. The Government
argues that “by deciding to make a recommendation
instead of a final decision, the BCNR [specifically Mr.
O’Neill] invited the Secretary to second-guess its
recommendation.” Def.’s Mot. to Dismiss & MJAR at
16, Dkt. No. 84. However, this Court already held that
the Secretary may not rely on the advice or
recommendation of a military officer in reversing the
51a

recommendation of the BCNR. See Strand, 127 Fed.
Cl. at 51 (“[T]his Court cannot uphold [the Secretary’s]
decision to overrule [the BCNR’s] findings on the basis
of a military official’s statement.”); see also Strand II,
706 Fed. Appx. at 1000.
Further, Ms. Kessmeier failed to give any real
consideration to Mr. Strand’s post-service conduct.
Instead, the Secretary relies almost solely on Mr.
Strand’s conduct that occurred prior to the creation of
the Navy’s current core values as well as the conduct
for which Mr. Strand already served civil time,
whereas the BCNR recognized that Mr. Strand
satisfactorily served his country for nineteen years
and six months, was granted partial relief by the
NDRB “based, in part, on [his] overall record of service
and good post service conduct,” and paid his debt to
society, earning “early release from civil confinement
due to his good behavior.” See AR 010. Ms. Kessmeier
not only failed to give due consideration to the all the
evidence before the BCNR and in the administrative
record, but also failed to provide any substantial
evidence to support her decision to deny Mr. Strand
relief. Given that the BCNR’s findings are based on a
thorough consideration of the evidence of record, this
Court cannot uphold Ms. Kessmeier’s decision to
overrule the Board on the basis of (1) core values alone
and the retroactive application of Mr. Strand’s
singular alcohol-related incident from 1992 to those
core values, especially since those core values did not
yet exist at the time of this incident; (2) decisions of
other military tribunals; and (3) Mr. Strand’s prior
conviction—a justification that has been rejected
twice by this Court and the Federal Circuit.
Consequently, the Court must hold that the
52a

Secretary’s decision to overturn the BCNR’s
recommendation was arbitrary and capricious, and
not supported by substantial evidence. See Hertzog,
167 Ct. Cl. at 387.
Finally, both parties agree that 10 U.S.C. §
1552(f)(2) grants the BCNR clemency power to strike
evidence of Mr. Strand’s criminal conviction from his
records and upgrade his discharge conditions. Def.’s
Resp. at 18, Dkt. No. 86; Pl.’s Rep. at 15, Dkt. No. 87.
The Government argues only that 10 U.S.C. §
1552(f)(2) does not allow the BCNR to remove
evidence of a court martial from the record. Def.’s
Resp. at 18, Dkt. No. 86. However, Mr. Strand was not
court martialed. Therefore, 10 U.S.C. § 1552(f)(2)
provides no additional basis to deny Mr. Strand relief.
Conclusion
Ultimately, Ms. Kessmeier’s decision to
overrule the BCNR’s reasoned recommendation is
simply not justified in her memorandum that is before
this Court. Considering the entire administrative
record, the Court finds the Secretary’s disapproval of
the BCNR’s recommendation to be arbitrary,
capricious, an abuse of discretion, and not supported
by substantial evidence. The Court directs the Navy
to carry out the BCNR’s recommendation “[t]hat
Petitioner’s naval record be corrected to show he was
honorably retired with 20 years of service vice issued
a general discharge under honorable conditions by
reason of misconduct (civil conviction) on 26 June
2009.”

53a

Accordingly, the Court GRANTS Plaintiff’s
cross-motion for judgment on the administrative
record, and DENIES Defendant’s motion to dismiss
and motion for judgment on the administrative record.
The Court directs the Navy to correctly retire Mr.
Strand with all appropriate back pay, benefits, and
allowances. The Clerk shall enter judgment in
accordance with this opinion.
IT IS SO ORDERED
s/ Thomas C. Wheeler
THOMAS C. WHEELER
Judge

54a

DEPARTMENT OF THE NAVY
OFFICE OF THE ASSISTANT SECRETARY
(MANPOWER AND RESERVE AFFAIRS)
1000 NAVY PENTAGON
WASHINGTON, D.C. 20350-1000
MEMORANDUM FOR THE EXECUTIVE
DIRECTOR, BOARD FOR CORRECTION OF
NAVAL RECORDS
Subj: BCNR PETITION OF FORMER MEMBER
WALTER N. STRAND, USN, ON REMAND FROM
THE U.S. COURT OF FEDERAL CLAIMS
Background
The Secretary of the Navy is authorized under
10 US.C. § 1552, as implemented by SECNAVINST
5420.193, to correct a Navy member's service record
when "necessary to correct an error or remove an
injustice." In exercising this authority, the Secretary
acts through the Board for Correction of Naval
Records (BCNR). Pursuant to authority granted by
the Secretary of the Navy, the Director of the BCNR
may in certain matters choose to seek Secretarial
approval of the BCNR's decisions. The Secretary of the
Navy delegated to the Assistant Secretary of the Navy
(Manpower & Reserve Affairs) (ASN (M&RA)) the
authority to review BCNR petitions if required and
the ASN (M&RA) in tum delegated this authority to
the Assistant General Counsel (M&RA).

55a

Walter N. Strand filed a petition with the
BCNR on February 14, 2014, requesting "six months
retirement credit and or a re-entry code upgrade from
RE-4 to a waiv[]able re-code for the purpose of retiring
due to [his] recent general discharge upgrade" and
"this incident being close to an[] otherwise stella[r] 20
year career." Administrative Record, Volume I (AR) at
016.
As set forth in the administrative record and
undisputed, the incident that led to Petitioner's
discharge involved him firing a firearm at his former
spouse and another individual. For this incident, the
Circuit Court of the City of Virginia Beach, Virginia,
convicted Petitioner of the following felonies:
attempted malicious wounding, attempted unlawful
wounding, and use of a firearm in the commission of a
felony. The court sentenced Petitioner to a total of six
years in prison. Ultimately, Petitioner served only
three years of a six-year sentence.
In March 2011 , Petitioner initially submitted
an application to BCNR requesting a change to his
reentry code; however, BCNR denied his request
determining that his reentry code was properly
assigned based on his other than honorable (0TH)
discharge. AR 077-078. Petitioner then sought an
upgrade of his discharge from the Naval Discharge
Review Board (NDRB), which ultimately (after a
second filing) granted him partial relief by changing
his characterization of service to general under
honorable conditions with a narrative reason
recognizing the commission of a serious offense (civil
conviction). AR 032-034. Petitioner subsequently
sought corrective action from the BCNR.
56a

Mr. Strand, a former enlisted member of the
Navy, requested that the BCNR grant him "six
months retirement credit and or a re-entry code
upgrade from RE-4 to a waiverable RE-code for the
purpose of retiring due to my recent general discharge
upgrade and this incident being close to and other
wise stella 20 year career." AR 016. In a statement
attached to the petition, Mr. Strand requested a
review of his discharge status and the opportunity to
upgrade his discharge and retire. AR 017. Mr. Strand
acknowledged that he "violently attacked [his] exwife." Id. Mr. Strand stated he "served honorably and
re-enlisted term after term with retirement being [his]
end goal." He concluded that he "believe[s] and
continue[s] to live by the Navy's core values of honor,
courage, and commitment" and that he is "very proud
of [his] otherwise pristine service record." AR 017-018
Upon review and consideration of the
administrative record, the hoard concluded that the
request warranted partial favorable action. AR 008011. Specifically, the board, while noting "the
seriousness of Petitioner's disciplinary infractions"
and "not condon[ing] his conduct" granted Petitioner
relief in the form of credited time served for
retirement, i.e., approximately six months. AR 010. In
reaching this conclusion, the board considered that
Petitioner's overall record of more than 19 years and
six months reflected satisfactory service, including
various medals and personal awards. See id.
(emphasis added). The board also noted Petitioner's
"good post service conduct and his early release from
civil confinement due to his good behavior." Id.
(emphasis added). The board considered the NDRB
57a

upgrade of the characterization of service to general
under honorable conditions and "with that in mind"
concluded that "Petitioner has suffered long enough
for his indiscretion and should be granted relief in the
form of
credited time served for retirement." Id. (emphasis
added). The board recommended relief in the form of
credited time served for retirement, but concluded
that the reenlistment code should not be changed
because non-recommendation for retention and/or
reenlistment was based solely on his civil conviction.
Id. It is this board recommendation that was reviewed
and disapproved by the former AGC (M&RA). AR at 0
11. Mr. Strand then judicially appealed the
Secretary's decision.
Following the U.S. Court of Appeals for the
Federal Circuit decision in Strand v. United States,
Nos. 2016-2450, -2484, 2017 WL 3911801 (Fed. Cir.
Sept. 7, 2017), the United States Court of Federal
Claims issued an order remanding this case to the
Secretary of the Navy for further proceedings
consistent with the Federal Circuit's opinion.
Specifically, the remand requires that the Secretary
consider whether, "in the absence of any evidence of a
long-standing history" of F AP involvement and
domestic violence issues, the board's decision to grant
Petitioner partial relief should be upheld.
Prior to reviewing this matter and reaching a
decision, I notified Petitioner's counsel that I would be
reviewing: ( 1) the remand order of the Court of
Federal Claims (COFC); (2) the Opinion of the Court
of Appeals for the Federal Circuit; (3) the Judgment of
the COFC; and (4) the Administrative Record, Volume
58a

I. I invited Petitioner to provide any additional
information for my consideration prior to rendering a
decision on remand.
Petitioner via his counsel submitted a written
response dated December 7, 2017, for my
consideration in reviewing the matter. In this letter,
Petitioner identifies his periods of enlisted service and
references his fitness reports, commendations and
awards. See Reply at 1. Petitioner does not dispute the
misconduct for which he was convicted and sentenced
and for which he served time in prison. Id. at 2. The
reply identifies the materials submitted by Petitioner
to the BCNR, including personal references and
statements by Petitioner. The reply states that the
BCNR decision was not founded solely upon
Petitioner's prior service, but also the additional
information related to his postservice conduct and
efforts to rebuild his life. The reply offers Petitioner's
views on why the courts declined to uphold the initial
AGC (M&RA) decision and argues that Mr. Strand's
case should be decided on its own merits. See id. at 3,
n.2. The reply offers that "Mr. Strand has reconciled
with his ex-wife1... and plays an active role in the lives
of their children ... lives effectively homeless on a
couch so that he can provide support for his family."
Id. at 4. Petitioner states that his uncorrected record,
which contains information about his criminal record,
provides a backdoor for employers to deny him gainful
employment and prevent him from fully integrating
1 Although Petitioner states that he and his former spouse have
reconciled, I note that there is no statement from his spouse in
support of his character or his petition for relief despite his
submission of statements of support from his mother, former
Navy colleagues, professors, and parole/probation officers.

59a

into civilian life. Id. Petitioner contends that he has
paid for the "sole indiscretion that he committed over
the course of a stellar 20-year career," and that "most
who commit similar mistakes will not have Mr.
Strand's long and impeccable record of honorable
service combined with a demonstrated commitment to
atonement and post-service reintegration .... " Id.
Petitioner asks to be retired. Id. at 5.
Decision
Since 'the early days of Naval service, there have been
three bedrock principles or core values that guide our
military members: honor, courage and commitment.
Honor requires our service members to be honest and
trustworthy with each other and those outside the
Navy, to be accountable for professional and personal
behavior, and to recognize that illegal or improper
behavior or even the appearance of such behavior will
not be tolerated, and to always be mindful that it is a
privilege to serve. Courage is the value that gives our
service members the moral and mental strength to do
what is right, even in the face of personal or
professional adversity. Commitment requires a
service member to show respect toward all, to treat
each individual with human dignity, and to exhibit
the highest degree of moral character, technical
excellence, and competence.
I do not find that Petitioner's overall periods of
enlisted service ( commencing in 1988) and postservice conduct (discharged in 2009) are sufficient to
overcome the seriousness of the misconduct that
resulted in his civilian conviction for felony offenses
and, ultimately, caused him to be discharged from
60a

Naval service prior to reaching his eligibility for
retirement. Petitioner engaged in substantial illegal
behavior: attempted malicious wounding, attempted
unlawful wounding, and use of a firearm in the
commission of a felony. Clearly, as reflected in the
sentence meted out by the Circuit Court of the City of
Virginia Beach, the court did not view his crime as
inconsequential or a minor error in judgment. The
passage of time, which has allowed Petitioner the
ability to reflect on his misconduct, to accept
responsibility for his actions, and to begin to
rehabilitate himself, does not warrant overlooking the
seriousness of the conviction that led to his discharge
from the Naval service, and his resultant inability to
complete twenty years of service that may have
otherwise made him eligible for retirement. It was not
an error or injustice that led to Petitioner's inability
to meet the requirements for retirement eligibility,
but rather it was Petitioner's own intentional
misconduct that prevented him from completing his
twenty years of military service.
The record shows that in 1992 Petitioner was
counseled for abuse of alcohol, which resulted in
disorderly conduct, see AR at 99, and he was issued
non-judicial punishment for assault and disorderly
conduct under the UCMJ, see AR at 097-098, which
led to a reduction in his enlisted rank. Despite the
Navy's attempt to allow Petitioner the opportunity to
rehabilitate himself while in the Naval service,
Petitioner again engaged in misconduct in 1993 for
which he was issued a counseling/ warning entry and
directed to attend courses such as building effective
anger management or stress management skills and
to not violate the UCMJ or civil laws. See AR at 096.
61a

As with the first counseling, Petitioner was advised
that his failure to adhere to the guidelines would
make him eligible for administrative separation
action. Id. Thus, well before his civilian conviction for
felony offenses, Petitioner had clear and repeated
notice of his obligation to comply with both military
regulations and civilian laws and that his failure to
adhere and measure up to the high standards of
performance required of all members of the U.S. Navy
could lead to his separation from service. See id.
In my view, Petitioner's conviction for felony
offenses, as well as his history of performance and
conduct, does not align with the Navy's core values
and does not warrant the provision of credit for six
months of Naval service he did not perform. Again,
there is no error or injustice in Petitioner's service
record. Rather, the record clearly shows that
Petitioner's own misconduct caused him to be
separated from service before he could attain twenty
years of service. Petitioner is not an individual whom
the Navy would laud as an example of its core values,
and his separation even at 19.5 years of service aligns
with how the Navy addresses misconduct by
individuals who do not conform to Naval standards of
conduct,
discipline,
and
performance.
See
MILPERSMAN 1910-144; MILPERSMAN 1910-212;
MILPERSMAN 1910-214; MILPERSMAN 1910-233;
MILPERSMAN 1910-010; MILPERSMAN 1910-302;
and MILPERSMAN 1910-306.
Honor. Petitioner did not show honor towards
his colleagues when he engaged in his illegal behavior,
and he did not demonstrate honorable behavior
towards those outside the Navy, including his former
62a

spouse, the victim of his crime. He neither fulfilled nor
exceeded his legal responsibilities in his public and
personal life. His actions led to his incarceration,
which
precluded
him
from
executing
his
responsibilities as a service member and necessarily
required others to complete the duties that could have
been assigned to him had he been available for service.
In my view, it is an aggravating factor that Petitioner
was offered counseling early on in his career to be
prepared to act honorably. However, Petitioner,
despite the counseling he received from the Navy,
allowed his personal emotions to overtake the
privilege he had to serve his fellow Americans with
honor.
Courage. While Petitioner is remorseful for his
crime, which some may view as courageous, the Navy
expects our service members to do what is right at all
times even in the face of personal adversity. Instead
of engaging in a crime of passion, Petitioner could
have demonstrated the Navy core value of courage by
walking away. He instead chose to take a gun and
attempted to cause his former wife and another
individual substantial harm by discharging the
weapon during his crime. This was not Petitioner's
first instance of misconduct leading to harm of others.
In fact, Petitioner received non-judicial punishment
with a reduction in rank for assault and disorderly
conduct. See AR at 097-098. Petitioner was warned to
get his anger in check or to face the consequences if he
failed to align to the high standards required of
service members. See AR 096-099. Taking
responsibility and learning from your mistakes
requires courage; however, courage also presumes
that you learn from your mistakes and do not repeat
63a

them. As Petitioner recognizes, it is fortuitous that his
felonious conduct did not result in anyone's death. An
attempt to maliciously wound someone using a
firearm outside of an authorized military action and
because you are not in control of your personal
emotions is not courageous behavior. In the Naval
service, failure to control personal emotions during
times of great adversity could have significant
impacts that are adverse to the interest of the Navy
and the Nation.
Commitment. Commitment requires a service
member to care for the safety, professional, and
personal well-being of all individuals and to make
decisions that are in the best interest of the Navy and
the Nation without regard to personal consequences.
When Petitioner elected to take a gun and attempted
to harm his former spouse, he was moved by personal
emotions and had no regard for our Nation's laws or
its people. If Petitioner had been committed to the
care of others, he would have been cognizant of the
repeated counseling he received early in his Naval
career, see AR 096-099, and he likely would have
demonstrated his commitment to meeting the high
standards of performance required of all service
members. His conduct does not reflect this
commitment and, in fact, demonstrates a lack of
respect for our Nation's laws and individual human
dignity and is not in keeping with the Navy's core
values.
In addition to my points above, I note that the
nature of Petitioner's conduct leading to his civilian
conviction cannot be overlooked. As explained by the
NDRB, "Violations of UCMJ Article 128 (Assault),
64a

which is equivalent to the offenses [Petitioner] was
convicted [ of] in civil Court, warrant processing for
administrative separation regardless of grade,
performance, or time in service. This usually results
in an unfavorable characterization of discharge or, at
a maximum, a punitive discharge and possible
confinement if adjudicated and awarded as part of a
sentence by a special or general court-martial.
[Petitioner's] command did not pursue a punitive
discharge but opted instead for the more lenient
administrative discharge." (AR 063).
UCMJ Article 128 (Assault) states: "Any person
subject to this chapter who attempts or offers with
unlawful force or violence to do bodily harm to another
person, whether or not the attempt or offer is
consummated, is guilty of assault and shall be
punished as a court-martial may direct. Any person
subject to this chapter who commits an assault with a
dangerous weapon or other means or force likely to
produce death or grievous bodily harm ... is guilty of
aggravated assault and shall be punished as a courtmartial may direct." The maximum punishment set
forth in the Appendix 12 to the Manual for CourtMartial for aggravated assault with a dangerous
weapon or other means or force likely to produce death
or grievous bodily harm, when committed with a
loaded firearm, is "Dishonorable discharge, forfeiture
of all pay and allowances, and confinement for 8
years."
Further, a brief review of military justice cases
indicates that most persons convicted of similar
assaults in the military justice system receive
punitive discharges in addition to confinement. See
65a

e.g.· United States v. Sexton, 1 M.J. 679 (N.C.M.R.
1975) (affirming award of a Bad Conduct Discharge
following conviction for an assault with a firearm and
discharge thereof); United States v. Gutierrez, 11 M.J.
122 (C.M.A. 1981) (affirming award of a Dishonorable
Discharge following conviction for an assault with a
dangerous weapon); United States v. Wall, 2013 CCA
LEXIS 418 (A.F. Ct. Crim. App. 2013) (affirming
award of a Dishonorable Discharge following
conviction for an assault with a firearm and discharge
thereof); United States v. Knowles, 2016 CCA LEXIS
236 (N-M. Ct Crim. App. 2016) ( affirming award of a
punitive discharge following conviction for assault
where defendant used his hands to choke his spouse).
In my view, it is very likely Petitioner would have
received a punitive discharge had he been prosecuted
by the Navy, rather than civilian authorities, for his
misconduct.
In sum, I commend Petitioner's efforts to
engage in rehabilitation following his conviction and
incarceration, as well as his efforts to rebuild his life.
However, I do not find that relief is warranted and
that Petitioner should be granted credited time served
for retirement when, in fact, the basis for his inability
to retire was not an error or an injustice, but his own
deliberate misconduct despite being on clear notice of
the consequences of his actions. To grant relief under
the circumstances of this matter wholly ignores the
high standards that the Navy expects our military
members to demonstrate. Petitioner's misconduct is
inconsistent with the Navy's core values of honor,
courage, and commitment and runs counter to
granting relief. Moreover, the relief offered by the
board is inconsistent with the Navy's practice in
66a

similar cases involving discharge for criminal conduct
and criminal conviction. Further, I believe that the
Petitioner has been afforded appropriate relief as
evidenced by the actions of the NDRB, which
upgraded his discharge from OTH to GENERAL
UNDER HONORABLE CONDITIONS based upon
post-service factors. The NDRB decision to
characterize Petitioner's service as GENERAL
UNDER HONORABLE CONDITIONS reflects his 19
.5 years of satisfactory service and post-incarceration
efforts to rebuild his life.
Accordingly, it is my decision that the petition
be denied.
s/Catherine L. Kessmeier
Catherine L. Kessmeier
Assistant General Counsel
(Manpower and Reserve Affairs)

67a

NOTE: This disposition is nonprecedential
United States Court of Appeals for the Federal
Circuit
______________________
WALTER N. STRAND, III,
Plaintiff-Cross-Appellant
v.
UNITED STATES,
Defendant-Appellant
______________________
2016-2450, 2016-2484
______________________
Appeals from the United States Court of
Federal Claims in No. 1:15-cv-00601-TCW, Judge
Thomas C. Wheeler.
______________________
Decided: September 7, 2017
______________________
LUCAS TAYLOR HANBACK, Rogers Joseph
O’Donnell, Washington, DC, argued for plaintiffcross-appellant. Also represented by JEFFERY M.
CHIOW; NEIL H. O’DONNELL, San Francisco, CA.
DANIEL
KENNETH
GREENE,
Commercial
Litigation Branch, Civil Division, United States
Department of Justice, Washington, DC, argued for
68a

defendant-appellant.
Also
represented
by
BENJAMIN C. MIZER, ROBERT E. KIRSCHMAN,
JR., DOUGLAS K. MICKLE.
______________________
Before LOURIE, HUGHES, and STOLL, Circuit
Judges.
HUGHES, Circuit Judge.
The Government appeals a decision from the
United States Court of Federal Claims reversing the
Secretary of the Navy’s decision denying Walter
Strand’s request to correct his military records and
Mr. Strand appeals a finding in favor of the
Government on its counterclaim seeking to recover
$74,486.33 that it had erroneously paid to Mr. Strand
during his civil confinement. While we agree with the
trial court that the Secretary’s decision is not
supported by substantial evidence, because further
administrative proceedings could remedy the defects
in the Secretary’s decision, we reverse with
instructions to remand to the Secretary for further
proceedings. Because the Government’s counterclaim
is not barred by the statute of limitations, we affirm.
I
Mr. Strand is a native of Chester,
Pennsylvania, who upon graduation from high school
enlisted in the Navy. He served for nearly nineteen
and a half years, including spending over eleven years
deployed in combat during the Persian Gulf War and
War on Terror in Iraq and Afghanistan. Mr. Strand’s
commendations and personal awards include the
69a

Navy and Marine Achievement Medal (four awards),
Good Conduct Medal (four awards), Meritorious Unit
Commendation, National Defense Service Medal (two
awards), Southwest Asia Service Medal (two awards),
Global War on Terrorism Expeditionary Medal,
Global War on Terrorism Service Medal, Military
Outstanding
Volunteer
Medal,
Sea
Service
Deployment Ribbon (two awards), Kuwait Liberation
Medal, Enlisted Aviation Warfare Specialist, and
Enlisted Surface Warfare Specialist.
In the spring of 2007, Mr. Strand finished his
final combat deployment aboard the USS Enterprise
aircraft carrier. His performance evaluations praised
his “superb leadership and management skills,” noted
that his “leadership and technical expertise have been
pivotal,” and described him as a “dynamic leader” who
should be “select[ed] for the most challenging
assignments and promote[d] ahead of his peers.” J.A.
183–86.
When he returned home, Mr. Strand discovered
that his wife had moved out, emptied his bank
account, taken his children and possessions, and filed
for divorce. He attempted to reconcile and had a
conversation with her about potentially getting
together for dinner. Shortly after this conversation, he
saw her sitting with a male companion in a car. Mr.
Strand flew into a “fit,” J.A. 31, and with “passionfueled anger” discharged his gun at them, J.A. 122. He
was subsequently arrested and convicted of attempted
malicious wounding, attempted unlawful wounding,
and use of a firearm in the commission of a felony. On
February 9, 2009, he was sentenced to six years in
prison.
70a

On June 26, 2009, following his conviction, the
Navy administratively separated Mr. Strand from
service. However, until this date, the Navy had
continued paying Mr. Strand his salary even though
he had been in civil confinement since his arrest.
Because he had at least 90 days of leave accrued, Mr.
Strand waited three months after being in custody
before seeking confirmation from his command that
he was entitled to continue receiving pay. He was
informed that the command was aware of his civil
confinement and that he was entitled to continue
receiving pay.
On September 24, 2010, Mr. Strand was
released early from prison because of his model
conduct. After his release, he sought employment,
eventually moving back to Pennsylvania to work at a
Hibachi Restaurant washing dishes and cleaning. He
used his earnings to pay child support and court costs
in full. He also attended school at Delaware
Community College, where he took various Network
Engineering classes.
In 2011, Mr. Strand learned that the Navy was
attempting to collect $74,486.33 of basic pay plus fees
and interest that was paid to him while he was civilly
confined. He disputed the debt with the Department
of Treasury but was informed that the United States
was not liable for the negligent or erroneous acts of its
employees.
Around the same time, Mr. Strand petitioned
the Board for Correction of Naval Records (BCNR) for
a change to his naval record granting six months
71a

retirement credit so that he would have completed 20
years of service and be eligible for retirement benefits.
On December 15, 2014, the BCNR considered Mr.
Strand’s conduct, the fact that he accepted
responsibility for his misconduct, his rehabilitation,
character references, and other evidence. The BCNR
weighed “the seriousness of [Mr. Strand’s]
disciplinary infarctions and [that it did] not condone
his misconduct” against Mr. Strand’s “overall record
of more than 19 years and six months of satisfactory
service [and] his good post service conduct and his
early release from civil confinement due to his good
behavior.” J.A. 89. Ultimately, the BCNR concluded
that Mr. Strand “should be granted relief in the form
of credited time served for retirement, i.e.,
approximately six months [and] that the reenlistment
code should not be changed because his
nonrecommendation for retention and/or reenlistment
was based solely on his civil conviction.” J.A. 89.
Therefore, the BCNR recommended that Mr. Strand’s
naval record be revised “to show he was honorably
retired with 20 years of service vice (sic) issued a
general discharge under honorable conditions by
reason of misconduct (civil conviction) on 26 June
2009.” J.A. 90.
The Executive Director of the BCNR chose to
seek Secretarial approval of the decision. On February
3, 2015, Mr. Robert Woods, the Navy’s Assistant
General Counsel for Manpower and Reserve Affairs,
through delegated authority from the Secretary,
rejected the BCNR’s recommendations in a twoparagraph decision and refused to grant Mr. Strand
his requested relief. According to Assistant General
Counsel Woods, Mr. Strand was not entitled to relief
72a

in light of the Navy’s core values, its practice in
similar cases, and Mr. Strand’s “long-standing history
of FAP [Family Advocacy Program] involvement and
domestic violence issues.” J.A. 166–67.
On June 15, 2015, Mr. Strand appealed the
Secretary’s decision pro se to the Court of Federal
Claims, and subsequently obtained counsel through
the trial court’s pro bono program. On December 28,
2015, the Government filed a counterclaim to recover
the amounts that it had paid to Mr. Strand during his
civil confinement.
On June 3, 2016, the trial court ruled in favor
of Mr. Strand on his claim that the Secretary’s
decision to deny relief was arbitrary and capricious
and ruled in favor of the Government on its
counterclaim to recover its payments to Mr. Strand.
Both parties appeal. We have jurisdiction under 28
U.S.C. § 1295(a)(3).
II
We review the trial court’s decision granting or
denying a motion for judgment upon the
administrative record without deference, applying the
same standard of review that the trial court applied.
Roth v. United States, 378 F.3d 1371, 1381 (Fed. Cir.
2004).
The Government argues that the trial court
erred by disregarding the substantial evidence
supporting the Secretary’s decision. We must reverse
the Secretary’s decision if it is arbitrary or capricious,
unsupported by substantial evidence, or otherwise not
73a

in accordance with law. Walls v. United States, 582
F.3d 1358, 1367 (Fed. Cir. 2009). Substantial evidence
is “such relevant evidence as a reasonable mind might
accept as adequate to support a conclusion.” Snyder v.
Dep’t of Navy, 854 F.3d 1366, 1372 (Fed. Cir. 2017).
We conclude that the Secretary’s decision is not
supported by substantial evidence. The Secretary
relied on the sum of two facts in the record and two
policy reasons to reject the BCNR’s decision: (1) Mr.
Strand’s longstanding history of domestic violence
issues and FAP involvement; (2) the seriousness of
Mr. Strand’s convictions arising out of his February
2008 actions; and that granting relief would be
inconsistent with (3) the Navy’s core values and (4) the
Navy’s practice in similar cases. J.A. 82.
The Secretary’s finding that Mr. Strand had a
“longstanding history of FAP involvement and
domestic violence issues” is not supported by
substantial evidence. The Secretary’s sole basis for
this statement is an April 2009 memorandum
prepared by Captain H. D. Starling II, Mr. Strand’s
former commanding officer. Captain Starling’s
statement, however, is conclusory and unsupported by
the administrative record. Prior to 2007 and the
events that gave rise to Mr. Strand’s separation from
service, the administrative record reflects no history
of FAP participation or domestic violence issues. For
example, the record does not contain a non-judicial
punishment, counseling entry, court-martial entry, or
military protective order. While the Government
argues that Mr. Strand’s conduct giving rise to his
civil confinement supports the Secretary’s conclusion,
Mr. Strand’s conduct, though serious, does not reflect
74a

a “long-standing history” of issues. Therefore, the
Secretary’s finding that Mr. Strand had a longstanding history of domestic violence issues and FAP
involvement is not supported by substantial evidence.
Despite the foregoing, the Government argues
that we should still uphold the Secretary’s decision
because it sets forth other policy rationales and
evidence. But because the Secretary relied on a
combination of intertwined reasons, and Mr. Strand
has shown that at least one of those reasons is not
supported by substantial evidence, the record is not
clear as to whether the Secretary would still reach the
same conclusion. Thus, the Secretary’s decision must
be reversed.
The Government submits that even if we find
the Secretary’s decision unsupported by substantial
evidence, this case should be remanded to the
Secretary for further investigation. It is an
established principle of administrative law that courts
should not “intrude upon the domain which Congress
has exclusively entrusted to an administrative
agency,” INS v. Ventura, 537 U.S. 12, 16 (2002) (per
curiam) (quoting SEC v. Chenery Corp., 318 U.S. 80,
88 (1943)), and that “a judicial judgment cannot be
made to do service for an administrative judgment,”
Chenery, 318 U.S. at 88. Thus, “the proper course,
except in rare circumstances, is to remand to the
agency for additional investigation or explanation.”
Gonzalez v. Thomas, 547 U.S. 183, 186 (2006) (per
curiam) (quoting Ventura, 537 U.S. at 16). Here, the
Secretary has not yet considered whether the BCNR’s
decision to grant Mr. Strand partial relief should be
upheld in the absence of any evidence of a “long75a

standing history” of FAP involvement and domestic
violence issues. We find no special circumstances that
would support determining this question in the first
instance. Therefore, this case must be remanded back
to the Secretary for further review of the BCNR’s
decision.
III
Turning to the cross-appeal, Mr. Strand argues
that the Government’s counterclaim seeking the
salary paid to him during his civil confinement is
untimely.1 We review de novo whether the Court of
Federal Claims possesses jurisdiction over a claim.
Estes Exp. Lines v. United States, 739 F.3d 689, 692
(Fed. Cir. 2014).
In general, the government has six years to file
suit seeking money damages based upon a contract.
28 U.S.C. § 2415(a). However, § 2415 expressly
provides that the six-year limitation period does not
prevent the government from asserting its claim as a
counterclaim that arises out of the transaction or
occurrence that is the subject matter of the opposing
party’s claim. 28 U.S.C. § 2415(f). Here, Mr. Strand
filed a claim seeking an entitlement to the wages paid
to him between his civil confinement and separation
from the Navy. J.A. 36. The Government’s
counterclaim seeking recovery of those same wages
“arises out of the transaction or occurrence that is the
subject matter of” Mr. Strand’s claim. Vivid Techs.,
Inc. v. Am. Sci. & Eng’g, Inc., 200 F.3d 795, 801 (Fed.
1 The Government did not challenge the trial court’s decision to
preclude the recovery of interest, fees, or penalties as the
payments in question were due solely to the Government’s error.

76a

Cir. 1999). Therefore, the Government’s counterclaim
is timely under § 2415(f).
Next, Mr. Strand contends that the
Government’s counterclaim is untimely under 28
U.S.C. § 2501, which states that “[e]very claim of
which the United States Court of Federal Claims has
jurisdiction shall be barred unless the petition thereon
is filed within six years after such claim first accrues.”
However, since the Court of Federal Claims may only
hear claims against the government, § 2501 governs
claims against the government. The counterclaim is a
claim by the government and is controlled by the
limitations periods set forth in § 2415 (titled, “Time
for commencing actions brought by the United
States”). As a result, the Government’s counterclaim
is not barred by § 2501.
Finally, Mr. Strand argues that the
Government did not file its pleading containing a
counterclaim within a timely manner under the Rules
of the United States Court of Federal Claims. A trial
court’s application of its rules is reviewed for abuse of
discretion. Keranos, LLC v. Silicon Storage Tech., Inc.,
797 F.3d 1025, 1035 (Fed. Cir. 2015) (citations
omitted). The Government filed its counterclaim on
December 28, 2015, more than a month after the trial
court’s November 26, 2015 scheduling deadline. Mr.
Strand filed a motion to strike, arguing that the
counterclaim was untimely. The trial court, after
deciding the parties’ motions for judgment on the
administrative record and ruling on the counterclaim,
found the motion to strike moot. Despite the
untimeliness of the pleading, Mr. Strand had the full
opportunity to oppose the counterclaim and does not
77a

argue that he was prejudiced in his ability to oppose
it. Thus, the trial court did not abuse its discretion in
allowing the Government’s counterclaim.
IV
We have considered the parties’ remaining
arguments but find them unpersuasive. Accordingly,
we reverse the trial court’s ruling on Mr. Strand’s
claim, and instruct the trial court to remand this case
to the Secretary of the Navy for further proceedings
consistent with this opinion. On the Government’s
counterclaim, we affirm.
AFFIRMED IN PART, REVERSED IN PART,
AND REMANDED
No costs.

78a

UNITED STATES COURT OF APPEALS FOR
THE FEDERAL CIRCUIT
NOTICE OF ENTRY OF
JUDGMENT ACCOMPANIED BY OPINION
OPINION FILED AND JUDGMENT ENTERED:
09/07/2017
The attached opinion announcing the
judgment of the court in your case was filed and
judgment was entered on the date indicated above.
The mandate will be issued in due course.
Information is also provided about petitions
for rehearing and suggestions for rehearing en banc.
The questions and answers are those frequently
asked and answered by the Clerk's Office.
No costs were taxed in this appeal.
Regarding exhibits and visual aids: Your
attention is directed Fed. R. App. P. 34(g) which
states that the clerk may destroy or dispose of the
exhibits if counsel does not reclaim them within a
reasonable time after the clerk gives notice to remove
them. (The clerk deems a reasonable time to be 15
days from the date the final mandate is issued.)
FOR THE COURT
/s/ Peter R. Marksteiner
Peter R. Marksteiner
Clerk of Court
cc: Jeffery M. Chiow
Daniel Kenneth Greene
79a

Lucas Taylor Hanback
Neil H. O'Donnell
16-2450, -2484: Strand v. US
United States Court of Federal Claims, Case No.
1:15-cv-00601-TCW

80a

In the United States Court of Federal Claims
No. 15-601C
(Filed: June 3, 2016)
*******************************
WALTER N. STRAND, III,
*
*
Plaintiff,
*
*
v.
*
*
THE UNITED STATES,
*
*
Defendant.
*
*
*******************************
Action for Review of Military Records; Assistant
General Counsel’s Reversal of Decision by Board for
Correction of Naval Records; Standard of Review;
Counterclaim for Return of Funds Erroneously Paid
to Plaintiff.
Jeffery M. Chiow, with whom was Lucas T. Hanback,
Rogers Joseph O’Donnell, P.C., Washington, D.C., for
Plaintiff.
Daniel K. Greene, with whom were Benjamin C.
Mizer, Principal Deputy Assistant Attorney General,
Robert E. Kirschman, Jr., Director, and Douglas K.
Mickle, Assistant Director, Commercial Litigation

81a

Branch, Civil Division, U.S. Department of Justice,
Washington, D.C., for Defendant.
OPINION AND ORDER
WHEELER, Judge.
Plaintiff, an enlisted serviceman in the United
States Navy, brings this action to correct the manner
by which he was separated from the military after
more than 19 years of largely exemplary service. In a
proceeding before the Board for Correction of Naval
Records, the Board primarily agreed with Plaintiff’s
position, but the favorable ruling was promptly
reversed in a two-paragraph memorandum by the
Assistant General Counsel for Navy Manpower and
Reserve Affairs. The Court must review whether the
Assistant General Counsel’s reversal of the Board’s
decision is arbitrary, capricious, an abuse of
discretion, or not supported by substantial evidence.
Factual and Procedural Background1
Plaintiff, Walter N. Strand, III, commenced
this action on June 15, 2015 requesting the correction
of his military records along with back pay and
entitlement to future pay. Mr. Strand initially
brought this action by filing a complaint as a pro se
plaintiff. Shortly thereafter, Mr. Strand was able to
secure representation through this Court’s pro bono
referral program and subsequently filed an amended
1 The facts in this decision are taken from the administrative
record (“AR”). The pages in the administrative record are
numbered in sequence. The Court’s citations to the
administrative record are to the AR page numbers.

82a

complaint on October 8, 2015. On January 15, 2016,
the Court denied the Government’s motion to dismiss
each of Plaintiff’s four asserted claims. Currently
pending before the Court are Plaintiff’s motion for
judgment on the administrative record (Dkt. No. 23),
Defendant’s motion to supplement the administrative
record (Dkt. No. 33), Defendant’s cross-motion for
judgment on the administrative record (Dkt. No. 35),
Defendant’s first counterclaim (Dkt. No. 36),
Plaintiff’s second motion to strike (Dkt. No. 37),
Plaintiff’s motion to dismiss the counterclaim (Dkt.
No. 42), and Defendant’s motion to remand (Dkt No.
52).
Mr. Strand’s claims before this Court involve
the manner in which he was separated from the Navy.
Mr. Strand enlisted in the Navy in 1988 and served
for more than 19 years, rising to the rank of Chief
Petty Officer. He spent more than eleven of those
years deployed abroad, including deployments in
support of Operations Iraqi and Enduring Freedom.
Pl.’s Mot. for Judgment on the Administrative Record
(“MJAR”) at 4. Mr. Strand earned several
commendations and personal awards during his
service, including four Navy and Marine Corps
Achievement Medals and four Good Conduct Medals.
Id. Mr. Strand’s service record reflects high marks for
military performance and confirms his qualification
as an “information assurance professional” whom the
military trusted with classified information. Id. at 45.
Prior to the incident that led to his separation
from the Navy, Mr. Strand’s evaluations portray an

83a

exemplary officer ripe for further promotion.2 See AR
105 (“His contributions to ENTERPRISE and the
Navy have been exemplary. He is ready for greater
responsibility. Promote to Senior Chief Petty
Officer.”); AR 107 (“Petty Officer Strand is a dynamic
leader . . . . Continue to select for the most challenging
assignments and promote ahead of his peers.”); AR
109 (“Superb Manager. . . . An extraordinary coach
and mentor. He is a pillar for subordinates and juniors
alike to emulate. . . . Ready for Chief NOW! Petty
Officer
Strand
has
my
highest
personal
recommendation for advancement to Chief Petty
Officer.”).
After returning from his final combat
deployment in the spring of 2007, Mr. Strand
discovered that his wife had emptied his bank account
and left home without explanation, taking his
children and belongings with her. AR 059. A heated
confrontation at his wife’s new apartment building in
June 2007 led to Mr. Strand’s first negative fitness
report. Pl.’s MJAR at 5; AR 103 (“Chief Strand
displayed unsatisfactory conduct and decision making
for a Chief Petty Officer.”). In February 2008, Mr.
Strand was arrested after shooting at the car his wife
and her boyfriend were driving. As a result of that
incident, Mr. Strand was convicted of attempted
2 There is one much older negative conduct offense reflected in
Mr. Strand’s record. While serving on the USS Thomas C. Hart
as a new Radioman Petty Officer, Third Class in 1992, at the age
of twenty-two, Mr. Strand was counseled for “ABUSE OF
ALCOHOL WHICH RESULTS IN DISORDERLY CONDUCT”
and instructed to “REFRAIN FROM OVERINDULGENCE IN
ALCOHOLIC BEVERAGES.” Am. Compl. at 3-4, citing
NAVSPERS 1070-613, February 26, 1992. Mr. Strand served
without incident from 1992 to 2007.

84a

malicious wounding, attempted unlawful wounding,
and use of a firearm in the commission of a felony. AR
009. Following his conviction, Mr. Strand was
administratively separated from the Navy. His
discharge was characterized as “under other than
honorable circumstances” with less than 20 years of
service. Id. Mr. Strand was released from prison for
good behavior after serving three years of his six-year
sentence. Id.
Upon his release, Mr. Strand asked the Navy
Discharge Review Board (“NDRB” or “Discharge
Board”) to upgrade his service characterization and
change his reentry code. AR 078. Although it initially
denied Mr. Strand’s requests, the Discharge Board
eventually granted Mr. Strand partial relief when he
appeared before the NDRB on December 12, 2013. The
Discharge
Board
agreed
to
change
the
characterization of Mr. Strand’s service from under
other than honorable conditions to general under
honorable conditions, but declined to revise the
narrative reason for discharge in his record. AR 032.
After his success before the Discharge Board, Mr.
Strand petitioned the Board for Correction of Naval
Records (“BCNR” or “Board for Correction”),
“requesting six months retirement credit with an
honorable characterization of service, or an upgrade of
his general discharge to honorable, a change of his
narrative reason for separation, and a favorable
reenlistment code.” AR 008. On December 15, 2014,
after a full review of Mr. Strand’s application, naval
record, record evidence and deliberations by a
quorum, the Board for Correction came to the
following conclusion:

85a

Upon review and consideration of all
the evidence of record, the Board
concludes that Petitioner’s request
warrants partial favorable action.
Nonetheless, the Board initially notes
the
seriousness
of
Petitioner’s
disciplinary infractions and does not
condone his misconduct. However, the
Board also notes Petitioner’s overall
record of more than 19 years and six
months of satisfactory service, which
included being awarded four Navy and
Marine Corps Achievement Medals,
four Good Conduct Medals, and
personal awards. The Board further
notes his good post service conduct and
early release from civil confinement
due to his good behavior.
The Board considered the fact that
NDRB upgraded the characterization
of service to general under honorable
conditions
based,
in
part,
on
Petitioner’s overall record of service
and good post service conduct. With
that in mind, the Board concluded that
Petitioner has suffered long enough for
his indiscretion and should be granted
relief in the form of credited time
served
for
retirement,
i.e.,
approximately six months. . . .
AR 010-011, BCNR Decision dated December 15,
2014. Based on its consideration of all of the evidence
of record, the Board for Correction recommended
86a

“[t]hat Petitioner’s naval record be corrected to show
he was honorably retired with 20 years of service vice
issued a general discharge under honorable conditions
by reason of misconduct (civil conviction) on 26 June
2009.” AR 011.
The Secretary of the Navy is authorized under
10 U.S.C. § 1552, as implemented by SECNAVINST
5420.193, to correct a Navy member’s service record
when “necessary to correct an error or remove an
injustice.” In exercising this authority, the Secretary
must act through a board of civilians, in this case the
BCNR, who shall review and evaluate an applicant’s
claim. SECNAVINST 5420.193 at 3. Although not
required, the Executive Director of the BCNR chose to
seek
secretarial
approval
of
the
BCNR’s
recommendation to correct Mr. Strand’s record.3 On
December 15, 2014, the same day that a quorum of the
BCNR unanimously recommended correcting Mr.
Strand’s naval record, Executive Director Robert J.
O’Neill unilaterally opted to seek review of the
BCNR’s recommendation, writing “[i]t is my opinion,
based on the seriousness of the offense and the
significant grant of relief, that SECNAV should
review this case for decision.” AR 013.

3 Section 6(e)(1) allows that “[w]ith respect to all petitions for
relief properly before it, the Board is authorized to take final
corrective action on behalf of the Secretary . . .” except under
three circumstances, the last of which being that “[i]t is in the
category of petitions reserved for decision by the Secretary of the
Navy.” SECNAVINST 5420.193, Section 6(e)(1)(c). Section
6(e)(2)(c), cited in the secretarial review memorandum, is a
discretionary catchall category that references “[s]uch other
petitions as, in the determination of the Office of the Secretary
or the Executive Director, warrant Secretarial review.”

87a

On February 3, 2015, Robert L. Woods, an
Assistant General Counsel, Navy Manpower and
Reserve Affairs, rejected the BCNR’s decision in a
two-paragraph memorandum.4 AR 003. Mr. Woods
gave two rationales for overturning the BCNR’s
decision. First, he stated that granting the
recommended relief would contravene “Navy core
values and practice in similar cases . . . .” Id. Second,
quoting an April 3, 2009 Administrative Separation
Memorandum prepared by Mr. Strand’s commanding
officer, Mr. Woods stated that Mr. Strand “had a ‘longstanding history of FAP [Family Advocacy Program]
involvement and domestic violence issues.’” Id.
Before this Court, Mr. Strand argues that Mr.
Woods’s decision was arbitrary and capricious and not
supported by substantial evidence, and urges this
Court to give effect to the Board for Correction’s
recommendation. Alternatively, Mr. Strand argues
that he was denied his right to an administrative
review board. Mr. Strand seeks monetary relief in the
form of active duty pay, back pay, and applicable pay
going forward, and asks that the Court deny the
Government’s counterclaim. The Government
maintains that the Secretary properly rejected the
BCNR’s recommendation and that Mr. Strand’s claim
for retirement is based on equity rather than legal
error and therefore not eligible for review before this
Court. Additionally, the Government contends that
4 The Secretary of the Navy delegated to the Assistant Secretary,
Manpower and Reserve Affairs the authority to review BCNR
petitions if required. SECNAVINST 5420.193 at 1-2 (¶b) (Nov.
1997). The Assistant Secretary in turn delegated that authority
to the assistant general counsel of Manpower and Reserve
Affairs. Gov’t MJAR at 11, n.6.

88a

Mr. Strand waived his right to judicial review of
certain issues by failing to raise them before the
NDRB, the BCNR, or the Secretary. The Government
also argues that Mr. Strand’s challenge to the
Secretary’s decision and request for reinstatement of
the BCNR’s recommendation present nonjusticiable
claims. Finally, in its counterclaim, the Government
claims that it is entitled to an award “based upon
overpayments made to Mr. Strand in the amount of
$79,626.61 for which he was not entitled, plus
interest, fees, and penalties . . . .” Gov’t Counterclaim
at ¶ 21(A).
Discussion
A. Subject Matter Jurisdiction
In the Court of Federal Claims, “[b]ecause
subject matter jurisdiction is a threshold matter, it
must be established before the case can proceed on the
merits.” Sellers v. United States, 110 Fed. Cl. 62, 66
(2013) (citing Steel Co. v. Citizens for a Better Env’t,
523 U.S. 83, 94–95 (1998)). In this case, the Court’s
subject matter jurisdiction is derived from both the
Tucker Act, 28 U.S.C. § 1491, and the Administrative
Procedures Act (“APA”), 5 U.S.C. § 703. The Tucker
Act grants jurisdiction over claims “against the
United States founded either upon the Constitution,
or any Act of Congress or any regulation of an
executive department, or upon any express or implied
contract with the United States, or for liquidated or
unliquidated damages in cases not sounding in tort.”
28 U.S.C. § 1491(a)(1). The APA in turn entitles a
person legally wronged by agency action to seek
judicial review, thus waiving sovereign immunity of
89a

the United States. 5 U.S.C. § 703; Weaver v. United
States, 46 Fed. Cl. 69, 76 (2000). Thus, in conjunction
with the APA, this Court has jurisdiction pursuant to
the Tucker Act to review a decision by a corrections
board, or a decision to override a corrections board
recommendation, “[t]o provide an entire remedy and
to complete the relief afforded by the judgment” by
issuing an “order directing restoration to office or
position, placement in appropriate duty or retirement
status, and correction of applicable records . . . .” 28
U.S.C. § 1491(a)(2); see also Weaver, 46 Fed. Cl. at 7677.
The Tucker Act, however, does not confer any
substantive rights upon Plaintiff and Plaintiff may
not rely on the APA as an independent source of
jurisdiction as it does not mandate payment of money
damages. Thus, Plaintiff must establish an
independent right to money damages from a moneymandating source within a contract, regulation,
statute or constitutional provision in order for the case
to proceed. Jan’s Helicopter Serv. Inc. v. FAA, 525
F.3d 1299, 1306 (Fed. Cir. 2008); Volk v. United
States, 111 Fed. Cl. 313, 323 (2013). Here, the
separate money-mandating sources are 10 U.S.C. §
6333, which provides the schedule according to which
military retired and retainer pay are computed, and
37 U.S.C. § 204, which governs the portion of Mr.
Strand’s pay the Government argues should be
disgorged.
B. Standard of Review
Rule 52.1 of this Court governs motions for
judgment on the administrative record. A review of
90a

this kind is like a paper trial based upon the
documents assembled by the agency. The Court
makes factual findings based upon the evidence
presented in this record. See, e.g., Bannum, Inc. v.
United States, 404 F.3d 1346, 1356 (Fed. Cir. 2005);
Coastal Envtl. Grp., Inc. v. United States, 118 Fed. Cl.
1, 10 (2014). To review a motion under Rule 52.1, this
Court must decide whether a party has met its burden
of proof based on the evidence in the record given all
disputed and undisputed facts. Anderson v. United
States, 111 Fed. Cl. 572, 578 (2013), aff’d (Fed. Cir. 135117, July 11, 2014); Bannum, Inc., 404 F.3d at 1356.
In reviewing the actions of a military correction
board, this Court must apply the standard of review
set forth in the APA. 5. U.S.C. § 706. Under section
706(2)(A), this Court must “hold unlawful and set
aside agency action, findings, and conclusions found
to be arbitrary, capricious, an abuse of discretion, or
otherwise not in accordance with law . . . .” 5 U.S.C. §
706(2)(A). The Court shall overturn a correction
board’s decision only if it determines that the decision
was “arbitrary and capricious, unsupported by
substantial evidence, or not in accordance with the
applicable laws or regulations.” Laningham v. United
States, 30 Fed. Cl. 296, 310 (1994). Although the
Court reviews a service secretary’s decision to
overrule a corrections board recommendation
pursuant to the same standard, its review
nevertheless “is limited in nature.” Moehl v. United
States, 34 Fed. Cl. 682, 690 (1996). Thus, a secretary’s
decision may “differ with a board’s recommendations
where the evidence is susceptible of varying
interpretations.” Id. at 690 (citing Sanders v. United
States, 594 F.2d 804, 812 (1979)). Nevertheless, a
91a

secretary may not “arbitrarily refuse to follow the fact
findings of the correction board where all the evidence
supports the board’s findings.” Moehl, 34 Fed. Cl. at
690 (citing Hertzog v. United States, 167 Ct. Cl. 377
(1964); see also Boyd v. United States, 207 Ct. Cl. 1, 8
(1975) (“The court, in turn, may reject the decision of
a Secretary only if he has exercised his discretion
arbitrarily, capriciously, in bad faith, contrary to
substantial evidence, or where he has gone outside the
board record, or fails to explain his actions, or violates
applicable law or regulations. Then we will not
hesitate to set him right.”).
C. Mr. Wood’s Decision to Overrule the BCNR
Recommendation
The Secretary of a military department is
required to act through boards of civilian officers or
employees in reviewing and correcting military
records. 10 U.S.C. § 1552. Generally, after reviewing
a service member’s record, the Board for Correction is
authorized to take final corrective action based on its
findings. SECNAVINST 5420.193, Section 6(e)(1).
Even in those instances where secretarial review or
approval is sought or required, the Secretary must
nevertheless justify a decision to overturn a
recommendation that is supported by the record.
Thus, when a secretary goes outside of the record
before the board, the secretary “must justify such a
departure by explicitly stating the ‘policy reasons’
behind such action.” Hertzog v. United States, 167 Ct.
Cl. 377, 387 (1964). In Hertzog, the Court held that in
the absence of such an explanation, the Secretary’s
discretionary action was arbitrary and capricious. Id.
at 388.
92a

“Since the errors or injustices which might
require correction were originally made by the
military, Congress made it manifest that the
correction of those errors and injustices was to be in
the hand of civilians.” Id. at 386 (quoting Proper v.
United States, 139 Ct. Cl. 511 (1957)). Accordingly, a
Secretary may not rely on the advice of a military
officer as justification for overruling a reasoned BCNR
recommendation. Weiss v. United States, 187 Ct. Cl.
1, 11 (1969) (explaining that “[t]he thrust of the
Proper opinion is that a Secretary of a military
department cannot overrule the recommendations of
a civilian correction board on the advice of a military
officer unless the findings of the board are not justified
by the record before it.”). Ultimately, because the
function of the BCNR is not merely advisory, the
Secretary is not free to reject a recommendation
without proper justification. See Weiss, 187 Ct. Cl at
10; Hertzog, 167 Ct. Cl. at 386-87; Proper, 139 Ct. Cl.
at 526. Although, “the final authority regarding
requested corrections is vested in the Secretary,” such
authority must nevertheless be exercised in
accordance with the law. Strickland v. United States,
423 F.3d 1335, 1342 (Fed. Cir. 2005).
In this case, Mr. Woods overruled the BCNR’s
recommendation to grant partial relief to Mr. Strand
on two grounds. As the first ground for overruling the
BCNR, Mr. Woods stated that “the relief
recommended by the Board is wholly inconsistent
with Navy core values and practice in similar cases
involving discharge for criminal conduct and
conviction.” AR 003. However, notwithstanding his
reference to “core values,” Mr. Woods failed to cite a
93a

single specific core value or explain how the Board’s
recommendation ran counter to any such value. If the
Secretary goes beyond the record before the Board for
Correction in overruling a recommendation, the
Secretary must explicitly set forth the policy reasons
for doing so. Hertzog, 167 Ct. Cl. at 386-87. Here, a
mere reference to “core values” provides no reasoning
for this Court to review. In the absence of further
explanation, Mr. Woods’s vague and imprecise
proffered justification for overruling the BCNR’s
reasoned recommendation “cannot be characterized as
other than capricious.” Betts v. United States, 145 Ct.
Cl. 530, 535 (1959) (explaining that “[a] decision
contrary to all evidence, and for which, even on post
audit, no reason can be given except an irrelevant
reason, cannot be characterized as other than
capricious. As such it deserves only to be ignored, and
we ignore it.”).
As the second ground for his decision, Mr.
Woods quoted from a memorandum prepared by Mr.
Strand’s former commanding officer, Captain H. D.
Starling II, claiming that Mr. Strand had a “longstanding history of FAP [Family Advocacy Program]
involvement and domestic violence issues.” AR 003
(quoting AR 088, Administrative Separation
Memorandum, April 3, 2009). This statement is not
supported by the record before the Court and, other
than a passing reference to Captain Starling’s
statement,
the
Board
for
Correction’s
recommendation memorandum includes no discussion
of such history. Instead, the Board for Correction
explicitly noted “the seriousness of [Plaintiff’s]
disciplinary infractions,” and explained that it did
“not condone his misconduct.” AR 010. However, the
94a

BCNR also recognized that Mr. Strand (1)
satisfactorily served his country for nineteen years
and six months, (2) was granted partial relief by the
Naval Discharge Review Board “based, in part, on
[his] overall record of service and good post service
conduct,” and (3) paid his debt to society, earning
“early release from civil confinement due to his good
behavior.” AR 010. Given that the BCNR’s findings
are based on a thorough consideration of the evidence
of record, this Court cannot uphold Mr. Woods’s
decision to overrule those findings on the basis of a
military official’s statement, especially where there is
no evidentiary support for that statement in the
record before the BCNR.
Conclusion
Ultimately, Mr. Woods’s decision to overrule
the BCNR’s reasoned recommendation is simply not
justified in the two-paragraph memorandum that is
before this Court. Considering the entire
administrative record, the Court finds the Secretary’s
disapproval of the Board for Correction’s
recommendation arbitrary, capricious, an abuse of
discretion, and not supported by substantial evidence.
The Court directs the Navy to carry out the BCNR’s
recommendation “[t]hat Petitioner’s naval record be
corrected to show he was honorably retired with 20
years of service vice issued a general discharge under
honorable conditions by reason of misconduct (civil
conviction) on 26 June 2009.” The Court need not
reach the separate issue of whether Mr. Strand was
denied his right to an administrative separation
board.

95a

Accordingly, the Court GRANTS Plaintiff’s
cross-motion for judgment on the administrative
record, and DENIES Defendant’s motion for judgment
on the administrative record. The Court directs the
Navy to retire Mr. Strand with all appropriate back
pay, benefits, and allowances. The Court GRANTS IN
PART Defendant’s counterclaim and DENIES
Plaintiff’s motion to dismiss the counterclaim. The
Government may deduct no more than $79,626.61, the
amount the Navy claims it erroneously paid to Mr.
Strand, from the amount due to Mr. Strand pursuant
to this opinion. The Government explicitly is not
entitled to any interest, fees, or penalties on its
counterclaim, as the payments in question were due
solely to the Government’s error. Defendant’s motion
to supplement the administrative record and motion
to remand are DENIED as MOOT, as is Plaintiff’s
second motion to strike. The Clerk shall enter
judgment in accordance with this opinion.
IT IS SO ORDERED
s/Thomas C. Wheeler
THOMAS C. WHEELER
Judge

96a

DEPARTMENT OF THE NAVY
OFFICE OF THE ASSISTANT SECRETARY
(MANPOWER AND RESERVE AFFAIRS)
1000 NAVY PENTAGON
WASHINGTON DC 20350-1000
February 3, 2015
MEMORANDUM FOR THE EXECUTIVE
DIRECTOR, BOARD FOR CORRECTION OF
NAVAL RECORDS
Subj: BCNR PETITION OF FORMER ITC WALTER
STRAND, USN, Dkt. #NR4145-14
You forwarded the subject petition to me
pursuant to the provisions of the SECNAVINST
5420.193, Section 6.e.(2)(c) because you determined
that this is a petition that warrants Secretarial
review. Further, the Secretary has delegated
authority to me to render decisions in such cases.
Pursuant to this authority, and for the reasons stated
below, the recommendation of the Board for
Correction of Naval Records to grant the Petitioner's
request for relief is disapproved.
I disagree with the Board's reasoning that
petitioner should be granted relief because previous to
his felonious misconduct he had a good service record
and he was released early from his prison sentence for
good behavior while incarcerated and, as such he has
"suffered long enough." Granting the relief
recommended by the Board is wholly inconsistent
with Navy core values and practice in similar cases
97a

involving discharge for criminal conduct and criminal
conviction. According to the uncontroverted comments
of the Commander, Naval Network Warfare
Command, in his letter to the Commander, Naval
Personnel Command, dated 3 April, 2009,
recommending petitioner's administrative separation
under other than honorable conditions, petitioner was
not only convicted of serious felonies he also had a
"long-standing history of F AP [Family Advocacy
Program] involvement and domestic violence issues."
Petitioner's separation short of retirement is
consistent with standard Navy practice in similar
cases. As such, I find that his petition is denied.
s/Robert L. Woods
Robert L. Woods
Assistant General Counsel
(Manpower and Reserve Affairs)

98a

DEPARTMENT OF THE NAVY
BOARD FOR CORRECTION OF NAVAL
RECORDS
701 S. COURTHOUSE ROAD, SUITE 1001
ARLINGTON, VA 22204-2490
HCG
Docket No.: 4145-14
15 December 2014
From: Chairman, Board for Correction of Naval
Records
To: Secretary of the Navy
Subj: REVIEW NAVAL RECORD OF EX-ITC
WALTER N. STRAND, USN XXX-XX-[REDCATED]
Ref: (a) 10 U.S.C. 1552
Encl: (1) DD Form 149 with attachments
(2) Case summary
(3) Subject’s naval record (excerpts)
(4) NDRB Decisional Docket, ND11-0886,
3May12
(5) NDRB Decisional Docket, ND13-01170, 12
DEC13
1. Pursuant to the provisions of reference (a),
Petitioner, a former enlisted member of the Navy,
filed enclosure (1) with this Board requesting six
months retirement credit with an .honorable
characterization of service, or an upgrade of his
general discharge to honorable, a change of his

99a

narrative reason for separation, and a favorable
reenlistment code. Enclosures (2) and (3) apply.
2. The Board, consisting of Messrs. Clemmon, Glover,
and Rothlein, reviewed Petitioner's allegations of
error and injustice on 10 December 2014 and,
pursuant to its regulations, determined that the
partial corrective action indicated below should be
taken on the available evidence of record.
Documentary material considered by the Board
consisted of the enclosures, naval records, and
applicable statutes, regulations and policies.
3. The Board, having reviewed all the facts of record
pertaining to Petitioner's allegations of error and
injustice finds as follows:
a. Before applying to this Board, Petitioner exhausted
all administrative remedies available under existing
law and regulations within the Department of the
Navy.
b. Although enclosure (1) was not filed in a timely
manner, it is in the interest of justice to waive the
statute of limitations and review the application on its
merits.
c. Petitioner enlisted in the Navy, began a period of
active duty on 27 December 1988, and served without
disciplinary incident for more than 19 years. However,
on 16 February 2008, he was arrested and held in
confinement by civil authorities. As a result, on 4
February 2009, he was convicted by civil authorities
of attempted malicious wounding, attempted unlawful
wounding, and use of a firearm in the commission of a
100a

felony, and was sentenced to six years confinement.
Three years of the confinement was suspended due to
his good behavior.
d. Based on the foregoing civil conviction, Petitioner
was administratively processed for separation by
reason of misconduct due to commission of a serious
offense. When notified of the administrative
separation processing, using board procedures, he
refused to sign or retain copies of the documentation
which constituted the waiving of his rights to consult
with a qualified counsel, submitting a written
statement, and/or requesting an administrative
discharge board (ADB). Nonetheless, his commanding
officer recommended separation under other than
honorable conditions, stating in part, that he had a
longstanding history of Family Advocacy Program
(FAP) involvement and domestic violence issues, and
that his behavior did not align with the Navy's core
values. The separation authority, in concurrence with
the commanding officer's recommendation, directed
separation under other than honorable conditions by
reason of misconduct due to commission of a serious
offense, and on 26 June 2009, he was so discharged
and assigned an RE-4 reentry code due to his not
being recommended for reenlistment.
e. On 18 November 2010, Petitioner submitted an
application to this Board requesting a change of his
reentry code. On 9 March 2011, the Board denied his
request after determining that his RE-4 reentry code
was properly assigned as based on the other than
honorable discharge by reason of misconduct due
commission of a serious offense as evidenced by civil
conviction. At that time the Board did not consider
101a

whether his characterization of service should be
changed since he did not initiate such a request for
consideration. However, he was advised that he had
not exhausted his administrative remedies by
applying to the Naval Discharge Review Board
(NDRB).
f. On 3 May 2012, the NDRB conducted a
documentary
review,
regarding
Petitioner's
characterization of service and narrative reason for
separation. In this regard, NDRB denied his request
and he was informed that he was eligible for a
personal appearance. The following year, on 12
December 2013, he appeared before NDRB and again
requested an upgrade of his discharge and a change of
the narrative reason for separation. At that time
NDRB determined that partial relief was warranted
in that the characterization of service would be
changed to general under honorable conditions. The
NDRB decisional document stated, in part, that full
relief was not warranted because of the seriousness of
Petitioner's misconduct, and for that same reason, the
narrative reason for discharge would remain
misconduct due to commission of a serious offense
(civil conviction). Enclosures (4) and (5) apply.
g. With his application, Petitioner provided a written
statement which notes in part, that he was humbled
by the fact that nearly twenty years of faithful and
dedicate service had been wiped away by a moment of
confusion and passion fueled anger; and that he
remained remorseful and had completed his civil
confinement/sentence
as
a
model
inmate.
Additionally, he states that he served honorably, and

102a

reenlisted term after term with retirement being his
goal.
CONCLUSION:
Upon review and consideration of all the evidence of
record, the Board concludes that Petitioner's request
warrants partial favorable action. Nonetheless, the
Board initially notes the seriousness of Petitioner's
disciplinary infractions and does not condone his
misconduct. However, the Board also notes
Petitioner's overall record of more than 19 years and
six months of satisfactory service, which included
being awarded four Navy and Marine Corps
Achievement Medals, four Good Conduct Medals, and
personal awards. The Board further notes his good
post service conduct and his early release from civil
confinement due to his good behavior.
The Board considered the fact that NDRB upgraded
the characterization of service to general under
honorable conditions based, in part, on Petitioner's
overall record of service and good post service conduct.
With that in mind, the Board concluded that
Petitioner has suffered long enough for his
indiscretion and should be granted relief in the form
of credited time served for retirement, i.e.,
approximately six months. The Board further
concluded that the reenlistment code should not be
changed because his nonrecommendation for
retention and/or reenlistment was based solely on his
civil conviction. In accordance with the foregoing, the
Board concluded that the record should be corrected
to reflect that Petitioner was honorably retired with
20 years of service.
103a

RECOMMENDATION:
a. That Petitioner's naval record be corrected to show
he was honorably retired with 20 years of service vice
issued a general discharge under honorable conditions
by reason of misconduct (civil conviction) on 26 June
2009.
b. That no further relief be granted.
c. That a copy of this report of proceedings be filed in
Petitioner's naval record.
d. That upon request, the Department of Veterans
Affairs be informed that Petitioner's application was
received on 18 February 2014.
4. It is certified that a quorum was present at the
Board's review and deliberations, and that the
foregoing is a true and complete record of the Board's
proceedings in the above entitled matter.
s/ T.J. Reed
T.J. REED
Recorder
5. The foregoing action of the Board is submitted for
your review and action.
/s Robert J. O’Neill
ROBERT J. O’NEILL
Executive Director
Reviewed and approved
104a

Disapproved RJW see attached
decisional memo.
s/Robert L. Woods
ROBERT L. WOODS
Assistant General Counsel
(Manpower and Reserve Affairs)
1000 Navy Pentagon, Rm 4D548
Washington, DC 20350-1000

105a

DEPARTMENT OF THE NAVY
NAVAL DISCHARGE REVIEW BOARD (NDRB)
DISCHARGE REVIEW DECISIONAL DOCUMENT
APPLICANT’S ISSUES
1. The Applicant contends his misconduct was an
isolated incident in almost 20 years of service.
2. The Applicant contends his post service conduct
warrants consideration for an upgrade.
DECISION
Date: 20131212
PERSONAL APPEARANCE
HEARING
Location: WASHINGTON D.C.
Representation: NONE
By a vote of 5-0 the Characterization shall
change to GENERAL (UNDER HONORABLE
CONDITIONS)
By a vote of 5-0 the Narrative Reason shall
remain MISCONDUCT (CIVIL CONVICTION)
DISCUSSION
The NDRB, under its responsibility to examine the
propriety and equity of an Applicant's discharge, is
authorized to change the character of service and the
reason for discharge if such change is warranted, In
reviewing discharges, the Board presumes regularity
in the conduct of governmental affairs unless there is
substantial credible evidence to rebut the
presumption, to include evidence submitted by the
Applicant. The Applicant's record of service included
106a

one civilian conviction for attempted malicious
wounding, attempted unlawful wounding, and use of
a firearm in the commission of a felony. Based on the
Applicant's civilian conviction, his command
administratively processed him for separation. When
notified of administrative separation processing using
the administrative board procedure, the Applicant
failed to complete and sign the notification, which
constituted a waiving of his rights to consult with a
qualified counsel, submit a written statement, and
request an administrative board.
Issue 1: (Decisional) (Propriety/Equity) RELIEF NOT
WARRANTED. The Applicant contends his
misconduct was an isolated incident in almost 20
years of service. The Applicant received Honorable
discharges for his first three enlistments from
December 1988 to December 2004. Each period of
enlistment is an independent obligation and
characterization is determined for that specific period
of time. During his fourth enlistment, the Applicant
was convicted of a civilian felony. Based on the
Applicant's record of service in his fourth enlistment,
the NDRB determined the Applicant engaged in
conduct involving one or more acts or omissions that
constituted a significant departure from the conduct
expected of members of the Naval Service, and the
awarded characterization of service was warranted.
Relief denied.
Issue .2~ (Decisional) (Equity) PARTIAL RELIEF
WARRANTED. The Applicant contends his postservice conduct warrants consideration for an
upgrade. The NDRB is authorized to consider postservice factors in the re-characterization of a
107a

discharge. However, there is no law, or regulation,
that provides that an unfavorable discharge may be
upgraded based solely on good conduct or
achievements in civilian life subsequent to leaving the
service. Normally, to permit relief, a procedural
impropriety or inequity must have been found to exist
during the period of enlistment in question. The
NDRB conducted a thorough review of the available
records, to include significant, credible evidence
submitted by the Applicant. After detailed analysis
and careful consideration of the facts and unique
circumstances surrounding the Applicant's record,
and the substantial post-service testimony, the NDRB
determined partial relief was warranted in this case.
Accordingly, the Applicant's characterization of
service shall change to General (Under Honorable
Conditions). Partial relief granted. The NDRB
determined full relief was not warranted based on the
seriousness of the Applicant's misconduct.
Summary: After a careful review of the Applicant's
post-service documentation and official service
records, and the facts and circumstances unique to
this case, the Board found the discharge was proper
and equitable at the time of discharge. However, the
NDRB determined partial relief is warranted based on
equitable grounds. The NDRB voted unanimously to
upgrade the characterization of service to GENERAL
(UNDER HONORABLE CONDITIONS) but the
narrative reason for separation shall remain
MISCONDUCT
(CIVIL
CONVICTION).
The
Applicant is not eligible for any further reviews from
the NDRB. The Applicant may petition the Board for
Correction of Naval Records, 701 South Courthouse
Road, Suite 1001, Arlington, VA 22204-2490 for
108a

further review using DD Form 149. Their website can
be
found
at
http://www.donhg.navy.mil/benr/benr.htm

109a

DEPARTMENT OF THE NAVY
NAVAL DISCHARGE REVIEW BOARD (NDRB)
DISCHARGE REVIEW DECISIONAL DOCUMENT
APPLICANT’S ISSUES
1. The Applicant contends his honorable 19 years of
service outweighs his misconduct.
DECISION
Date 20120503
DOCUMENTARY REVIEW
Location: WASHINGTON D.C.
Representation: NONE
By a vote of 5-0 the Characterization shall
remain UNDER OTHER THAN HONORABLE
CONDITIONS.
By a vote of 5-0 the Narrative Reason shall
remain MISCONDUCT (CIVIL CONVICTION).
DISCUSSION
The NDRB, under its responsibility to examine the
propriety and equity of an Applicant's discharge, is
authorized to change the character of service and the
reason for discharge if such change is warranted. In
reviewing discharges, the Board presumes regularity
in the conduct of governmental affairs unless there is
substantial credible evidence to rebut the
presumption, to include evidence submitted by the
Applicant. The Applicant's record of service included
no misconduct resulting in nonjudicial punishment or
court-martial. The Applicant had one civilian
conviction for Attempted Malicious Wounding,
110a

Attempted Unlawful Wounding, and Use of a Firearm
in the Commission of a Felony. He was sentenced to
six years incarceration. Based on the offenses
committed by the Applicant, his command
administratively processed him for separation. When
notified of administrative separation processing using
the administrative board procedure, the Applicant
refused to sign his election or waiver of rights, thus
constituting waiver of his rights to consult with
qualified counsel, submit a written statement, and
request an administrative board.
Issue I: (Decisional) (Equity) RELIEF NOT
WARRANTED). The Applicant contends his
honorable 19 years of service outweigh his
misconduct. Certain serious offenses, even though
isolated, warrant separation from the service in order
to maintain proper order and discipline. Violations of
UCMJ Article 128 (Assault), which is equivalent to
the offenses the Applicant was convicted of in civil
court, warrant processing for administrative
separation regardless of grade, performance, or time
in service. This usually results in an unfavorable
characterization of discharge or, at a maximum, a
punitive discharge and possible confinement if
adjudicated and awarded as part of a sentence by a
special or general court-martial. The command did not
pursue a punitive discharge but opted instead for the
more lenient administrative discharge. The NDRB
determined an upgrade would be inappropriate'.
Relief denied.
Summary: After a thorough review of the available
evidence, to include the Applicant's summary of
service, service record entries, and discharge process,
111a

the Board found the discharge was proper and
equitable. Therefore, the awarded characterization of
service shall remain UNDER OTHER THAN
HONORABLE CONDITIONS and the narrative
reason for separation shall remain MISCONDUCT
(CIVIL CONVICTION). The Applicant remains
eligible for a personal appearance hearing for a period
of fifteen years from the date of his discharge. The
Applicant is directed to the Addendum. specifically
the paragraphs titled Additional Reviews, Automatic
Upgrades, and Post-Service Conduct.

112a

10 U.S.C. § 1552: Correction of military records:
claims incident thereto
(a)(1) The Secretary of a military department
may correct any military record of the Secretary's
department when the Secretary considers it necessary
to correct an error or remove an injustice. Except as
provided in paragraph (2), such corrections shall be
made by the Secretary acting through boards of
civilians of the executive part of that military
department. The Secretary of Homeland Security may
in the same manner correct any military record of the
Coast Guard.
(2) The Secretary concerned is not required to
act through a board in the case of the correction of a
military record announcing a decision that a person is
not eligible to enlist (or reenlist) or is not accepted for
enlistment (or reenlistment) or announcing the
promotion and appointment of an enlisted member to
an initial or higher grade or the decision not to
promote an enlisted member to a higher grade. Such
a correction may be made only if the correction is
favorable to the person concerned.
(3)(A) Corrections under this section shall be
made under procedures established by the Secretary
concerned. In the case of the Secretary of a military
department, those procedures must be approved by
the Secretary of Defense.
(B) If a board makes a preliminary
determination that a claim under this section lacks
sufficient information or documents to support the
claim, the board shall notify the claimant, in writing,
indicating the specific information or documents

113a

necessary to make the claim complete and reviewable
by the board.
(C) If a claimant is unable to provide military
personnel or medical records applicable to a claim
under this section, the board shall make reasonable
efforts to obtain the records. A claimant shall provide
the board with documentary evidence of the efforts of
the claimant to obtain such records. The board shall
inform the claimant of the results of the board's
efforts, and shall provide the claimant copies of any
records so obtained upon request of the claimant.
(D) Any request for reconsideration of a
determination of a board under this section, no matter
when filed, shall be reconsidered by a board under this
section if supported by materials not previously
presented to or considered by the board in making
such determination.
(4)(A) Subject to subparagraph (B), a correction
under this section is final and conclusive on all officers
of the United States except when procured by fraud.
(B) If a board established under this section does not
grant a request for an upgrade to the characterization
of a discharge or dismissal, that declination may be
considered under section 1553a of this title.
(5) Each final decision of a board under this
subsection shall be made available to the public in
electronic form on a centralized Internet website. In
any decision so made available to the public there
shall be redacted all personally identifiable
information.
(b) No correction may be made under subsection
(a)(1) unless the claimant (or the claimant's heir or
legal representative) or the Secretary concerned files
a request for the correction within three years after
discovering the error or injustice. The Secretary
114a

concerned may file a request for correction of a
military record only if the request is made on behalf of
a group of members or former members of the armed
forces who were similarly harmed by the same error
or injustice. A board established under subsection
(a)(1) may excuse a failure to file within three years
after discovery if it finds it to be in the interest of
justice.
(c)(1) The Secretary concerned may pay, from
applicable current appropriations, a claim for the loss
of pay, allowances, compensation, emoluments, or
other pecuniary benefits, or for the repayment of a fine
or forfeiture, if, as a result of correcting a record under
this section, the amount is found to be due the
claimant on account of his or another's service in the
Army, Navy, Air Force, Marine Corps, or Coast Guard,
as the case may be, or on account of his or another's
service as a civilian employee. (2) If the claimant is
dead, the money shall be paid, upon demand, to his
legal representative. However, if no demand for
payment is made by a legal representative, the money
shall be paid(A) to the surviving spouse, heir, or
beneficiaries, in the order prescribed by the law
applicable to that kind of payment;
(B) if there is no such law covering order of
payment, in the order set forth in section 2771 of this
title; or
(C) as otherwise prescribed by the law
applicable to that kind of payment.
(3) A claimant's acceptance of a settlement
under this section fully satisfies the claim concerned.
This section does not authorize the payment of any
claim compensated by private law before October 25,
1951.
115a

(4) If the correction of military records under
this section involves setting aside a conviction by
court-martial, the payment of a claim under this
subsection in connection with the correction of the
records shall include interest at a rate to be
determined by the Secretary concerned, unless the
Secretary determines that the payment of interest is
inappropriate under the circumstances. If the
payment of the claim is to include interest, the
interest shall be calculated on an annual basis, and
compounded, using the amount of the lost pay,
allowances, compensation, emoluments, or other
pecuniary benefits involved, and the amount of any
fine or forfeiture paid, beginning from the date of the
conviction through the date on which the payment is
made.
(d) Applicable current appropriations are
available to continue the pay, allowances,
compensation, emoluments, and other pecuniary
benefits of any person who was paid under subsection
(c), and who, because of the correction of his military
record, is entitled to those benefits, but for not longer
than one year after the date when his record is
corrected under this section if he is not reenlisted in,
or appointed or reappointed to, the grade to which
those payments relate. Without regard to
qualifications for reenlistment, or appointment or
reappointment, the Secretary concerned may reenlist
a person in, or appoint or reappoint him to, the grade
to which payments under this section relate.
(e) No payment may be made under this section
for a benefit to which the claimant might later become
entitled under the laws and regulations administered
by the Secretary of Veterans Affairs.

116a

(f) With respect to records of courts-martial and
related administrative records pertaining to courtmartial cases tried or reviewed under chapter 47 of
this title (or under the Uniform Code of Military
Justice (Public Law 506 of the 81st Congress)), action
under subsection (a) may extend only to(1) correction of a record to reflect actions taken
by reviewing authorities under chapter 47 of this title
(or under the Uniform Code of Military Justice (Public
Law 506 of the 81st Congress)); or
(2) action on the sentence of a court-martial for
purposes of clemency.
(g)(1) Any medical advisory opinion issued to a
board established under subsection (a)(1) with respect
to a member or former member of the armed forces
who was diagnosed while serving in the armed forces
as experiencing a mental health disorder shall include
the opinion of a clinical psychologist or psychiatrist if
the request for correction of records concerned relates
to a mental health disorder.
(2) If a board established under subsection
(a)(1) is reviewing a claim described in subsection (h),
the board shall seek advice and counsel in the review
from a psychiatrist, psychologist, or social worker
with training on mental health issues associated with
post-traumatic stress disorder or traumatic brain
injury or other trauma as specified in the current
edition of the Diagnostic and Statistical Manual of
Mental Disorders published by the American
Psychiatric Association.
(3) If a board established under subsection
(a)(1) is reviewing a claim in which sexual trauma,
intimate partner violence, or spousal abuse is claimed,
the board shall seek advice and counsel in the review
from an expert in trauma specific to sexual assault,
117a

intimate partner violence, or spousal abuse, as
applicable.
(h)(1) This subsection applies to a former
member of the armed forces whose claim under this
section for review of a discharge or dismissal is based
in whole or in part on matters relating to posttraumatic stress disorder or traumatic brain injury as
supporting rationale, or as justification for priority
consideration, and whose post-traumatic stress
disorder or traumatic brain injury is related to combat
or military sexual trauma, as determined by the
Secretary concerned.
(2) In the case of a claimant described in
paragraph (1), a board established under subsection
(a)(1) shall(A) review medical evidence of the Secretary of
Veterans Affairs or a civilian health care provider that
is presented by the claimant; and
(B) review the claim with liberal consideration
to the claimant that post-traumatic stress disorder or
traumatic brain injury potentially contributed to the
circumstances resulting in the discharge or dismissal
or to the original characterization of the claimant's
discharge or dismissal.
(i) Each board established under this section
shall make available to the public each calendar
quarter, on an Internet website of the military
department concerned or the Department of
Homeland Security, as applicable, that is available to
the public the following:
(1) The number of claims considered by such
board during the calendar quarter preceding the
calendar quarter in which such information is made
available, including cases in which a mental health
condition of the former member, including post118a

traumatic stress disorder or traumatic brain injury, is
alleged to have contributed, whether in whole or part,
to the original characterization of the discharge or
release of the former member.
(2) The number of claims submitted during the
calendar quarter preceding the calendar quarter in
which such information is made available that relate
to service by a former member during a war or
contingency operation, catalogued by each war or
contingency operation.
(3) The number of military records corrected
pursuant to the consideration described in paragraph
(1) to upgrade the characterization of discharge or
release of former members.
(4) The number and disposition of claims
decided during the calendar quarter preceding the
calendar quarter in which such information is made
available in which sexual assault is alleged to have
contributed, whether in whole or in part, to the
original characterization of the discharge or release of
the former member.
(j) In this section, the term "military record"
means a document or other record that pertains to (1)
an individual member or former member of the armed
forces, or (2) at the discretion of the Secretary of the
military department concerned, any other military
matter affecting a member or former member of the
armed forces, an employee or former employee of that
military department, or a dependent or current or
former spouse of any such person. Such term does not
include records pertaining to civilian employment
matters (such as matters covered by title 5 and
chapters 81, 83, 87, 108, 747, 855, 857, 871, and 947
of this title).

119a

(Aug. 10, 1956, ch. 1041, 70A Stat. 116 ; Pub. L. 86–
533, §1(4), June 29, 1960, 74 Stat. 246 ; Pub. L. 96–
513, title V, §511(60), Dec. 12, 1980, 94 Stat. 2925 ;
Pub. L. 98–209, §11(a), Dec. 6, 1983, 97 Stat. 1407 ;
Pub. L. 100–456, div. A, title XII, §1233(a), Sept. 29,
1988, 102 Stat. 2057 ; Pub. L. 101–189, div. A, title V,
§514, title XVI, §1621(a)(2), Nov. 29, 1989, 103 Stat.
1441 , 1603; Pub. L. 102–484, div. A, title X, §1052(19),
Oct. 23, 1992, 106 Stat. 2500 ; Pub. L. 105–261, div. A,
title V, §545(a), (b), Oct. 17, 1998, 112 Stat. 2022 ; Pub.
L. 107–296, title XVII, §1704(b)(1), Nov. 25, 2002, 116
Stat. 2314 ; Pub. L. 110–417, [div. A], title V, §592(a),
(b), Oct. 14, 2008, 122 Stat. 4474 , 4475; Pub. L. 113–
291, div. A, title V, §521(a), Dec. 19, 2014, 128 Stat.
3360 ; Pub. L. 114–92, div. A, title V, §521, Nov. 25,
2015, 129 Stat. 811 ; Pub. L. 114–328, div. A, title V,
§§533(a), 534(a), (b), Dec. 23, 2016, 130 Stat. 2121 ,
2122; Pub. L. 115–91, div. A, title V, §§520(a), 521(a),
(c)(1), title X, §1081(a)(27), Dec. 12, 2017, 131 Stat.
1379 , 1380, 1595; Pub. L. 115–232, div. A, title VIII,
§809(a), Aug. 13, 2018, 132 Stat. 1840 ; Pub. L. 116–
92, div. A, title V, §§521(a), 523(b)(2)(A), Dec. 20, 2019,
133 Stat. 1353 , 1354.)
HISTORICAL REVISION NOTES
Revised Section
1552(a)

Source (U.S.
Code)

Source
(Statutes at
Large)
5:191a(a)(less
Aug. 2, 1946,
2d and last ch. 753, § 207;
provisos).
restated
Oct.
5:275(a)
(less 25, 1951, ch.
2d and last 588, 65 Stat.
provisos).
655.
120a

1552(b)

1552(c)
1552(d)
1552(e)
1552(f)

5:191a(a)
(2d
and
last
provisos).
5:275(a)
(2d
and
last
provisos).
5:191a(b), (c).
5:275(b), (c).
5:191a(d).
5:275(d).
5:191a(f).
5:275(f).
5:191a(e).
5:275(e).

In subsection (a), the words "and approved by
the Secretary of Defense" are substituted for 5:191a(a)
(1st proviso). The words "when he considers it" are
substituted for the words "where in their judgment
such action is", in 5:191a and 275. The words "officers
or employees" and "means of", in 5:191a and 275, are
omitted as surplusage. The word "naval", in 5:191a
and 275, is omitted as covered by the word "military".
In subsection (b), the words "before October 26,
1961" are substituted for the words "or within ten
years after the date of enactment of this section", in
5:191a and 275. The last sentence of the revised
subsection is substituted for 5:191a(a) (last proviso)
and 275(a) (last proviso).
In subsection (c), the words "if, as a result of correcting
a record under this section * * * the amount is found
to be due the claimant on account of his or another's
service in the Army, Navy, Air Force, Marine Corps,
or Coast Guard, as the case may be" are substituted
for the words "which are found to be due on account of
121a

military or naval service as a result of the action * * *
hereafter taken pursuant to subsection (a) of this
section", in 5:191a and 275. The words "heretofore
taken pursuant to this section", in 5:191a and 275, are
omitted as executed. The words "of any persons, their
heirs at law or legal representative as hereinafter
provided", "(including retired or retirement pay)", "as
the case may be", "duly appointed", "otherwise due
hereunder", "decedent's", "precedence or succession",
and "of precedence", in 5:191a and 275, are omitted as
surplusage. The last sentence is substituted for
5:191a(c) and 275(c).
In subsection (d), the word "but" is substituted
for the words "That, continuing payments are
authorized to be made to such personnel", in 5:191a
and 275. The words "if he is not reenlisted in, or
appointed or reappointed to, the grade to which those
payments relate" are substituted for the words
"without the necessity for reenlistment, appointment,
or reappointment to the grade, rank, or office to which
such pay (including retired or retirement pay),
allowances, compensation, emoluments, and other
monetary benefits are attached", in 5:191a and 275.
The words "or one year following the date of
enactment of this section", in 5:191a and 275, are
omitted as executed. The words "for payment of such
sums as may be due for", in 5:191a and 275, are
omitted as surplusage. The words "(including retired
or retirement pay)", in 5:191a and 275, are omitted as
covered by the definition of "pay" in section 101(27) of
this title.
In subsection (e), the words "No payment may
be made under this section" are substituted for the
words "Nothing in this section shall be construed to

122a

authorize the payment of any
compensation", in 5:191a and 275.

amount

as

REFERENCES IN TEXT
The Uniform Code of Military Justice (Public Law 506
of the 81st Congress), referred to in subsec. (f), is act
May 5, 1950, ch. 169, §1, 64 Stat. 107 , which was
classified to chapter 22 (§551 et seq.) of Title 50, War
and National Defense, and was repealed and
reenacted as chapter 47 (§801 et seq.) of this title by
act Aug. 10, 1956, ch. 1041, §53, 70A Stat. 641 , the
first section of which enacted this title.
AMENDMENTS
2019-Subsec.
(a)(4).
Pub.
L.
116–92,
§523(b)(2)(A), amended par. (4) generally. Prior to
amendment, par. (4) read as follows: "Except when
procured by fraud, a correction under this section is
final and conclusive on all officers of the United
States."
Subsec. (g). Pub. L. 116–92, §521(a), designated
existing provisions as par. (1) and added pars. (2)
and (3).
2018-Subsec. (j). Pub. L. 115–232 substituted
"chapters 81, 83, 87, 108, 747, 855, 857, 871, and 947"
for "chapters 81, 83, 87, 108, 373, 605, 607, 643, and
873".
2017-Subsec. (h). Pub. L. 115–91, §520(a)(2),
added subsec. (h). Former subsec. (h) redesignated (i).
Subsec. (i). Pub. L. 115–91, §1081(a)(27), substituted
"calendar" for "calender" wherever appearing. Pub. L.
115–91, §520(a)(1), redesignated subsec. (h) as (i).
Former subsec. (i) redesignated (j). Subsec. (i)(1). Pub.
123a

L. 115–91, §521(c)(1)(A), substituted "former member"
for "claimant" in two places.
Subsec. (i)(2). Pub. L. 115–91, §521(c)(1)(B),
substituted "former member" for "claimant".
Subsec. (i)(3). Pub. L. 115–91, §521(c)(1)(C),
substituted "former members" for "claimants".
Subsec. (i)(4). Pub. L. 115–91, §521(a), added par. (4).
Subsec. (j). Pub. L. 115–91, §520(a)(1), redesignated
subsec. (i) as (j).
2016-Subsec. (a)(3). Pub. L. 114–328, §534(a),
designated existing provisions as subpar. (A) and
added subpars. (B) to (D).
Subsec. (a)(5). Pub. L. 114–328, §534(b), added par.
(5).
Subsecs. (h), (i). Pub. L. 114–328, §533(a), added
subsec. (h) and redesignated former subsec. (h)
as (i).
2015-Subsec. (b). Pub. L. 114–92 substituted
"(or the claimant's heir or legal representative) or the
Secretary concerned" for "or his heir or legal
representative", "discovering" for "he discovers", and
"The Secretary concerned may file a request for
correction of a military record only if the request is
made on behalf of a group of members or former
members of the armed forces who were similarly
harmed by the same error or injustice. A board" for
"However, a board".
2014-Subsecs. (g), (h). Pub. L. 113–291 added
subsec. (g) and redesignated former subsec. (g) as (h).
2008-Subsec. (c). Pub. L. 110–417 designated
existing provisions as pars. (1) to (3), redesignated
former pars. (1) to (3) as subpars. (A) to (C),
respectively, of par. (2), and added par. (4).

124a

2002-Subsec. (a)(1). Pub. L. 107–296
substituted "Secretary of Homeland Security" for
"Secretary of Transportation".
1998-Subsec. (c). Pub. L. 105–261, §545(a),
inserted ", or on account of his or another's service as
a civilian employee" before period at end of first
sentence. Subsec. (g). Pub. L. 105–261, §545(b), added
subsec. (g).
1992-Subsec. (a)(2). Pub. L. 102–484
substituted "announcing the promotion and
appointment of an enlisted member to an initial or
higher grade or the decision not to promote an enlisted
member to a higher grade" for "announcing a decision
not to promote an enlisted member to a higher grade".
1989-Subsec. (a). Pub. L. 101–189, §514(a),
amended subsec. (a) generally. Prior to amendment,
subsec. (a) read as follows: "The Secretary of a military
department, under procedures established by him and
approved by the Secretary of Defense, and acting
through boards of civilians of the executive part of
that military department, may correct any military
record of that department when he considers it
necessary to correct an error or remove an injustice.
Under procedures prescribed by him, the Secretary of
Transportation may in the same manner correct any
military record of the Coast Guard. Except when
procured by fraud, a correction under this section is
final and conclusive on all officers of the United
States."
Subsec. (b). Pub. L. 101–189, §514(b), substituted
"subsection (a)(1)" for "subsection (a)" in two places.
Subsec. (e). Pub. L. 101–189, §1621(a)(2), substituted
"Secretary of Veterans Affairs" for "Administrator of
Veterans' Affairs".

125a

1988-Subsec. (b). Pub. L. 100–456, §1233(a)(1),
substituted "for the correction within three years after
he discovers the error or injustice" for "therefor before
October 26, 1961, or within three years after he
discovers the error or injustice, whichever is later".
Subsec. (c). Pub. L. 100–456, §1233(a)(2), substituted
"The Secretary concerned" for "The department
concerned".
1983-Subsec. (f). Pub. L. 98–209 added subsec.
(f).
1980-Subsec. (a). Pub. L. 96–513 substituted
"Secretary of Transportation" for "Secretary of the
Treasury".
1960-Subsec. (f). Pub. L. 86–533 repealed
subsec. (f) which required reports to the Congress
every six months with respect to claims paid under
this section.
EFFECTIVE DATE OF 2018 AMENDMENT
Amendment by Pub. L. 115–232 effective Feb. 1, 2019,
with provision for the coordination of amendments
and special rule for certain redesignations, see section
800 of Pub. L. 115–232, set out as a note preceding
section 3001 of this title.
EFFECTIVE DATE OF 2008 AMENDMENT
Pub. L. 110–417, [div. A], title V, §592(c), Oct. 14,
2008, 122 Stat. 4475 , provided that: "The amendment
made by subsection (a) [amending this section] shall
apply with respect to any sentence of a court-martial
set aside by a Corrections Board on or after October 1,
2007, when the Corrections Board includes an order
or recommendation for the payment of a claim for the
126a

loss of pay, allowances, compensation, emoluments, or
other pecuniary benefits, or for the repayment of a fine
or forfeiture, that arose as a result of the conviction.
In this subsection, the term 'Corrections Board' has
the meaning given that term in section 1557 of title
10, United States Code."
EFFECTIVE DATE OF 2002 AMENDMENT
Amendment by Pub. L. 107–296 effective on the date
of transfer of the Coast Guard to the Department of
Homeland Security, see section 1704(g) of Pub. L.
107–296, set out as a note under section 101 of this
title.
EFFECTIVE DATE OF 1980 AMENDMENT
Amendment by Pub. L. 96–513 effective Dec. 12, 1980,
see section 701(b)(3) of Pub. L. 96–513, set out as a
note under section 101 of this title.
CORRECTION
OF
CERTAIN
CHARACTERIZATIONS

DISCHARGE

Pub. L. 116–92, div. A, title V, §527, Dec. 20, 2019, 133
Stat. 1356 , provided that:"(a) IN GENERAL.-In
accordance with this section, and in a manner that is
consistent across the military departments to the
greatest extent practicable, the appropriate board
shall, at the request of a covered member or the
authorized representative of a covered member"(1) review the discharge characterization of that
covered member; and
"(2) change the discharge characterization of that
covered member to honorable if the appropriate board
127a

determines such change to be appropriate after review
under paragraph (1).
"(b) APPEAL-A covered member or the authorized
representative of that covered member may seek
review of a decision by the appropriate board not to
change the discharge characterization of that covered
member. Such review may be made pursuant to
section 1552 of title 10, United States Code, section
1553 of such title, or any other process established by
the Secretary of Defense for such purpose.
"(c) CHANGE OF RECORDS.-For each covered
member whose discharge characterization is changed
under subsection (a) or (b), the Secretary of the
military department concerned shall issue to the
covered member or the authorized representative of
the covered member a corrected Certificate of Release
or Discharge from Active Duty (DD Form 214), or
other like form regularly used by an Armed Force
that"(1) reflects the upgraded discharge characterization
of the covered member; and
"(2) does not reflect the sexual orientation of the
covered member or the original stated reason for the
discharge or dismissal of that covered member.
"(d) DEFINITIONS.-In this section:
"(1) The term 'appropriate board' means a board for
the correction of military or naval records under
section 1552 of title 10, United States Code, or a
discharge review board under section 1553 of such
title, as the case may be.
"(2) The term 'authorized representative' means an
heir or legal representative of a covered member.
"(3) The term 'covered member' means any former
member of the Armed Forces who was discharged

128a

from the Armed Forces because of the sexual
orientation of that member.
"(4) The term 'discharge characterization' means the
characterization assigned to the service of a covered
member on the discharge or dismissal of that covered
member from service in the Armed Forces."
PILOT
PROGRAM
ON
USE
OF
VIDEO
TELECONFERENCING
TECHNOLOGY
BY
BOARDS FOR THE CORRECTION OF MILITARY
RECORDS AND DISCHARGE REVIEW BOARDS
Pub. L. 115–91, div. A, title V, §524, Dec. 12, 2017, 131
Stat. 1381 , provided that:
"(a)
PILOT
PROGRAM
AUTHORIZED.-The
Secretary of Defense may carry out a pilot program
under which boards for the correction of military
records established under section 1552 of title 10,
United States Code, and discharge review boards
established under section 1553 of such title are
authorized to utilize, in the performance of their
duties, video teleconferencing technology, to the
extent such technology is reasonably available and
technically feasible.
"(b) PURPOSE.-The purpose of the pilot program is to
evaluate the feasibility and cost-effectiveness of
utilizing video teleconferencing technology to allow
persons who raise a claim before a board for the
correction of military records, persons who request a
review by a discharge review board, and witnesses
who present evidence to such a board to appear before
such a board without being physically present.
"(c) IMPLEMENTATION.-As part of the pilot
program, the Secretary of Defense shall make funds
available to develop the capabilities of boards for the
129a

correction of military records and discharge review
boards to effectively use video teleconferencing
technology.
"(d) NO EXPANSION OF ELIGIBILITY.-Nothing in
the pilot program is intended to alter the eligibility
criteria of persons who may raise a claim before a
board for the correction of military records, request a
review by a discharge review board, or present
evidence to such a board.
"(e) TERMINATION.-The authority of the Secretary
of Defense to carry out the pilot program shall
terminate on December 31, 2020."
TRAINING OF MEMBERS OF BOARDS
Pub. L. 116–92, div. A, title V, §525(a), Dec. 20, 2019,
133 Stat. 1356 , provided that: "The curriculum of
training for members of boards for the correction of
military records under section 534(c) of the National
Defense Authorization Act for Fiscal Year 2017 [Pub.
L. 114–328] (10 U.S.C. 1552 note) shall include
training on each of the following:
"(1) Sexual trauma.
"(2) Intimate partner violence.
"(3) Spousal abuse.
"(4) The various responses of individuals to trauma."
Pub. L. 114–328, div. A, title V, §534(c), Dec. 23, 2016,
130 Stat. 2122 , as amended by Pub. L. 115–91, div. A,
title V, §523(a), Dec. 12, 2017, 131 Stat. 1381 ,
provided that:
"(1) IN GENERAL.-Not later than one year after the
date of the enactment of this Act [Dec. 23, 2016], each
Secretary concerned shall develop and implement a
comprehensive training curriculum for members of
boards for the correction of military records under the
130a

jurisdiction of such Secretary in the duties of such
boards under section 1552 of title 10, United States
Code. The curriculum shall address all areas of
administrative law applicable to the duties of such
boards. This curriculum shall also address the proper
handling of claims in which a sex-related offense is
alleged to have contributed to the original
characterization of the discharge or release of the
claimant, including guidelines for the consideration of
evidence substantiating such allegations in
accordance with the requirements of section 1554b(b)
of title 10, United States Code, as added by section 522
of the National Defense Authorization Act for Fiscal
Year 2018 [Pub. L. 115–91].
"(2) UNIFORM CURRICULA.-The Secretary of
Defense and the Secretary of Homeland Security shall
jointly ensure that the curricula developed and
implemented pursuant to this subsection are, to the
extent practicable, uniform.
"(3) TRAINING."(A) IN GENERAL.-Each member of a board for the
correction of military records shall undergo retraining
(consistent with the curriculum developed and
implemented pursuant to this subsection) regarding
the duties of boards for the correction of military
records under section 1552 of title 10, United States
Code, at least once every five years during the
member's tenure on the board.
"(B) CURRENT MEMBERS.-Each member of a board
for the correction of military records as of the date of
the implementation of the curriculum required by
paragraph (1) (in this paragraph referred to as the
'curriculum implementation date') shall undergo
training described in subparagraph (A) not later than
90 days after the curriculum implementation date.
131a

"(C) NEW MEMBERS.-Each individual who becomes
a member of a board for the correction of military
records after the curriculum implementation date
shall undergo training described in subparagraph (A)
by not later than 90 days after the date on which such
individual becomes a member of the board.
"(4) REPORTS.-Not later than 18 months after the
date of the enactment of this Act [Dec. 23, 2016], each
Secretary concerned shall submit to Congress a report
setting forth the following:
"(A) A description and assessment of the progress
made by such Secretary in implementing training
requirements for members of boards for the correction
of military records under the jurisdiction of such
Secretary.
"(B) A detailed description of the training curriculum
required of such Secretary by paragraph (1).
"(C) A description and assessment of any impediments
to the implementation of training requirements for
members of boards for the correction of military
records under the jurisdiction of such Secretary.
"(5) SECRETARY CONCERNED DEFINED.-In this
subsection, the term 'Secretary concerned' means a
'Secretary concerned' as that term is used in section
1552 of title 10, United States Code."
BOARD FOR
RECORDS

CORRECTION

OF

MILITARY

Pub. L. 101–225, title II, §212, Dec. 12, 1989, 103 Stat.
1914 , provided that: "Not later than 6 months after
the date of the enactment of this Act [Dec. 12, 1989],
the Secretary of Transportation shall"(1) amend part 52 of title 33, Code of Federal
Regulations, governing the proceedings of the board
132a

established by the Secretary under section 1552 of
title 10, United States Code, to ensure that a complete
application for correction of military records is
processed expeditiously and that final action on the
application is taken within 10 months of its receipt;
and
"(2) appoint and maintain a permanent staff, and a
panel of civilian officers or employees to serve as
members of the board, which are adequate to ensure
compliance with paragraph (1) of this subsection."

133a

202.777.8950 (T)
202.347.8429 (f)

Bowen Building
875 15th Street, NW, Suite 725
Washington DC 20005

415.956.2828 (t)
415.956.6457 (f)

Robert Dollar Building
311 California Street, 10th Flr.
San Francisco CA 94104

www.rjo.com
ROGERS JOSEPH O’DONNELL
December 7, 2017
Catherine L. Kessmeier
Assistant General Counsel (Manpower and Reserve
Affiars)
Department of the Navy
Office of the Assistant Secretary
(Manpower and Reserve Affairs)
1000 Navy Pentagon
Washington, DC 20350-1000
Re:

Walter Strand Request To Be Retired

Dear Ms. Kessmeier:
We provide this response to your letter of
November 28, 2017 allowing Mr. Strand to submit
additional information for your consideration in
rendering a new decision on his case. We appreciate
the opportunity to provide you this input, and hope
that it will favorably influence the outcome for Mr.
Strand.

134a

Your letter includes four references that you
will review: the Remand Order of the Court of Federal
Claims (COFC); the Opinion of the Court of Appeals
for the Federal Circuit; the Judgment of the COFC;
and Administrative Record Volume I (AR). These are
the appropriate materials for your review. We would
note that much of the Administrative Record, in
particular, was developed over a course of four years
while Mr. Strand proceeded through the recordcorrection process pro se after his release from prison.1
During this journey, two different Navy boards,
including the Board for Correction of Naval Records
(BCNR), granted Mr. Strand relief. Upon review of the
record materials, it is easy to see why-while many
service members seek correction of their records, Mr.
Strand's is a rare case where relief is clearly in order.
Mr. Strand honorably served for 191/2 years in
the Navy, spending a total of 11 years, 2 months and
15 days of that time deployed, including deployments
in support of combat operations in Iraq and
Afghanistan; he earned top ratings on his fitness
reports as well as numerous commendations and
personal awards. Appx089, Appx161, Appx183-213.
He was a recognized leader and a shining example of
how a career in the Navy can change the trajectory of
a person's life. After returning from his last
deployment, Mr. Strand was arrested on February 16,
2008, for firing a weapon at a vehicle carrying his
estranged wife during a dispute about Mr. Strand's
desire to reconcile with his wife and gain access to his
children. Appxl22-23, Appxl36-39, Appxl52, Appxl66.
1 In this document, citations to the AR will use the Bates
numbers applied by the Navy to the Joint Appendix during the
prior litigation in the Federal Circuit.

135a

Mr. Strand was convicted on February 4, 2009 and
subsequently discharged by the Navy on June 26,
2009, after his 20- year retirement date had passed.
Appx088. Although sentenced to six years in prison,
Mr. Strand was released after three years based upon
his model conduct. Appx088. Mr. Strand then
embarked on a four-year campaign to correct his
record, finish his service and put his life back
together. See Appx087-90, Appx093-95, Appxl02-03,
Appxl07-12, Appxl 17-18, Appxl41-46, Appxl55-57,
Appx160. On May 3, 2012, the Naval Discharge
Review Board first upgraded the characterization of
Mr. Strand's service to general under honorable
conditions. Appxll 1-13. Then on December 15, 2014,
the BCNR ultimately considered all available
evidence in the AR and granted Mr. Strand relief in
the form of correction of his Naval record "to show that
he was honorably retired with 20 years of service vice
issued a general discharge under honorable conditions
by reason of misconduct ( civil conviction) on 26 June
2009." Appx087-90.
It should be noted that Mr. Strand was not
granted relief based on his prior service alone. Rather,
the BCNR considered materials submitted by Mr.
Strand and his witnesses, and Mr. Strand's own
personal testimony, about his post-service conduct
and efforts to rebuild his life. The BCNR, through
which Congress has directed the Secretary of the
Navy to act in correcting service records (see 10 U.S.C.
§ 1552), saw merit in Mr. Strand's case and granted
him some, though not all, of the relief requested.
Specifically, though Mr. Strand had long fought to
reenter the Navy to complete his 20 years of service to
earn his retirement, and possibly serve more,
136a

advancing further in rank, rebuilding his reputation,
and obtaining better pay and benefits, the BCNR
denied this relief. Instead, the BCNR retired Mr.
Strand with time credited for retirement purposes and
allowed him to continue on with his new civilian life.
Your predecessor, AGC Robert L. Woods
reviewed the BCNR's decision and disapproved it on
two grounds. First, he said that "[g]ranting the relief
recommended by the Board is wholly inconsistent
with Navy core values and practice in similar cases
involving discharge for criminal conduct and criminal
conviction." Appx082. Second, he said that Mr. Strand
had a "long-standing history ofF AP [Family Advocacy
Program] involvement and domestic violence issues."
Id. The litigation in COFC and the Federal Circuit
followed. The COFC rejected both of the rationales
and found in Mr. Strand's favor. As to the second
rationale, the Federal Circuit's affirmation of the
COFC's judgment has now established the law of the
case that "the Secretary's finding that Mr. Strand had
a long-standing history of domestic violence issues
and F AP involvement is not supported by substantial
evidence." See Ref. (b) at 6. The Federal Circuit
observed that "[w]hile the Government argues that
Mr. Strand's conduct giving rise to his civil
confinement supports the Secretary's conclusion, Mr.
Strand's conduct, though serious, does not reflect a
'long-standing history' of issues." Id. In other words, a
key issue is settled- there are no facts in the record
upon which the Navy can deny Mr. Strand relief.
Regarding Mr. Woods' other rationale, the
Federal Circuit continued:

137a

Despite the foregoing, the Government
argues that we should still uphold the
Secretary's decision because it sets
forth other policy rationales and
evidence. But because the Secretary
relied on a combination of intertwined
reasons, and Mr. Strand has shown
that at least one of those reasons is not
supported by substantial evidence, the
record is not clear as to whether the
Secretary would still reach the same
conclusion. Thus, the Secretary's
decision must be reversed.
Id. at 7 ( emphasis added). The "other policy rationales
and evidence" referred to were the Navy's arguments
in support of Mr. Woods statement that "[g]ranting
the relief recommended by the Board is wholly
inconsistent with Navy core values and practice in
similar cases involving discharge for criminal conduct
and criminal conviction." It is important for your office
to note that, although presented with an opportunity
to adopt this independent rationale of Mr. Woods,
which the Navy had briefed and argued extensively in
both courts, both the COFC and the Federal Circuit
declined to adopt the position that this rationale,
standing alone, was sufficient to deny Mr. Strand
relief.
One reason the courts declined to accept that
argument, we believe, is that the Navy's core values of
honor, courage, and commitment are a two-way street.
Just as Mr. Strand owes honor, courage, and
commitment to the Navy, so too does the Navy owe
honor, courage, and commitment to Mr. Strand. Mr.
138a

Woods stated that granting Mr. Strand relief would be
inconsistent with those core values, but there is no
possible explanation why continuing to deny relief
that the BCNR saw fit to grant Mr. Strand is
consistent with Navy core values. To the contrary, the
concept of redemption recognized by the BCNR that is
at issue in Mr. Strand's case is wholly consistent with
the Navy's core values.2
Mr. Strand has reconciled with his ex-wife
(though they are divorced) and he plays an active role
in the lives of their children, including a stepson who
has a serious medical condition. Mr. Strand works
multiple jobs, provides all of his available income to
support his children, and lives effectively homeless on
a couch so that he can provide support for his family.
Mr. Strand's current state is traceable directly to the
existing record that the BCNR attempted to correct.
Although Pennsylvania, where Mr. Strand lives, has
adopted "ban the box" laws to prevent minorities like
Mr. Strand from suffering disproportionately in
employment decisions based on criminal records
checks, there is no such prohibition on reviewing a
potential employee's service record. Mr. Strand's
service record contains all of the training and
2 There is also a second obvious problem with the Navy's
contention. It is simply not true that the Navy's practice in
similar cases dictates the result. Every case should be judged on
its own merits. And you need to look no further than the facts of
Strickland v. United States, to see a situation where a former
sailor was convicted of a civilian offense just shy of reaching his
20-year retirement date, but was subsequently retired
notwithstanding the severe matter of child sexual abuse that was
at issue in his case. In other words, the merits of an individual
case may counsel in favor of retirement, notwithstanding serious
criminal conduct.

139a

certifications he has achieved that would be necessary
for him to obtain employment commensurate with his
skills, but it also still contains information about his
criminal record that the BCNR decided to remove.
Thus, among other things, Mr. Strand's uncorrected
record provides a backdoor for employers to deny him
gainful employment and prevent him from fully
reintegrating into civilian life.
Regarding core values, Mr. Strand does not
deny that the act for which he was convicted and
discharged from the Navy violated them. Indeed, it is
precisely because he understands that, accepts
responsibility for his action, and has tried to make
amends and lead an exemplary life, that he merits
relief. He is not a trouble-maker who flew under the
radar until caught, and now seeks to advance his
cause on a technicality.
In the courts, the Navy took the position that
granting Mr. Strand relief ran counter to core values
because it equated Mr. Strand with sailors who served
honorably. This is based on a mistaken comparison.
Mr. Strand will never be able to serve further in a
career that he loved and excelled at, attain higher
rank, achieve additional recognition and awards, or
better training and credentials that he can leverage in
civilian life. He will not qualify for better benefits or
higher retirement pay. Those privileges are reserved
for sailors who do not make the mistake that Mr.
Strand did. No one will view Mr. Strand as someone
who has not paid a steep price for his serious mistake.
And most who commit similar mistakes will not have
Mr. Strand's long and impeccable record of honorable
service combined with a demonstrated commitment to
140a

atonement and post-service reintegration to stand
upon when they come before the BCNR.
Mr. Strand has paid for the sole indiscretion he
committed over the course of a stellar 20-year career,
and there is nothing honorable, courageous, or
committed about continuing to needlessly and
punitively penalize a former sailor who spent a
lifetime defending this nation, made a split second
error in judgment while under intense emotional
stress, and then immediately accepted responsibility
and has spent close to a decade trying to atone for it.
It is time for the Navy to retire Mr. Strand, just
as the BCNR decided to do nearly three years ago. If I
can be of any further assistance, please feel free to
contact me at 202-777-8955, or lhanback@rjo.com.
Sincerely,
/s Lucas T. Hanback
Lucas T. Hanback

141a

DEPARTMENT OF THE NAVY
OFFICE OF THE ASSISTANT SECRETARY
(MANPOWER AND RESERVE AFFAIRS)
1000 NAVY PENTAGON
WASHINGTON, D.C. 20350-1000
November 28, 2017
Mr. Jeffery M. Chiow
Rogers Joseph O’Donnell, P.C.
875 15th Street N.W., Suite 725
Washington, D.C. 20005
jchiow@rjo.com
SUBJECT: WALTER N. STRAND III, BCNR
DOCKET NUMBER: NR4145-14
Ref:

(a) Remand Order, Court of Federal Claims
(b) Court of Appeals for the Federal Circuit
Opinion
(c) Judgment, Court of Federal Claims
(d) Administrative Record Volume I

Mr. Chiow:
I will act on Mr. Strand’s case on remand. In
order to come to a complete and impartial
determination, I will be reviewing references (a)-(d).
If you desire, you may submit any additional
information to me within 10 days from the date of this
letter. I will then review the matter and issue a
decision by January 5.
Sincerely,

142a

/s Catherine L. Kessmeier
Catherine L. Kessmeier
Assistant General Counsel
(Manpower and Reserve Affairs)

143a

